Semiannual
Office of Inspector
             Report General
U.S. Department of Labor
U.S. Department of Labor
Lynn Martin, Secretary

Office of inspector General
Julian W. De La Rosa, Inspector General

April 1 - September 30, 1991
                    The Inspector Genera s Message

I am pleased to submit this Semiannual Report that covers the period April 1 -
September 30, 1991, and also marks the close of a productive and successful Fiscal Year
for the Office of Inspector General (OIG).

During Fiscal Year 1991, the OIG conducted over 500 audits of the U.S. Department
of Labor (DOL) activities, recommending over $111.4million for better use, and the
disallowance of some $28.7 million. Our audit regarding problems with reliance on
grantees' reports under the single audit act spotlighted real concerns about the ac-
countability for DOL funds spent below the Departmental level. The development of
cost-based program results statements for the Job Corps program, discussed in this
report, is a vivid example of our commitment to ensuring DOL program accountability.
These statements clearly show the initial results the program achieved and the cost to
the taxpayer of those results.

The OIG's investigative activities over this same period resulted in 449 successful
criminal prosecutions, and in recoveries of some $11.8 million in fines, penalties,
restitutions, settlements, and cost efficiencies. One outstanding investigation by the
OIG's Office of Labor Racketeering led to the arrest of the operators of a fraudulent
multiple employer welfare arrangement which defrauded over 120 businesses and their
employees by causing them to believe that they were covered by health insurance when,
in fact, only minimal coverage was provided. Approximately $500,000 in contributions
was allegedly expended for purposes other than medical claims. Under Federal money
laundering statutes, the Government was able to seize residences, automobiles, office
and mining equipment, business and personal bank accounts, and other assets con-
nected to the scheme. In another investigation by the OIG's Office of Investigations,
we found that 22 States may have lost millions of dollars in an unemployment insurance
fraud scheme. The perpetrators       of this scheme were charged with conspiracy to
defraud the Government by filing numerous fraudulent claims made on behalf of
registered aliens residing in Mexico.

In this report, I again alert the Department and the Congress to the need for strength-
ening the integrity of the audits of pension plan assets. One important step towards this
goal would be the elimination of the limited scope audit, which is of no value. This and
other concerns are reported because they bear directly on the economy and efficiency
of significant programs and operations of the Department of Labor. Because the laws
administered by the Department touch in such pervasive and substantial ways the lives
of American workers and retirees, these concerns deserve to be raised. The expression
of these concerns underlines the role crafted for the Inspector General in the Act of
1978: that of an objective and appropriately independent auditor, investigator, and
reviewer.

I am eager to work with Secretary Lynn Martin and the Congress to bring about these
and other needed changes. I am pleased with our continuing relationships of coopera-
tion and am hopeful that, by working together, we can assure that integrity and ac-
countability are watchwords for the Department's programs.




Julian W. De La Rosa
Inspector General




                                         ii
                         Significant Cencer s
                       of the Inspector Gerera]

                       In a November 1989 audit report, the OIG described how
Pension Plan Audit     the Employee Retirement Income Security Act of 1974
Inadequacies Persist
                       (ERISA) audit process fails to adequately protect covered
                       pension plan assets or plan participants,   Almost 2 years
                       have passed since the OIG noted its significant concerns
                       about these problems with the ERISA audit process. The
                       problems -- and the OIG's concerns -- persist.

                       Chief among the OIG's recommendations            to remedy this
                       problem was the prompt elimination of the "limited scope"
                       audit provision of ERISA. Under this provision, the inde-
                       pendent auditor is not required to perform audit tests of
                       plan assets held in trust by a financial institution subject to
                       Federal regulation, such as a bank or savings and loan
                       institution. Our audit found that, of the covered employee
                       benefit plans audited, over half of the plan administrators
                       used this exemption. When this occurs, the auditor dis-
                       claims or does not issue an opinion on the accuracy of the
                       plan's financial statements. It is the position of the OIG, the
                       Department of Labor, and the American Institute of Certi-
                       fied Public Accountants that "no opinion" audits such as
                       these provide no substantive assurance of asset integrity to
                       benefit plan participants; neither do they provide adequate
                       assurance to the Department that the private pension plan
                       system is sound.

"No Opinion" Audits    It remains the OIG's position that, because the "no opinion"
Are of No Value        audits are of little or no value, the cost required to produce
                       them is nearly impossible to justify. The OIG believes that
                       full scope pension plan audits, which would make possible
                       real actuarial opinions of the financial condition of plan
                       assets, can be accomplished with little additional cost to plan
                       participants.
                         The OIG believes that prompt attention and action by the
                         Department and the Congress are needed to assure passage
                         of legislation to eliminate the limited scope audit provision
                         and correct other weaknesses in ERISA. Therefore, it is
                         urgently recommended that the Department submit such
                         proposals to the Congress, and that the Congress act promptly
                         to improve the level of protection for private pension plan
                         participants.




DOL Enforcement          The OIG has found that the Department's        enforcement
Minimizes Criminal       agencies have made concerted efforts to improve their en-
Remedies                 forcement programs. Concerns remain, however, about the
                         limited pursuit of viable and appropriate criminal enforce-
                         ment remedies. Even though criminal enforcement coordi-
                         nators have been hired by all the enforcement agencies,
                         their duties and responsibilities have not been clearly de-
                         lineated.




Health Insurance Fraud   The OIG continues to conduct criminal investigations of
Is Still a Problem       fraudulent MEWAs that masquerade as legitimate provid-
                         ers of group health coverage.       OIG investigations have
                         disclosed MEWA schemes that create tragic consequences
                         for subscribing employers and participants by leaving them
                         liable for unpaid medical bills and sometimes "pre-existing"
                         health conditions for which they will never be insured in the
                         future.

                         The OIG continues to support, at a minimum, efforts to-
                         wards legislation which would clarify whether or not a MEWA
                         is covered by State law or could claim Federal (ERISA)
                         exemption and Federal registration of MEWAs. Although
                         the Department has advocated Federal MEWA registration
                         in past years, nothing has been pursued.




                                         2
Chief Financial          The Department's Chief Financial Officer (CFO) will face
Officer Implementation   many challenges and opportunities.    Although the Depart-
Incomplete               ment has taken major steps to correct longstanding deficien-
                         cies in financial management, there are critical actions still
                         pending. Three actions -- completing the implementation of
                         the integrated financial management system, improving
                         financial and performance reporting, and implementing the
                         CFO organization -- are particularly critical.

                         The OIG has identified problem areas where the Depart-
                         ment's CFO can have an immediate, positive impact. AS
                         long as this position remains vacant, the solutions to these
                         problems will remain elusive.


                         Over the past 4 years, the OIG has reported to the Congress
Job Training Law
Needs Amendment          serious deficiencies in the Job Training Partnership Act
                         (JTPA) program. The primary issues have been inadequate
                         targeting of the most disadvantaged, inadequate cost ac-
                         countability and financial reporting, and lack of uniform
                         cost principles and uniform procurement standards.

                         Last year, in an attempt to alleviate these longstanding
                         problems, the House overwhelmingly passed a JTPA reform
                         bill. However, the Senate 'never introduced its version of
                         JTPA amendments, and the program continued for yet another
                         year without action to alleviate the concerns we have de-
                         scribed.

                         In the    102nd Congress, the House again overwhelmingly
                         passed    (420-6) another JTPA bill, H.R. 3033, which would
                         correct    many of the most serious deficiencies in the pro-
                         gram.     However, the Senate, at the close of this reporting
                         period,   had not introduced a bill to amend JTPA.

                         The OIG is concerned that another congressional session
                         will close without badly needed legislative changes to the
                         JTPA system, allowing only limited changes through the
                         regulatory process.




                                           3
Law Enforcement    The OIG again reports the need for full law enforcement authority
                   for all of its special agents. The OIG's special agents are classified
Authority Needed
                   as criminal investigators under the same U.S. Office of Personnel
for OIG Agents     Management position classification that designates all statutory
                   law enforcement positions. Unlike most other Federal law enforce-
                   ment agents, however, OIG special agents lack full law enforce-
                   ment authority. This not only adversely affects the efficiency of the
                   OI's operations, but it subjects these agents to unreasonable per-
                   sonal risks.

                   Currently, the OIG's Office of Investigations (OI) uses a case-by-
                   case deputization process managed by the Department of Justice
                   (DO J) to minimize the risks to its agents and cooperating witnesses;
                   however, this method is not satisfactory. Although the DOJ has
                   promised to streamline the deputation request/approval       process,
                   there has been an increase in the bureaucratic hurdles each request
                   must clear prior to approval.       The OI has also relied on other
                   agencies with full law enforcement authority to assist in OI cases.
                   This is not a suitable alternative.

                   Clearly, the most efficient and effective solution to this problem is
                   for the Congress to grant full law enforcement authority to OIG
                   criminal investigators. Another solution is for the DOJ to issue a
                   blanket deputation for all agents assigned to a particular Inspector
                   General's office. These deputations are renewable annually, but
                   they cover agents for all of their investigations.

                   The OIG's Office of Labor Racketeering (OLR) has been granted
                   blanket deputization authority by the DOJ for its specific investiga-
                   tive role for approximately 5 years. This process is much more
                   efficient than the case-by-case approach required of OI, but does
                   not resolve the overall need for full law enforcement authority for
                   both OI and OLR.




                                           4
                                         Executive Summary

Challenges            for the Chief Financial Officer

The appointment of a Chief Financial Officer (CFO) for the Department of
Labor is expected to be forthcoming pursuant to the provisions of the CFO
Act. The appointee will face many challenges and opportunities to improve
the financial systems, reporting, and general operating environment for the
Department's financial management operations.

For severalyears, the OIG has performed financial audits, including financial
statement audits, the objectives of which were to improve financial manage-
ment operations.    Because of this experience, the OIG is in a position to
highlight certain priority actions which, if completed, would greatly assist in
meeting these original objectives. With the central coordination afforded by
a CFO, the opportunity is at hand to make the Department's             financial
management operations a model for the Federal sector .................................... page 12


Revision of ERISA Audit Guide

The improvement in the quality of ERISA benefit plan audits by independ-
ent public accountants has long been a goal of the OIG. Working in concert
with the American Institute of Certified Public Accountants and the Pension
and Welfare Benefits Administration, a revised audit guide has been com-
pleted. Implementation                   of the guide, together with legislation to eliminate
"limited scope" audit provision, would go a long way towards meeting this
goal ..............................................................................................................................   page 13


Improved           Accountability               for the Job Corps Program

Both the Chief Financial Officers Act and the Job Training Partnership Act,
under which the Job Corps Program operates, recognize that a measure of
program performance is necessary before a valid assessment of "return on
investment" can be made. The OIG has taken a major step in this direction
with the completion of cost-based program results statements (audited
financial statements matched with audited program results statements).
These statements show the initial results the program achieved and the cost
of the results. This is a necessary step in the process of developing valid
performance measures for the Job Corps program .............................................. page 19


                                                                         5
ETA's Grant and Contract Management                           Information      System (GCMIS)

The Employment and Training Administration (ETA) is developing a new
automated system to account for grant and contract obligations, payments
and expenditures. This development effort has numerous problems, includ-
ing unresolved issues between ETA and OASAM, Department-wide      coordi-
nation problems, and issues of funding and system development planning .... page 27


Law Enforcement            Authority       Needed for Special Agents

The OIG is concerned that case-by-case deputization by the Department of
Justice of some of OIG's criminal investigators does not adequately meet the
need for permanent law enforcement powers necessary to ensure the safety
of OIG's witnesses and agents ................................................................................. page 53



JTIPA Fraud Charges

Investigations this reporting period resulted in the indictment of the mayor
of Waterbury, Connecticut, for nine counts of fraud relating to the embezzle-
ment of JTPA funds and the indictment of a former Georgia State Represen-
tative for involvement in theft of JTPA training funds ........................................ page 47


RemovM of Casino             Union Leaders

Using the civil provisions of the Racketeer Influenced and Corrupt Organi-
zations statue, the Federal Government has removed union officials and
alleged associates of La Cosa Nostra organized crime family from positions
of power in an Atlantic City, New Jersey, casino union ...................................... page 61




                                                          6
                                                   Selected Statistics
                                       April 1 - September,30,                                1991

    Audit Activities

            Reports issued on DOL activities ............................................................ 270
            Reports issued for other Federal agencies ................................................ 2
            Total questioned costs .............................................................. $18.7 million
            Funds recommended for better use ...................................... $ 8.3 million
            Dollars resolved ....................................................................       $117.4 million
               Allowed ................................................................................ $ 2.2 million
               Disallowed .......................................................................... $ 6.9 million
               Agreed funds put to better use ..................................                        $108.3 million


    Fraud and Integrity Activities

       Cases opened ....................................................................................................     270
       Cases closed ......................................................................................................   554
       Cases referred for prosecution ...................................................................... 211
       Cases referred to DOL agencies for administrative action ...................... 100
       Indictments ........................................................................................................ 195
       Convictions ........................................................................................................ 185
       Recoveries, cost efficiencies, restitutions,
       fines/penalties, and settlements .................................................... $3.3 million"

    Labor Racketeering Investigation Activities

       Cases opened ...................................................................................................... 59
       Cases closed ........................................................................................................ 45
       Indictments .......................................................................................................... 66
       Convictions .......................................................................................................... 69
'      Fines ........................................................................................................  $394,000
       Restitutions ............................................................................................ $934,000




    "For definitions of these categories and a breakdown of the total figure, please see
    the appendix to Chapter 2, page 56.

                                                                       7
                                                      Table of Contents


Inspector       General's         Message             ..............................................................................................           i

Significant       Concerns          ..............................................................................................................            1

Executive       Summary             ..............................................................................................................            5

Selected      Statistics        ..................................................................................................................            7


Chapter       1 - Office of Audit ................................................................................................                          11

    Section     1 - Improvements in Accountability ........................................................................................          11
    Section     2 - Job Corps Program .............................................................................................................. 19
    Section     3 - Agency Activities ..................................................................................................................
                                                                                                                                                     26
    Section     4 - Audit Resolution and Revised Management Decisions ..................................................43

Chapter       2 - Office of Investigations                        ..................................................................................        47

Chapter       3 - Office of Labor Racketeering                                  ......................................................................      57

Chapter       4 - Office of Resource                     Management                  and Legislative                 Assessment              ................ 65

Chapter       5 - Audit Schedules                   and Tables ..........................................................................                   69

    Money Owed to the Department of Labor ..........................................................................................              71
    Summary of Audit Activities of DOL Programs ..................................................................................72
    Summary of Audit Activities of ETA Programs ..................................................................................73
    Summary of Audits Performed under the Single Audit Act ..............................................................74
    Summary of Audits Performed under the Single Audit Act/Multi-Agency ......................................75
    Audits by Non-Federal Auditors ............................................................................................................   76
    Summary of Audit Resolution Activity/Questioned Costs ................................................................77
    Summary of Audit Resolution Activity/Unsupported Costs ..............................................................78
    Summary of Audit Resolution Activity/Funds Put to Better Use ......................................................79
    Unresolved Audits Over 6 Months ........................................................................................................      80
    Summary of Final Action Activity ..........................................................................................................   82
    List of Final Reports Issued ....................................................................................................................
                                                                                                                                                  83

Abbreviations           used in this Report                     ....................................................................................        91




                                                                              9
                                       Chapter      1

                                  Office of Audit

                                     Introduction



During this reporting period, 272 audits of program activities, grants, and contracts
were issued. A list of these audit reports is contained in Chapter 5. Of these, 82 were
performed by OIG auditors, 58 by CPA auditors under OIG contract, 20 by State and
local government auditors, and 112 by CPA firms hired by DOL grantees.

During this reporting period, the OIG continued to focus on problems related to pro-
grammatic and financial accountability, especially as they relate to departmental
financial management, pension plan audits, enforcement, and job training fund man-
agement.

This Chapter contains four sections. Section 1 (immediately following) focuses on
current issues of financial and programmatic accountability.         Section 2 (page 19)
reports the accomplishments of an OIG project to develop a valid measure of the
economicvalue of the Job Corps Program. Section 3 (page 26) reports significant audit-
related activities for the major agencies of the Department. Section 4 (page 43) reports
significant audit resolution activity and significant revised management decisions of
DOL agency management. Chapter 5 (page 69) contains a chart showing money owed
to the Department, audit schedules and tables, and a listing of final audit reports issued
during the period.


                                        Section 1


                           Improvements in Accountability
                         in Certain Activities and Programs


Developments of the past few years in the Federal sector indicate a heightened
awareness of the "accountability issue" in applying resources to Government activities
and programs. A primary motivation for legislation such as the Inspector General Act
of 1978, the Federal Managers' Financial Integrity Act of 1982, certain Sections of the
Job Training Partnership Act of 1982 (JTPA), the Chief Financial Officers Act of 1990
(CFO Act), and others, was to increase accountability in the application of Federal
resources, especially financial resources.


                                            11
The focus    of Section    1 is on activities     which    directly    affect   the integrity     of and accounta-
bility for departmental    resources.           Most   of these    activities   have been       positive;   however,
much remains      to be accomplished.



Impact   of the CFO Act Implementation                         General Accounting Office (GAO) standards and
on Financial   Management                                      OMB circulars require Federal agencies to have
AccountabiRity                                                 such a system. Although the Department is mak-
                                                               ing progress toward this goal, the CFO will have to
                                                               make several critical decisions. Recent OIG re-
Status of Departmental                                         ports on the Department of Labor Accounting
Implementation   of the CFO Act                                and Related Systems (DOLAR$, the Department's
                                                               general ledger accounting system) disclosed that,
Although the Office of Management and Budget                   while significant improvements have been made
(OMB) has approved the Department's reorgani-                  (see page 15), important decisions related to sys-
zation of financial management   activities, and               tern interfaces and internal controls remain.
internal implementing guidance is being devel-
oped, the nomination of the Department's Chief                 For example, unresolved accounting issues re-
Financial Officer (CFO) has not yet been made.                 lated to the development of ETA's Grants and
To continue financial management improvements                  Contract     Management      Information     System
at a rapid pace, it is important that the CFO be in            (GCMIS) exist and remain a major OIG concern
place to direct this effort.                                   (see page 27). Our report on this system disclosed
                                                               that ETA and departmental        management have
The OIG continues to take a lead role in imple-                not yet resolved certain issues concerning, among
menting the Act. Because the OIG has been a                    other things, data flow and transaction control.
pioneer in developing Federal financial statements,            Developing a major subsystem without resolving
OMB has recruited our assistance in developing                 these issues will perpetuate the Department's past
OMB bulletins related to the form and content,                 uncoordinated and inefficient financial manage-
and audit of, Federal financial statements.      The           ment activities.
OIG is also currently leading a project to establish
audit policies for the performance of Federal fi-              Another critical action is to address the deficien-
nancial statement audits and has provided training             cies in the Department's financial reporting func-
in financial statement auditing to other Offices of            tion. Over the years, OIG audits have identified
Inspectors General.                                            internal and external reports containing unreli-
                                                               able and misleading financial information.       A1-
Challenges   for the CFO                                       though departmental management has made sig-
                                                               nificant progress in correcting reporting deficien-
The Department's CFO will face many challenges                 cies, a major challenge for the CFO will be to
and opportunities. Although the Department has                 c,ontinue this progress, especially in the areas of
taken major steps to correct long-standing deft-               financial statement     analysis and performance
ciencies in financial management, there are criti-             measures.
cal actions still pending. Three actions -- complet-
ing the implementation of an integrated financial              The CFO Act recognizes the importance of per-
management        system, improving financial and              formance measures and the Department has be-
performance reporting, and implementing the CFO                gun to develop such measures for each of its major
organization -- are particularly critical,                     programs.    The annual audited financial state-
                                                               ments provide a perspective from which these
One action involves the implementation of a single,            measures can be evaluated.    The OIG strongly
fully integrated financial management     system,              endorses this approachwhichwe    believe will form

                                                          12
a basis for fully assessing program accountability.           The report on internal control structure noted
Recently, the OIG completed a project in pro-                 seven areas that were considered to be "report-
gram accountability in which audited Job Corps                able conditions," or deficiencies in the design or
financial statements were linked to audited per-              operation of the internal control structure, that
formance measures for initial outcomes to pro-                could adversely affect the ability to record, proc-
vide clear and reliable information on the pro-               ess, summarize, and report financial data. These
gram's initial effectiveness.   Section 2 describes           were:
this work and demonstrates the usefulness of this
approach in assessing program accountability.                     (1) lack of reconciliation   of funds with U.S.
                                                              Treasury;
The third action is to implement the CFO organ-
izational changes currently envisioned by the                     (2) deficiencies inthegeneralledgeraccount-
Department as well as to develop a cadre of skilled           ing system;
financial professionals.  The OIG believes that
major changes in the amount, skill level, and or-                 (3) insufficient grants accounting   systems;
ganization of resources applied to financial man-
agement are necessary if the CFO is to be success-                 (4) weak accounting controls over withdraw-
ful.                                                          als from the extended unemployment compensa-
                                                              tion account;
CFO Can Provide Impetus for Continuing
Improvements                                                     (5) inaccurate accounting for ETA's equity in
                                                              SESA real property;
Currently, the OIG is transferring much of its
knowledge of financial statements to the Depart-                  (6) questionable audit coverage provided to
ment's financial management staff. Equally ira-               the JTPA program under the Single Audit Act;
                                                              and
portant, departmental management has made a
significant commitment to hiring, training, and
reorganizing financial staff. With the final ira-                 (7) questionable SESA accounting for Unem-
plementation stages of DOLAR$ imminent, the                   ployment,Trust Fund activities.
development of program performance measures
and ETA's GCMIS underway, and the consolida-                  Findings (4) through (7) are identical to those
tion of all financial activities under central coordi-        found in the audit of ETA's Fiscal Year 1990
nation, the potential for improvements afforded               Financial Statements, which can be found on page
by a proactive CFO will be great.                             32 of Section 3. Section 3 also contains OIG's
                                                              Fiscal Year 1990 audit for ESA.

DOL Fiscal Year 1990 Consolidated                             The report on compliance found that DOL corn-
Financial   Statements                                        plied with the provisions of laws and regulations
(Report No. 12-91-009-07-001;issued June 28, 1991)            for the transactions we tested which could have
                                                              materially affected the financial statements.
Consistent with the provisions of the Chief Finan-
cial Officers Act of 1990, the OIG audited the
                                                              Revision   of ERISA    "Audit and Accounting
financial statements of the Department for Fiscal
Year 1990.                                                    Guide for Audits of Employee        Benefit
                                                              Plans"
The auditors' opinion on the financial statements
was qualified because of their inability to examine           The OIG has long held the view that audits of
sufficient evidence as to the fair presentation of            employee benefit plans are an integral part of
accounts receivable from, and advances to, the                participant protections guaranteed by the Em-
public, grantees, and contractors,                            ployee Retirement Income Security Act (ERISA),


                                                         13
and that Generally Accepted Auditing Standards               per reviews to assess the quality of plan audits. To
(GAAS) required Independent Public Account-                  help ensure recommended protections are imple-
ants (IPAs) performing audits of employee bene-              mented, the OIG plans to conduct followup re-
fit plans to test certain ERISA compliance areas,            views in the areas of IPA audit quality.

For severalyears, the OIG made the improvement               Overall, we are encouraged by the improvements
in the quality of benefit plan audits a high priority        being made in the ERISA audit process. How-
issue. Consistent with this priority, the OIGissued          ever, the OIG continues to be concerned that
two significant audit reports which documented               PWBA may not be adequately informed when
deficiencies in the audit process and provided               illegal acts are detected by the IPAs. Statement on
recommendations to improve the process. There                Auditing Standard No. 54 places responsibility on
were frequent discussions between the OIG, the               IPAs to report any illegal act they discover. The
American Institute of Certified Public Account-              Department needs to have assurances that all
ants (AICPA) and the Pension and Welfare Bene-               illegal acts discovered during the audit process are
fits Administration (PWBA) on measures to in-                reported to and acted upon by the Department.
crease the effectiveness of plan audits.                     Plan participants have the right to expect the
                                                             Department to take timely and decisive corrective
During audit work, the OIG referred about 50                 actions. Further discussion of this issue is found in
audits to PWBA for referral to the AICPA for                 Chapter 4 (page 65).
possible disciplinary action.    The AICPA con-
curred on the audit deficiencies in all but one case
and has recommended the appropriate corrective               Department      of Labor Enforcement
and/or disciplinary action to the respective State           Program
Boards of Accountancy. Due to the impact on the
accounting profession, the AICPA made a field                In 1989, the Secretary directed an Enforcement
review of the OIG work. By congressional re-                 Task Force to examine the Department's civil and
quest, GAO is now conducting a similar review of             criminal enforcement strategies and provide rec-
the deficiencies reported by the OIG.                        ommendations     to improve their effectiveness.
                                                             Concurrently, the OIG conducted a review of the
The process came to fruition in March 1991,when,             extent to which the Department utilized criminal
after considering suggested improvements from                enforcement remedies (Report on DOL Criminal
the OIG and other public and private sources, the            Enforcement, Report No. 09-90-202-01-001; is-
AICPA issued a revised audit guide. While the                sued June 5, 1990). Both reports were issued in
final version did not incorporate all the protec-            1990.
tions supported by the OIG, use of the guide will
afford a substantial improvement         in the audit        .As a result of the work done by the Enforcement
protections for benefit plan participants envisioned         Task Force and the OIG review, the Federal
by ERISA.                                                    Managers' Financial Integrity Act (FMFIA) re:
                                                             port issued by the Department in December 1990 _
Other actions have also resulted from our audits,            classified "Management     Controls over Depart'-
The AICPA has adopted new ERISA practice-                    mental Enforcement Activities" as a material control
monitoring program review requirements and begun             weakness. The FMFIA report identified specific
an annual ERISA audit conference to provide                  corrective actions to be taken by departmental
additional training for auditors of employee bene-           agencies. The report further stated that the OIG
fit plans,                                                   would report to the Secretary on a continuing and
                                                             regular basis regarding the agencies' efforts to
PWBA has also made positive changes to its utili-            better enforce the laws administered by the De-
zationofplanaudits.  Audit reports are now being             partment. The first such report was issued to
reviewed forcompliancewithGAASandERISA                       the Secretary by the Inspector General On
requirements. PWBA is also conducting workpa-                September 30, 1991.


                                                        14
Overall, the OIG concluded that the Department's            enforcement     funds and personnel devoted to
enforcement agencies have made concerted el-                enforcement,      this schedule did not separately
forts to improve their enforcement     programs,            identify funds or number of employees applied to
Examples of these efforts include:                          criminal investigations. This basic resource infor-
                                                            mation is needed to enable the Department to
     (1) ESA's Wage and Hour Division devel-                assess the effectiveness of its criminal enforce-
oped measures to monitor and evaluate the effec-            ment actions and the relationship of criminal en-
tiveness of its criminal enforcement program,               forcement to other enforcement activities.

     (2) ESA's Office of Federal Contract Compli-           All of the enforcement agencies designated or
ance Programs is developing guidelines for inves-           hired criminal enforcement coordinators during
tigative file development to ensure its cases are           FY 1991. To effectively utilize these positions, the
suitable for litigation.                                    OIG believes the Department needs to determine
                                                            what the duties and responsibilities of these posi-
    (3) MSHA is increasing its inspection target-           tions should be and communicate those expecta-
ing efforts,                                                tions to the enforcement agencies.

     (4) OLMS is implementing a program of on-              The OIG will continue to monitor these efforts.
site compliance visits to international unions.

    (5) OSHA initiated a pilot program to test              Significant     Audit Resolution        Activity
new criminal investigation and referral procedures.
                                                            During this reporting period, significant audit
In addition, several department-wide      activities        resolution activity occurred which will increase
designed to improve enforcement were initiated.
The Department is developing an enforcement                 the accountability for the Department's financial
data base which will provide summary level infor-           operations and certain program activities.
mation on each agency's enforcement activities.
The DOL Academy, with the assistance of the
OIG, SOL and the enforcement agencies, is inves-            Department   of Labor Accounting        and
tigating options to increase and improve the train-         Related Systems (DOLAR$)
ing received by enforcement personnel. Also, the
Policy Review Board and the Office of the Assis-            To provide management more timely, accurate,
tant Secretary for Policy are taking a more active          and responsive financial management informa-
role in reviewing the agencies' enforcement pro-            tion, in 1986 the Department decided to replace
grams,                                                      its outdated primary accounting and reporting
                                                            system. The new system, DOLAR$, is designed to
A continuing OIG concern is the Department's                correct various internal control weaknesses; meet
traditional reluctance to pursue criminal enforce-          current agency accounting and reporting needs;
ment remedies, as noted in the OIG Report on                meet OMB, GAO and Treasury Department ac-
DOL Criminal Enforcement.        The Department             counting and reporting requirements; and imple-
addressed this concern in the corrective actions            ment the U.S. Government        Standard General
proposed in its FY 1990 FMFIA report by prom-               Ledger.
ising to identify 1991 enforcement funds and to
designate agency criminal enforcement coordina-
tors.                                                       DOLAR$: Progress and Problems
                                                            (Report No. 19-90-008-07-710;issued Sept. 28, 1990)
Although the Office of the Assistant Secretary for
Administration  and Management       developed a            In both the March and September 1990 Semi-
schedule providing estimates of each agency's               annualReports, the OIG reported significant prob-


                                                       15
lems with the DOLAR$ system development ef-                   Evaluation    of the Financial   Reporting
fort. Since that time, the Department has made                Capability   of DOLAR$
noteworthy progress in resolving these concerns.              (Report No. 12-91-020-07-001;issued March 28, 1991)

Through the forum of an interagency test group                In the March 1991 Semiannual Report, the OIG
created to solve developmental problems, the OIG              reported that the Department had made progress
believes that its concerns such as DOLAR$ not                 in correcting deficiencies related to the complete-
meeting government accounting system and con-                 ness and accuracy of DOLAR$'s external reports,
tractual requirements, inadequate input controls,             and with respect to DOLAR$'s compliance with
and insufficient system documentation were suc-               U.S. Treasury Department requirements for re-
cessfully addressed,                                          porting entities. It was the OIG's judgment that
                                                              DOLAR$ satisfied Treasury's requirements for
While the Department has made progress imple-                 implementation of the U.S. standard general ledger.
menting DOLAR$ and ensuring the system func-
tions as intended, the OIG will closely monitor the           Work remaining to be completed concerns devel-
remaining portions of the implementation proc-                opment and implementation of policies and pro-
ess.                                                          cedures for the DOLAR$ external reporting func-
                                                              tion, and the recruitment and training of qualified
                                                              staff to maintain this function. Closure of these
DOLAR$ Internal Controls do not                               issues are directly related to organizational re-
Reasonably    Assure Reliable General                         structuring and additional funding associated with
Ledger Balances                                               the Department's implementation       of the CFO
(Report No. 12-91-011-07-001;issued March 28, 1991)           Act of 1990, including the appointment of a Chief
                                                              Financial Officer.
This review was conducted to assess strengths and
weaknesses of the financial management controls
surrounding the Department's newgeneral ledger                Review of the Secretary's     Year End Priority
accounting system, operational since October 1,               Projects for FY 1987
1990. The financial management weaknesses were                (Report No. 02-89-262-01-001;issued July 3, 1989)
due primarily to lack of reconciliations between
the new general ledger system and Treasury rec-               To fund a computer system designed to facilitate
ords, program or subsidiary records, and support-             communications between the Secretary and Ex-
ing detail. All but one recommendation      in this           ecutive Staff, the Department assessed individual
report has been resolved,                                     agencies based on their full-time equivalent (FTE)
                                                              ceilings. The OIG concluded that this method of
The remaining issue centers on whether or not the             allocating the costs of the Executive Computer
closing of the Department's general ledger should             Network (ECN) was inequitable, affecting a trans-
be delayed until it is completely reconciled and              fer of $880,464 from certain agencies' appropria-
properly adjusted to Treasury records. The OIG                tions to those of other agencies without the neces-
maintains that the general ledger should be closed            sary statutory authorization.    The OIG and the
at the end of the fiscal year, and that reconciliation        Department could not agree on resolution of the
of differences between the general ledger and                 audit recommendations associated with this proj-
subsidiary systems be subsequently completed along            ect.
with revised reports filed with Treasury. The OIG
and the Department, which does not agree with                 On December 6, 1989, the Inspector General and
this position, are working towards a solution,                the Assistant Secretary for Administration and




                                                         16
Management     requested that the Comptroller              cluded recommendations to the Secretary of Labor
General provide an independent legal opinion on            which it believed would correct these problems.
the propriety of these obligations.
                                                           Audit Coverage
In his decision,   the Comptroller   General   con-
cluded that the Department "used the eight agen-           The OIG found that single audit coverage of some
cies' appropriations for purposes other than as            DOL programs was very limited. For example,
appropriated     when it transferred the funds to          over one-third of JTPA funds and about two-
contribute to the purchase of computer equip-              thirds of smaller DOL programs' funds either
merit for the benefit of the Department Manage-            were not audited at all or received very limited
ment and Pension Benefit Guaranty Corporation              audit coverage.
appropriations."    The Comptroller General di-
rected the Department to adjust its Fiscal Year            To improve single audit coverage, the OIG rec-
1987 appropriation accounts to reflect this deci-          ommended that the Secretary of Labor encourage
sion.                                                      OMB or the Congress to make certain changes to
                                                           the single audit requirements.      These changes
In response to the Comptroller General's deci-             would result in more DOL programs' funds re-
sion, the Assistant Secretary for Administration           ceiving adequate audit coverage, as well as requir-
and Management stated that "the Department                 ing auditors to better disclose which programs re-
will abide by the GAO decision that it cannot use          ceived comprehensive audit coverage. The OIG
other appropriations    in financing the ECN in            also recommended the Secretary direct the Assis-
amounts in excess of the equipment assigned to an          tant Secretary for Employment and Training to
agency."                                                   make administrative or regulatory changes to ensure
                                                           that DOL recipients and subrecipients obtain
The Department     has made the necessary account-         required single audits.
ing adjustments.

                                                           Audit Quality
Single Audit Act Coverage         of DOL Funds
(Report No. 04-91-006-50-598;issued March 29, 1991)        The report discussed significant problems with the
                                                           quality of single audit coverage. The OIG found
                                                           that over one-half of the single audits contained
Reliance on Grantees' Audit Reports                        significant fieldwork or reporting deviations from
under the Single Audit Act                                 auditing standards or requirements. These fieldwork
                                                           and reporting deficiencies are significant enough
The reliance that DOL can place on grantees'               to reduce the reliance that the Secretary of Labor
audit reports prepared under the Single Audit Act          can place on single audits of DOL funds.
remains a major concern of the OIG. Over 85
percent of the Department's funds are spent be-            To improve audit quality, the OIG recommended
low the Federal level. The only audit coverage             that the Secretary advocate to OMB or the Con-
many of these funds receive is that provided by            gress that single audit requirements be modified.
single audits.                                             These modifications would require auditors to
                                                           disclose the extent of testing for each major Fed-
In the March 1991 Semiannual Report, the OIG               eral program identified in single audit reports.
discussed the results of its review of DOL Single          The OIG also recommended, for those entities
Audit Coverage. The report identified problems             not assigned a cognizant Federal agency, each
the OIG found with single audit coverage, audit            State be required to implement a quality review
quality, and ambiguous Job Training Partnership            program of their recipients' and subrecipients'
Act (JTPA) program criteria. The OIG also in-              single audits.



                                                      17
Ambiguous JTPA Program Criteria                            determine if report users' needs are being met and
                                                           what improvements are needed. GAO expects to
The OIG also reported that ambiguities in JTPA             complete its study during 1992 and will make
program criteria have confused auditors and have           recommendations for appropriate changes.
allowed JTPA recipients to circumvent certain
requirements.   These ambiguities exist in JTPA            The PCIE is also performing a study on the effec-
cost limitations and classification, accounting            tiveness of the single audit approach. The PCIE's
procedures, and administrative standards,                  methodology includes identifying perceived prob-
                                                           lems with single audits, validating the extent and
The OIG recommended         that the Secretary of          significance of the perceived problems, and mak-
Labor direct the Assistant Secretary for Employ-           ing appropriate recommendations.        The PCIE
ment and Training to support legislation or estab-         expects to complete this study in the spring of
lish regulations to clarify JTPA criteria and to           1992.
curtail circumvention of these criteria.
                                                           Pending legislation would resolve some of our
Resolution   of Audit Recommendations                      recommendations       regarding ambiguous JTPA
                                                           program criteria. H.R. 3033, the Job Training
                                                           Reform Amendments,         has been passed by the
Action being taken by the General Accounting               U.S. House of Representatives.     This bill contains
Office (GAO), the President's Council on Integ-            language requiring uniform regulations to estab-
rity and Efficiency (PCIE), and pending legisla-           lish procurement standards, to ensure fiscal ac-
tion should contribute to resolving our concerns,          countability, and to prevent fraud and abuse in
                                                           JTPA programs. These procurement standards,
GAO, at the request of the Senate Governmental             which will limit performance-based     contracts be-
Affairs Committee, is currently performing a study         tween governmental units, addresses many JTPA
to assess the extent to which the single audit             program abuses previously reported by the OIG.
approach is achieving legislative objectives. The          The bill will also increase JTPA accountability by
GAO_study is focusing on single audit report use-          requiring that JTPA program income earned by
fulness as a tool for assisting program managers in        public or nonprofit organizations be used only to
meeting their oversight responsibilities. GAO is           carry out the JTPA program. The OIG believes
concentrating on 13 Federal programs, including            this legislation, along with departmental regula-
JTPA.     GAO's methodology included sending               tions and the GAO and PCIE initiatives, will
questionnaires    to Federal and State program             adequately resolve our recommendations.          H.R.
managers, as well as State audit organizations, to         3033 is further discussed in Chapter 4, page 65.




                                                      18
                                        Office of Audit

                                               Section 2


                 Improved Accountability              for the Job Corps Program


The Congress continues to emphasize the importance of improving program accounta-
bility and measuring both program results and return on investment for government
programs. The Job Training Partnership Act, under which the Job Corps program
operates, recognizes that job training is an "investment in human capital" and man-
dates that "criteria for measuring the return on investment be developed."

The recently enacted Chief Financial Officers (CFO) Act reinforces the need for
program accountability. The OMB implementing guidelines require that: "Wherever
possible, financial data should be related to measures of performance on a program-by-
program basis."

The OIG has developed and audited cost-based program results statements for the Job
Corps program. They show the initial results that the program achieved and how much
each result costs the taxpayer. They provide advantages over previously available in-
formation because audited program results and related costs are presented simultane-
ously to facilitate analysis and comparison.


Job Corps Program                                          The program had a budget of $755 million for the
                                                           year ended June 30, 1990. During the audit pe-
The Job Corps program is designed to serve pri-            riod, there were 104 training centers. Ten re-
madly impoverished and underemployed youth                 gional offices of the U.S. Department of Labor
between ages 16 and 21. Comprehensive training             were responsible for the operation of the centers,
in basic and vocational education, work experi-            of which 30 were run by the Departments          of
ence, counseling, and other enrichment activities          Agriculture and Interior (Civilian Conservation
within a residential setting are provided at the           Centers) and 74 were run by 21 private contrac-
                                                           tors. Both Federal Departments were considered
training centers. After training, students are pro-
vided placement assistance for up to 6 months,             a contractor for analytical purposes, bringing the
The program is designed to enable participants to:         total to 23 contractors.

    (1) compete successfully in the job market,            Analysis and Statements      of Costs Invested    in
                                                           Human Capital
    (2) obtain further education,
                                                           The cost-based program results statements ad-
    (3) enter the armed forces, and                        dress only the initial results of the investment and
                                                           do not measure the ultimate return on invested
    (4) qualify for other training programs,               costs. They do not attempt to assess the potential


                                                      19
long-term benefits of participation in the Job Corps                 What was the average cost for a participant to
program, such as reduction in public assistance or                   stay in the program for one year and what was the
unemployment.     Rather, they measure the initial                   composition of the cost?
return on investment, such as placement in em-
ployment, return to school or enrollment in other                    The average cost for a participant to stay in the
training programs, entry into the armed forces,                      program was $14,772 for center operating costs
attainment of the GED certificate, and achieve-                      only. An additional $4,006 was incurred at the
ment of learning gains in math and reading,                          non-center level (national and regional costs in-
                                                                     cluding placement assistance and student allow-
The analysis is presented through a series of ques-                  ances), for a total of $18,778 cost per year in the
tions which show the program performance and                         program. Cost per year in the program ranged
costs and highlight immediate program effective-                     from $16,000 to $21,000 per participant among
hess.                                                                the regional offices. The 23 Job Corps contrac-
                                                                     tors' cost per year in the program ranged from
What was the nature of the invested costs?                           $11,000 to $26,000 per participant.

Because it is a residential program, the cost cate-
gories used by Job Corps are not comparable to                       What was the cost invested in the participants
other job training programs provided for under                       who left the program and what was the initial
JTPA. Costs were incurred in the following cate-                     return on investment?
gories:
                                                                     Job Corps invested approximately $672 million in
    (1) Administration     - 26 percent                              the 63,550 participants that left during program
                                                                     year ending June 30, 1990. Of this amount, $572
    (2) Residential   Living - 24 percent                            million, or 85 percent of the investment resulted
                                                                     in participants receiving measurable benefits.
    (3) Educational    and Vocational      Training -                Approximately $100 million, or 15 percent, was
        17 percent                                                   :invested in participants who did not receive meas-
                                                                     urable benefits.
    (4) Facilities, Equipment,    and Depreciation          -
        14 percent                                                   Regional offices' investments       resulting in no
                                                                     measurable gain ranged from 6 to 20 percent of
    (5) Allowances - 10 percent                                      total investments in participants. The 23 Job Corps
                                                                     contractors' investment with no measurable gains
    (6) Medical and Dental - 4 percent                               ranged from 4 to 29 percent of total investments in
                                                                     participants.
    (7) Outreach, Screening, and Placement              -
        3 percent
                                                                     What were the total cumulative costs invested in
    (8) Travel and Transportation         - 2 percent                Job Corps participants   who were served during
                                                                     the program year?
Some educational      activities are included in cost
categories other than training. For example, in-                     For the program year ended June 30, 1990, a
terpersonal skills and team work concepts are                        cumulative investment of approximately $1.3 bil-
taught in the morale and recreational activities                     lion (center, regional, and national costs) had
that are charged to the residential living category,                 been made in 122,071 participants. This includes




                                                                20
prior year costs associated with participants being                                                           Job Corps Regional Offices achieved a placement
served in the current program year. Regional                                                                  rate of between 55 percent and 80 percent. The23
offices served between 5,200 and 29,200 partici-                                                              contractors ranged from 45 percent to 83 percent.
pants, with cumulative investments between $51                                                                The national "total placed" percentage of 68 percent
million and $268 million at the center level. The                                                             reflects an adjustment made by Job Corps to the
23 contractors served between 338 to 19,460 par-                                                              reported placement information. This adjustment
ticipants, with a cumulative investment between                                                               was made only at the consolidated level and not at
$3 million and $157 million at the center level,                                                              the regional, contractor, or center levels. In making
                                                                                                              the adjustment, Job Corps assumes that the known
What happened to the participants                                               served?                       percentage of participants that were self-placed
                                                                                                              would also apply to the participants for which
The following graph shows what happened to the                                                                placement status is unknown.    The adjustment
122,071 participants with a $1.3 billion cumulative                                                           increased the total placement rate from 62 per-
investment,                                                                                                   cent to 68 percent.

            RESULTSOF PARTICIPANTS
                                 SERVED                                                                       Further, Job Corps computes the rate of matched
           PROGRAMYEARENDEDJUNE 30, 1990                                                                      employment as a percentage of the total partici-
                                                                                                              pants employed.    For the program year ended
                                                                                                              June 30, 1990, this would result in a matched
  3,.,,0
 On-Board                                                                                                     employment rate of 25 percent (8,513 of 33,680).
at Year End
  s,,3                                                                                                        Because one of the main goals of Job Corps is to
 Million                                              -"-_:-_-----..                  P,aos_
                                                                                           58.                provide vocational training and to find the partici-
                                            63,550      /                           _$512Million
                                            ou,,_,,
                                             $572 (k               /_                ,4                       pants employment in the vocational area trained,
                                            M,l,on_.____j._                                        we believe that the base should be the total partici-
                                                                                    "o_';c_,,?o_n_ pants that terminated. Therefore, our analysis is
    2o,,5,                                                                                         made on this basis rather than on a "total partici-
86aklng Employment
  a,Year
     $187 En_.                                                                                     pants employed" basis, which reflects a restricted
    ,,,,,,o°
           •Partl¢lpants     re¢elv,  placement    aasl,tano, fo .....              Imurn          partic ip ant base.
                  period   of 5 month,    after they leave the program.




                                                                                                              How much time did the participant spend in Job
What were the output results for the program
year?                                                                                                         Corps and does the average length of stay affect
                                                                                                              the participant's ability to obtain placement?
Of the 63,550 participants that left the program,
the following were the output results:                                                                        The average length of stay for the 122,071 partici-
                                                                                                              pants served was 203 days with a range of 137 to

                           Output Results and                                                                 261 days for the regionaloffices, and 163 to 467 for
                                                                                                              the 23 contractors.    For the 63,550 participants
                             Invested Costs                                                                   who left the program, their average length of stay
           PROGRAMYEAR ENDED JUNE 30, 1990                                                                    was 206 days, with a range of 165 to 277 days for
                                      Invested CostofOutput                                                   the regional offices. The length of stay for partici-
                  ParticlpanteCenter
                     Served   Operations    Non- Invested
                                           Center   Tota,                                                     pants that found employment that matched their
                Number      %  _ co,ts   _ Cost,  _ Co,ts                                                     training was 359 days. For participants that were
 Placed:                                    --                                                                not placed, the average length of stay was 153
   Employed      Matched
   Training                  8,513        13%        $126              $ 31          $157      23%            days.
   Other Employed           26,167        40%         191                  73         264      39%

   Other Placed              9,566        15%          65                  2._.66      9._1    14%

   Total Placed             43,246        68%        $382              $130          $512      76%

 Not Placed                 20,304        32%         148                  12         160      24._.%%

 Total Outputs              63,550       100%        $530              _             _672     100",%




                                                                                                         21
What were the employment           results by type of        The GED attainment rate for the regional offices
training provided?                                           went from 25 percent to 63 percent. The contrac-
                                                             tors ranged for 19 percent to 78 percent. The
Approximately 97 percent of the participants re-             participants who attained the GED were more
ceived vocational training during their stay in Job          successful at obtaining placement.  Their place-
Corps. Only 8,513, or 13 percent, of the 63,550              :ment rate was 79 percent compared to the 68
participants leaving the program found employ-               percent consolidated average.
ment in their vocational training area (this repre-
sents 25 percent of all participants placed in
employment). An additional 9,566, or 15 percent,             Wha_ learning gains were achieved by partici-
of the participants chose to return to school, enter         pants during their stay in the program?
other training programs, or enter the armed forces.
The regional offices' ranges were 10 percent to 23           Of the 63,550 participants that left the program,
percent for matched employment, and 9 percent                26,477 were not tested for learning gains. This
to 22 percent for the latter. The 23 contractor              group dropped out of the program at a very early
ranges were 7 percent to 46 percent, and 5 percent           stage and averaged a length of stay of only 81 days.
to 28 percent, respectively.
                                                             The remaining 37,073, or 58 percent, of the par-
For those participants who completed their train-            ticipants were tested for learning gains, with 33,098
ing programs and stayed at least 180 days, 83                achieving a combined average gain for math and
percent were placed compared to the 68 percent               reading of 2.3 grade levels. These participants had
national average, with 33 percent being placed in            a placement rate of 73 percent compared to the
the vocational area trained, compared to 13 per-             national average of 68 percent.
cent nationally.

                                                             Program ]Results Statement Audits
How many participants    received a GED or a high
school diploma during their stay in the program?             Program accomplishment audits determine whether
                                                             the program results statements are presented fairly.
Of the 63,550 participants that left the program,            "[he three components of the audit report are: an
10,657 had a high school diploma at enrollment,              opinion on the program results statements, a re-
The remaining 52,893 participants achieved the               port on internal controls, and a report on compli-
following results:                                           ance with laws and regulations.
          GED OR HS Diploma
         Attained by Participants                            Program Results Statements
         During Stay in Program                              and Opinion
     PROGRAMYEAR ENDED JUNE 30, 1990
                              Number of                      The OIG audited the following six program results
                             Participants     Percent        statements:  Statement of Human Resources;
                                                             Statement of Total Outputs; Statement of High
Attained GED                       9,668      38%            School Diploma or GED Attainment and Pro-
Did Not Attain GED             15,589         62%            gram Outputs; Statement of Learning Gains and
                                                             Program Outputs; Statement of Training Received
Total Eligible For GED         25,257         100%           and Employment Matches; and Statement of
                                                             Performance Standards Accomplishments.
Total Eligible For GED         25,257         48%

Not Eligible For GED           _              52%            In the OIG's opinion, except for the effect of any
Total Without H.S.                                           adjustments necessary due to three scope limita-
Diploma At Enrollment          52,893         100%           tions (not delineated herein), the statements pres-

                                                        22
ent fairly the status of the Job Corps program as of          placement contractors do not have comparable
the program years ended June 30, 1989 and 1990.               standards. Since the period covered by the audit,
                                                              Job Corps implemented a vocational completion
Report   on Internal     Controls                             standard for its training contractors and is devel-
                                                              oping standards for placement contractors.
The OIG's evaluation     of internal   controls   dis-
closed the following reportable conditions which,             Job Corps agreed with most of our recommenda-
except for the last condition, we believe could               tions and has been very responsive to our audit
result in material errors or irregularities in rela-          findings. Many corrective actions began before
tion to the program results statements, which may             the conclusion of our audit. Of particular note is
not be promptly detected,                                     a major initiative to integrate existing manage-
                                                              ment information systems and "student day" sys-
Job Corps data collection and reconciliation proce-           tems into one system that will provide more timely
dures do not ensure accurate reporting. Delays in             and reliable program information.
receipt and entry of data in the management infor-
mation system resulted in an understatement of
student strength at year end by 1,200 students at             Report on Compliance          with Laws     and
June 30, 1989, and 8,800 at June 30, 1990. Fur-               Regulations
ther, center records and the management infor:
mation system are not reconciled to ensure corn-              The Job Corps program, except for the matters
pleteness and accuracy, and student terminations              discussed in the Report on Internal Controls,
are tracked differently at the center and in the              complied with the terms and provisions of laws
automated system,                                             and regulations for the transactions tested that
                                                              could have a material effect on the program re-
Documentation to support reported statistics was not          suits statements.
always maintained, but Job Corps has revised their
documentation retention requirements. Job Corps
management is implementing new documenta-                     Financial     Statement      Audit
tion retention standards. For those records tested,
no problems were identified.                                  The financial statement audit determines whether
                                                              the financial statements are presented fairly. The
Job Corps' monitoring and recording of placement              three components of the audit report are: an
statistics has improved, but new procedures werenot           opinion on the financial statements, a report on
completely implemented during our audit period,               internal controls, and a report on compliance with
The results of confirming reported placements                 laws and regulations.
showed that the percentage of invalid placements
had decreased in response to Job Corps initiating
regional placement verification procedures, from              Financial    Statements      and Opinion
20 percent in program year 1986 to 13 percent in
program year 1988, and 8 percent in program year              The opinion on the financial statements was quali-
1989.                                                         fled because the auditors could not satisfy them-
                                                              selves as to the fair presentation of advances to the
Performance standards do not monitor all activities           public, grantees and contractors at June 30, 1989
and contractors. Performance standards are an                 and 1990, recorded at $9.1 million and $63.9 m/l-
important control Job Corps management uses to                lion, respectively, or the fair presentation of re-
ensure program effectiveness. Five performance                lated expenses for those years. Also, it was not
standards are used to monitor center contractor               possible to audit beginning balances for the year
performance.    Screener, vocational training, and            ended June 30, 1989.




                                                         23
Report    on Internal     Controls                             ords were maintained, and (3) payment and pay
                                                               status transactions submitted to the system were
The OIG's    evaluation   of internal   controls   dis-        not verified with the centers. A new allowance
closed reportable conditions related to program                system is being designed. Our recommendations
accounting and reporting, corpsmember allow-                   were directed to the new system. Management
ance payment system, center level operations, and              agreed with our recommendations.
regional office and finance center operations. The
first two conditions were reported in prior audit              Center Level Operations
reports. Only the first condition is considered a
material weakness, and the opinion on the finan-               Job Corps, through its national and regional of_
cial statements has been qualified as a result,                rices, has the responsibility for ensuring that cen-
                                                               ter operators have adequate internal controls and
Program Accounting and Reporting                               that such controls are functioning properly. As
                                                               part of our audit, certain agreed-upon procedures
     (1) Accounting controls were at the appro-                were performed at 31 of the 104 centers. The
priation level, not at the program level. The                  results of the agreed-upon procedures revealed
Department's new accounting system, DOLAR$,                    that:
has the capability of program accounting control.
During our audit period, this capability was not                   (1) monthly financial reports were misstated
fully functional, and its existing capabilities were           at 11 centers,
not fully utilized. Departmental management has
agreed that the DOLAR$ reporting capability                        (2) procurement      regulations    were not ad-
needs to be better utilized for effective program              hered to at 8 centers,
accounting and reporting.
                                                                   (3) non-personnel disbursements       lacked ade-
    (2) The Department of Labor has no central                 quate internal controls at 8 centers,
program accounting responsibility for Job Corps.
Various accounting functions are dispersed through-                (4) property management        systems were in-
out the Department.     As a result, not all program           adequate at 12 centers,
assets and liabilities are recorded and controlled
in the general ledger, and subsidiary records can-                 (5) consumable supply inventories were not
not be reconciled to the control accounts in the               adequately controlled at 6 centers, and
general ledger. This resulted in a qualified opin-
ion.                                                               (6) Government Travel Requests (GTRs)
                                                               were not adequately controlled at 14 centers.
     (3) Job Corps did not have an accounting sys-
tem which included the operations of the Depart-               Job Corps management has initiated several ac-
ments of Labor, Agriculture, and Interior. ETA                 tions, including revision of its center review guide,
has established accounts to provide overall fund               development of financial management training,
control for the activities of the other two agencies,          and development of center assessment training.
This levelof control is useful for budget purposes;            While these activities were planned prior to corn-
however, additional information is needed on assets,           pletion of the audit, the activities will be reviewed
liabilities, equity, revenue and expenses for the              to ensure they fully address the audit findings.
program.
                                                               Regional Office and Finance Center Operations
Corpsmember Allowance Payment System
                                                               Our audit found problems in financial reporting
The OIG found the followingweaknesses:      (1) the            for some of the Department of Interior centers.
system was designed as a disbursement system and               At the Department of Labor regional offices, weak-
not as an accounting system, (2) insufficient rec-             nesses were identified in financial report review

                                                          24
and control ofcontractor payments. In our sample           audited. Contract audited costs totaled $13 mil-
of transactions, approximately $500,000 in over-           lion and $21.7 million during program years end-
payments were identified. Management has agreed            ingJune 30, 1989, and 1990, respectively. Indirect
to a number of actions to correct these weak-              costs associated with these five contractors were
nesses,                                                    questioned, resulting in total questioned costs of
                                                           $652,547 and $184,625 for the same period. The
Report on Compliance with Laws                             primary causes of the questioned costs were either
                                                           inclusion of direct costs in the indirect cost pool or
and Regulations                                            unallowable contract costs.

The report notes that the Job Corps program
complied, in all material respects, with the laws          In the agreed-upon procedures performed at the
and regulations that could have a material effect          31 centers, various noncompliance conditions were
on the financial statements, except for certain            identified. These conditions gave rise to ques-
questioned costs related to national contractor            tioned costs of $1.5 million and $1.2 million for
compliance and center operator compliance. Five            program years ending June 30, 1989, and 1990,
contractors representing 11 national contracts were        respectively.




                                                      25
                                  Office of Audi

                                        Section 3


                                    Agency ActMfies


This section reports significant audit-related activities for the major   agencies of the De-
partment. For the most part, this will be a summary of the findings        and recommenda-
tions contained in audit reports issued during this reporting period.       In a few instances
audit resolution activity for a report issued in a previous period        is included in this
section when the results of the resolution process are pertinent.


Employment     and Training    Administration

The Employment and Training Administration (ETA) administers a number of statutes
related to employment and training services for the unemployed and underemployed,
employment security for workers, and other programs that are directed to the employ-
ment needs of the nation.

A major decentralized structure for the delivery of employment and training (E&T)
services, funded through grants to States and administered by the States, is authorized
by the Job Training Partnership Act (JTPA). JTPA also authorizes certain E&T
programs which are administered by the ETA national office, the most prominent of
these being the Job Corps, Native American, Migrant and Seasonal Farmworker, and
Veterans programs.

The employment security function is composed of the Unemployment      Insurance
Service (UIS) and the U.S. Employment Service (USES).      The UIS oversees a
nationwide unemployment compensation system administered by the State Employ-
ment Security Agencies (SESAs). The USES oversees the operation of a nationwide
public employment service system also through the SESAs.

In addition to JTPA and other ETA program activities, during this reporting period the
OIG issued reports on ETA Fiscal Year 1990 Financial Statements and the Grants and
Contract Management Information System (GCMIS) development effort.




                                            26
ETA Fiscal Year 1990 Financial Statements                    critical to both ETA and the Department that the
(Report No. 12-91-023-03-001;issued June 27, 1991)           RAS be replaced with a more efficient system.
                                                             Over the past 4 years, ETA has expended $1.7
The OIG audited the financial statements of ETA              million on a replacement system and the develop-
for Fiscal Year 1990. The financial statement                ment of a prototype "core" module.
opinion was qualified because of the inability to
examine sufficient evidence to satisfy the fair              This GCMIS development effort, however, has
presentation   of accounts receivable from, and              problems, including unresolved issues between
advances to, the public, grantees, and contractors.          ETA and the Office of Assistant Secretary for
                                                             Administration  and Management      (OASAM),
The report on internal control structure noted               Department-wide coordination, funding, and sys-
certain matters that were considered to be "re-              tem development planning.
portable conditions," or deficiencies in the design
or operation of the internal control structure that          Unresolved Issues
could adversely affect the ability to record, proc-
ess, summarize, and report financial data. Of the            A major problem in the development effort is that
seven reportable conditions, two were considered             top management levels of ETA and OASAM have
by the auditors to be conditions that could materi-          not resolved differences on the linkages or rela-
ally affect the fair presentation of the financial           tionships between RAS/GCMIS, DOLAR$, and
statements, as follows:                                      the Department of Health and Human Services'
                                                             Payment Management System (PMS). Four years
    (1) Recorded advances in DOLAR$, the                     into the development effort, ETA and OASAM
Department's general ledger, were not reconcil-              still have not defined what roles and functions
able with ETA's Regional Automation System                   RAS/GCMIS and DOLAR$ will have within the
(RAS). This condition was previously reported in             Department's accounting structure.
our Fiscal Years 1989, 1988, and 1987 reports on
internal control structure.                                  Department-Wide     Coordination

     (2) Adjustments made to reconcile account               Although ETA programs account for 90 percent
balances with U.S. Treasury undisbursed appro-               of DOL grant dollars, 4 other DOL agencies manage
priation account balances were undocumented,                 grant funds. Despite OASAM's explicit instruc-
                                                             tions that the new grants management system
In response to this report, ETA and the Depart-              should have the flexibility to meet the needs of all
ment acknowledged that these conditions need to              DOL-affected agencies, ETA did not involve other
be resolved and, as a result, have started a substan-
tive effort to remove these conditions.                      DOL agencies in the prototype development        ef-
                                                             fort.

ETA's GCMIS:       Strong Coordination  and                  Funding
Careful Evaluation    Needed to Reduce Risk
(Report No. 19-91-007-03-310;issued Sept. 20, 1991)          The development effort currently lacks funding.
                                                             OMB denied ETA's Fiscal Year 1992 $1.6 million
ETA's RAS, an automated financial and manage-                budget request for further development work and
ment information system, accounts for agency                 system implementation.    ETA did not appeal this
obligations, payments, and expenditures. In Fiscal           decision.
Year 1989, RAS entries for DOLAR$ were $6.1
billion or 23 percent of DOL's total expenses.               ETA has stated that it has requested Fiscal   Year
                                                             1993 funding and that the Department has      made
The RAS "core" system is over 15 years old and               "some" funding available for Fiscal Year      1992.
both its software and hardware are outdated. It is           The OIG has no confirmation of this. The      OIG


                                                        27
acknowledges the need for the GCMIS system                 Audits issued during this period focused on the
and supports Fiscal Year 1993 funding for this             financial aspects of JTPA. Included are audits on
project,                                                   financial reporting and accounting, cash manage-
                                                           ment, program revenue, audit management and
System Development     Planning                            resolution, and compliance issues. In addition,
                                                           several audits were performed of JTPA-funded
In addition to difficulties previously discussed,          entities, some at the request of ETA.
ETA has accepted a high level of risk of system
development failure in attempting this develop-
ment with technology (software and hardware)               Adequacy of ETA Financial         Reporting     and
that is different from ETA's IRM environment,              Accounting for JTPA
                                                           (Report No. 06-91-003-03-340;issued Sept. 27, 1991)
with complete reliance on contract staff to pro-
vide technical expertise, and without detailed work
plans for the development and implementation of            The OIG examined the adequacy of ETA's inter-
the system,                                                nal and administrative accounting controls for JTPA
                                                           program financial reporting and accounting. The
                                                           examination consisted of analysis of financial state-
Conclusion                                                 ments at the service delivery area level (issued as
                                                           Report No. 06-91-018-03-340) and financial data
This major developmental effort requires coordi-           and procedures at the State and ETA national
nation at various organizational levels, from top          office levels.
management agreement to resolution and defini-
tion of technical issues. The two Assistant Secre-         Our report stated that ETA's accounting practices
taries have reached general agreement on prin-             are inadequate to record and control the liquida-
ciples. However, OASAM and ETA staff have
                                                           tion of Federal JTPA obligations and monitor and
not translated these principles into substantive
                                                           control grantee Title II(A) administrative expen-
mutual agreements--either   on accounting or tech-         ditures. ETA disagreed with these findings. The
nical issues reported above.                               OIGconcluded that the current JTPA accounting

These differences   have had a substantial   impact        system does not provide the necessary controls to
                                                           ensure that JTPA appropriations     are expended
on the system development effort. After4yearsof            onlywithin the 3-year time limit, nor does it allow
development at a cost of $1.7 million, which in-           ETA to monitor whether States are enforcing
eludes a 2-year contractor prototype development           service delivery area (SDA) compliance with the
effort, ETA does not have the complete specifica-           15 percent administrative cost limit. The OIG
tions for its new system,                                  considers these findings to be material internal
                                                           administrative and accounting control weaknesses
                                                           in ETA's financial reporting and accounting for
Job Training     Partnership      Act (JTPA)               JZP/_

On May 9, 1991, the Inspector General testified            Current financial reports required of JTPA grant-
before the House Education and Labor Subcom-               ees do not provide ETA the necessary informa-
mittee on Employment Opportunities about OIG               tion to control JTPA expenditures. More specifi-
recommendations for amendments to JTPA. Many               cally, accounting procedures fail to:
of the issues raised during the IG's testimony are
addressed in H.R. 3033, "Job Training Reform                   (1) identify when appropriations     lapse and
Amendments."       On October 9, the House over-           are no longer available for expenditure;
whelmingly passed H.R. 3033. More detailed
remarks on this legislation are included in the                 (2) prevent recording of JTPA expenditures
legislative assessment section of this report (page        against obligations after the 3-year time period for
65).                                                       liquidating obligations lapse; and

                                                      28
    (3) reduce amounts obligated when unliqui-              posed corrective   actions will resolve our recom-
dated obligations lapse,                                    mendations.

The OIG's report recommends that ETA make an                Florida JTPA Revenue Account
official determination on the propriety of first-in,        (Report No. 04-91-038-03-340;issued Sept. 18, 1991)
first-out (FIFO) methods currently used for JTPA
expenditure    accounting   (whereby cumulative             Both JTPA and Wagner-PeyserAct         (WPA) regu-
reported expenditures are utilized to liquidate the         lations require that costs, to be allowable charges
earliest year of appropriated JTPA funds). In               to Federal programs, must be "necessary and rea-
order to resolve this report, the OIG expects it            sonable." Also, Federal cost principles and JTPA
may be necessary to request the Comptroller                 cost principles adopted by the State of Florida
General to rule on the acceptability of the FIFO
                                                            provide, for grants and contracts administered by
method.                                                     State and local governments, "no provision for
ETA has informed the OIG that ETA must await                profit or other increment   above cost is intended."
the outcome of legislative action to determine              These facts notwithstanding,     Florida's Employ-
whether to resolve this problem through issuance            ment Security Job Service (ESJS) has accumu-
of new regulations or whether regulatory changes            lated net profits totaling $961,003 involving Fed-
will be made under current legislation.     Until
                                                            eral funds provided by both JTPA and WPA which
revised regulations are implemented, ETA does
                                                            were generated through the use of fixed unit price,
not plan to revise the Title II reporting   require-        performance-based (FUPPB) contracts. The OIG
ments,                                                      believes that the profits are unallowable. More
                                                            important, the costs of delivering related pro-
Florida JTPA Cash Management                                grams have been unnecessarily inflated and funds
(Report No. 04-91-032-03-340;issued July 26, 1991)          have been diverted from participants who could
                                                            have been served.
Because the timing of cash disbursements has a
significant impact on the interest cost of grant            From our examination of activity on FUPPB con-
programs, the Department of Treasury has estab-             tracts from their inception through Program Year
lished cash management standards to minimize                1989, we determined that Florida began earning
the interest cost of financing Federal grant pro-           profits as early as Program Year 1984. A 3-year
grams,                                                      time limitation has been established for spending
                                                            JTPA and WPA appropriations.          Consequently,
A review of the State of Florida's cash manage-             for.nearly all of the identified profits, this limita-
ment practices related to JTPA disclosed that the           tion has expired and any unused or improperly
State could reduce the total time elapsed between           used profits should be returned to the Depart-
the receipt of Federal cash at the State level and          ment of Labor.
the ultimate disbursement by its subrecipients.
For the year ended June 30, 1990, our analysis              Since Florida encouraged the use of FUPPB
showed that JTPA's average daily cash balance               contracts, which incorporate "profit," program
could have been reduced by as much as $1.9 mil-             costs were increased.     Had cost reimbursable
lion. Seven of 10 subrecipients we reviewed were            contracts been negotiated, profits would have been
not using income derived from JTPA grants and               eliminated, the cost of services would have been
contracts to meet their cash needs. Rather, the             reduced, and more participants could have bene-
monies were retained and invested,                          fited from the programs.

Florida agreed with our recommendations   and               The OIG found that many of the contracts were
described plans to implement improved cash                  negotiatedbetweensubdivisionsofthesameState
management systems and procedures.   The pro-               agency and were not arms-length transactions.


                                                       29
The risk of losses for poor performance are as             were implemented.     As a result, problems which
much a tenet of acceptable FUPPB contracts as              affect many SDAs and much of the State's JTPA
are profits for exceptional performance. Since the         activities were not rectified.
contracting parties were often interrelated feder-
ally funded organizations, there was little or no          Just as the State is responsible for ensuring that
risk of loss to the contractor.                            SDAs adhere to program audit requirements, SDAs
                                                           are also responsible for ensuring that subrecipi-
finally, the OIG has concerns regarding how Florida        ents obtain required audits of JTPA funds. Many
spent a portion of the profits. During the period          SDAs either had not developed or had not imple-
we reviewed, the State used $800,000 in profits to         mented procedures for ensuring that such audits
repay a portion of a debt resulting from unallow-          were performed or that the audit findings were
able expenditures identified in an earlier Federal         adequately resolved. Instances were identified in
job training program. The use of JTPA and WPA              which subrecipients had not received required
profits for repayment of this debt violated condi-         audits, subrecipient audit reports did not identify
tions of the settlement agreement with DOL, which          the expenditure of JTPA funds, and subrecipient
required repayment from non-Federal sources,               audit findings were not adequately corrected.

In responding to our report, Florida stated that           Although the State arrived at different conclu-
$800,000 in non-Federal    funds has since been            sions regarding certain data presented in our re-
restored to the "revenue account." However, the            port, Florida agreed to implement the recom-
State disagreed with the criteria (and their inter-        mended corrective actions.
pretation) for the other recommendations       and
stated that the contracts were negotiated in good          JTPA Service Delivery Area Reports on
faith and that the funds in question should not be
returned.                                                  OJT Performance Based Contracts

                                                           In March 1991, the OIG issued a summary report
Florida JTPAAudit       Management                         on JTPA/OJT       Performance      Based Contracts
and Resolution                                             (Report No. 05-91-056-03-340). The report was
(Report No. 04-91-030-03-340;issued Sept. 19, 1991)        based on reviews performed by the OIG which
                                                           included a universe of 7,500 participant cases which
Improved controls over theState of Florida's audit         were claimed and paid as JTPA/OJT program
management and resolution systems are needed               completions in 9 SDAs across the nation. The
to ensure that JTPA funds receive required au-             report was issued in summary form because, at the
dits, financial and administrative weaknesses iden-        time, data was not complete for certain individual
tiffed in audit reports are corrected, and compli-         SDAreports. The summary report revealed ques-
ance issues are adequately resolved,                       tioned costs of $1,155,286 from 616 participant
                                                           cases and an additional $2,414,528 from 850 cases
The OIG reviewed eight service delivery areas              that were questioned because supporting or veri-
(SDAs) which expended about $40 million during             t_ng payroll documentation      could not be sup-
Program Year 1988. Florida's total JTPA expen-             plied.
ditures were $87 million. State monitoring con-
trols were found not sufficient to ensure that             During this reporting period, the OIG issued seven
findings contained in audit reports of SDAs were           of the individual SDA reports to ETA. ETA has
properly resolved. Several instances were identi-          issued the seven reports to individual States for
fled for which corrective actions were either not          audit resolution. The OIG and ETA have agreed
taken or did not correct the cause(s) of the prob-         that resolution of the summary report will be
lems. Also, few followup visits were performed by          based on resolution of the individual SDA reports.
State monitors to evaluate the adequacy ofcorrec-          Costs questioned for the SDA reports are summa-
tive action or to determine if proposed actions            rized in the following chart.


                                                      30
                Costs Questioned for the                                  ticipants at the SDA's JobLink Program and new
                                                                          Airport Employment Office.
                          SDA Reports
SDA  And             Costs  Questioned Under Total           Cost         The SDA's written response to the draft report
Report  No.       ForC  ause Unsu.p.ported Inv_         _                 disagreed with all findings which questioned the
Cook County        $ 52,286     $ 86,265      $ 43,978   $ 182,529
#05.91.o44_3-34o                                                          classification or allowability of JTPA cost claims.
O°,ae
#05-91-043-03-340
                     _,497 _o,_._                     o    1_,_1          However, the response did not provide a basis to
Loe Angeles    City
005-91-046-03-340
                          6o,,174 277,22* _,_8          1.,,6.176         change the findings.
Louisville/Jefferson

County#05.91.040.03-340   13,531   a0,,16          0       _,o47          OIG/ETA      Review of the Virgin Islands JTPA
Alamo (San Antonio}
#05-91-042-03-340
                          24,716   39,632          0       "4,_'8         and UI Programs
Seattle/King County
#05-91-012-03-340
                          56,810   60._4           0      11r,154         (Report No. 02-91-248-03-310;issued Sept. 30, 1991)

South#o5.91FIoHda.041-03-340
                35,421 15,392        O      50,815 The OIG and ETA performed a joint review of the
TOTALS        $343,43"_ =_9,60"---'_
                                 =928,75---'"_
                                         =1,.1,_9""--_Virgin Islands JTPA and unemployment      insur-
                                                      ance programs. The purpose of the review was to
                                                      follow up on prior ETA monitoring findings.
Audit of Compliance     with Federal and State
JTPA Requirements,      Denver Service                                    The joint review disclosed questioned costs of
Delivery Area                                                             approximately $1.5 million. Noncompliance with
(Report No. 06-91-019-03-340;issued Sept. 27, 1991)                       the matching provisions of Title II and Title III of
                                                                          JTPA resulted in questioned costs of about $1.2
The OIG examined elements of the JTPA pro-                                million. The remaining questioned costs resulted
gram administered by the Denver SDA for Pro-                              from lack of participant files to ensure that only
gram Year 1987 through December 31, 1990. Our                             eligible persons were served, procurement deft-
report questioned approximately $1.1 million in                           ciencies, differences between reported expendi-
costs claimed by the city because the costs were                          tures and supporting documents, and inadequate
considered to be either misclassified or unallow-                         documentation for allocation of hearing officials'
able. More specifically, report findings questioned                       wages.
the following SDA cost classification practices:
                                                                          The response to the draft report by the Virgin
     (1) Internalstaffcostsandnonpersonnelcosts                           Islands' Governor indicated disagreement with
for administration were charged as training and                           the findings associated with matching require-
participant support costs,                                                ments and procurement deficiencies.

   (2) Employment Generating Activity costs
Were charged as participant support rather than                           Nationally    Administered       Programs
administration.
                                                                          JTPA Title IV authorizes programs which provide
    (3) Contracted JTPA marketing costs were                              job training to economically disadvantaged, un-
charged as participant support rather than ad-                            employed, or underemployed special target groups.
ministration.                                                             It also authorizes certain other job training pro-
                                                                          grams and activities, collectively known as "na-
As a result of administrative costs being misclassi-                      tional activities." All are centrally administered at
fied as training and participant support, the OIG                         the national level.
reported that the Denver SDA exceeded the 15
percent limitation on JTPA administrative expen-                          During this period, work was completed in the Job
ditures. Additionally, certain program costs were                         Corps, Indian and Native American programs,
questioned that were used to serve ineligible par-                        and National Activities (the subsection "Depart-


                                                                     31
mental Management" on page 38 reports audits of              The Center contractor conducted an independent
indirect costs claimed by certain Job Corps con-             investigation of these Center conditions and con-
tractors),                                                   curred with the OIG's findings.


Special Review of Allegations       at the                   The Office of Job Corps did not award a subse-
McKinney Job Corps Center                                    quent
                                                             JCC tocontract   for operation
                                                                      the contractor        of the administra-
                                                                                     under whose    McKinney
(Report No. 06-91-041-03-370;issued July 19,1991,and         tion these abuses occurred.
Report No. 06-91-044-03-370;issued August 21, 1991)

This special review was conducted at the request             American Indian Fellowship Association
of the Office of Job Corps. The OIG found that               (Report No. 18-91-028-03-355;issued Sept. 20, 1991)
certain aspects of center operations were not in
compliance with Job Corps regulations, and the               As reported in the March 1991 Semiannual Re-
instances of noncompliance appeared to be delib-             port, the OIG issued an Alert Memorandum to
crate.                                                       ETA based on preliminary results of an audit of
                                                             JTPA grant funds awarded to the American In-
ThevastmajorityofstudentsintheMcKinneyJob                    dian Fellowship Association (AIFA). This audit
Corps Center (JCC) GED programwere found to                  had been requested by ETA, based on problems
have had entry level test scores for educational             identified by a prior ETA monitoring review. As a
achievement that made the Center eligible to earn            result of the monitoring review and the OIG's
a Job Corps evaluation bonus. However, because               audit, ETA issued an emergency termination of
the tests themselves were destroyed after the scores         the AIFA grant.
were posted to the participants' records, valida-
tion of the test scores was not possible. Neverthe-          Final audit results, which covered the period of
less, other test scores for the same individuals and         January 1, 1988 through June 30, 1990, indicated
other discrepancies from student records validated           that AIFA received and expended $336,416 of
that the entry level scores were being purposely             JTPA grant funds. Of this, the OIG questioned a
lowered to pad the "bonus pool" candidates,                  total of $193,172, or over 57 percent of the total
                                                             expenses reported by AIFA. Most of the ques-
The Center contractor, the Texas Educational                 tioned costs were due to salaries and related pay-
Foundation, conducted its own investigation in               roll costs being inappropriately charged to "train-
response to the report and concluded that "[t]he             ing" after the "administration" cost category limi-
Center had been tampering with student test scores           tation had been reached and questionable rent
to enhance Center performance in the GED pro-                charges in excess of actual rental costs.
gram."

The OIG also found that the McKinney JCC                     National Activities
routinely placed "absent without leave" students
in administrative leave status prior to termination          JTPA Title IV authorizes funds for national ac-
from the program.      Furthermore,     the majority         tivities such as training and technical assistance
were given administrative leave with pay, in the             programs, research and evaluation projects, and
OIG's opinion, without justification.      This prac-        pilot and demonstration     projects.  Fiscal Year
tice had the effect of making statistics represent-          1991 funding for these activities totaled $56 mil-
ing Center operations more positive than they                lion.
actually were.
                                                             During this period, the OIG completed audits
The review also substantiated allegations that, in           related to three Title IV grantees -- Opportunities
order to keep negative terminations down, the                Industrialization Centers of America, 70001 Train-
Center did not enroll all students that reported to          ing and Employment Institute, and the Philadel-
the Center.                                                  phia Private Industry Council.

                                                        32
Opportunities    ]Industrialization   Centers of             actions to properly account for Federal funds.
America, Inc. (O]IC/A)                                       The financial audit in process revealed an un-
(Report No.18-91-034-03-340;issuedJuly12,1991,and            audited negative fund balance exceeding half a
Report No. 18-91-035-07-735;issued Sept. 30, 1991)           million dollars, and a financial and overall man-
                                                             agement situation that had deteriorated to the
 OIC/A is a nonprofit organization established in            point where critical evaluation was needed by
 1964 and chartered to provide training and job              ETA to determine whether OIC/A was or could
creation services to the poor and unemployed. It             again become a viable grantee.
 accomplishes this task primarily via affiliates, or
job training centers, throughout the United States.          Financial Audit Report
OIC/A provides technical assistance and training
to its affiliates through several mechanisms in-             The OIG audited the direct costs claimed by OIC/
eluding workshops and classes, on-site visits, prepa-        A under a follow-on ETA technical assistance
ration and dissemination of technical "how to"               grant for the year ended June 30, 1990, and a
 manuals, and information bulletins concerning               Women's Bureau grant for the period Decem-
various aspects of JTPA. DOL has funded the                  bet 1, 1989 - September 30, 1990, and the indirect
organization with technical assistance and train-            costs for the year ended June 30, 1990.
ing grants for over 20 years.
                                                             The audit resulted in questioned direct costs of
Recurring Deficiencies Previously Identified by              $417,039 ($333,275 of the $956,336 claimed under
ETA and OIG                                                  the ETA grant and $83,764 of the $212,760 claimed
                                                             under the Women's Bureau grant). Questioned
In December 1988, ETA identified several finan-              ETA costs resulted from improper charges of
cial and cash management areas in which OIC/A                labor costs and fringe benefits, costs invoiced in
was deficient. Followup reviews by ETA in 1990               excess of general ledger amounts, improper charges
found only minimal corrective action,                        for advances to a subcontractor, and unsupported
                                                             charges for other operating and travel costs.
In August 1990, the OIG issued a management                  Questioned Women's Bureau costs resulted pri-
report informing ETA that financial audit work               marily from excess cash drawdowns without re-
had shown that, despite repeated ETA monitor-                gard to grant matching requirements.
ing, OIC/A had long-standing serious financial
and cash management weaknesses.                              The questioned indirect costs, reclassification of
                                                             costs to their proper cost category, and related
In December 1990, the OIG issued a report ques-              adjustments to OIC/A's proposed cost allocation
tioning $761,599 of the $7.9 million in direct costs         base resulted in a $64,746 overall reduction in
claimed by OIC/A for ETA technical assistance                OIC/A's indirect costs.
and training grants ending June 30, 1989. This was
because OIC/A improperly charged its manage-                 ETA and OIC/A Corrective Actions
ment and administrative personnel directly to the
ETA technical assistance grants, even though the             Because of the OIG findings, ETA deferred fund-
personnel worked on DOL and non-DOL pro-                     ingOIC/AforProgramYear1991,andtheorgani-
grams. ETA issued a management decision disal-               zation is operating on an extended Program Year
lowing the entire $761,599 questioned by the                 1990 grant utilizing unspent funds. As such, ETA
auditors,                                                    has imposed a stringent Corrective Action Plan to
                                                             address the OIG findings and bring OIC/A into
Followup OIG Management Report                               compliance.

In July 1991, the OIG issued a followup manage-              The Plan calls for active participation by the
ment report on the status of OIC/A's corrective              OIC/A Board through an Oversight Management


                                                        33
Committee (representing OIC/A Board members                 ship Program grants and again by the local com-
and corporate sponsors) that will work with the             munity organizations which contract for the Insti-
designated Corrective Action Plan Director.                 tute's services using JTPA funds received from
                                                            their State or local governments.
As of September 30, 1991, OIC/A hired a new
comptroller, brought in a loaned executive from                  (2) ETA needed to ensure that excessive of-
industry to address DOL's concerns, and was search-         fice rental costs are not paid to the Institute under
ing for a new Director of Training and Technical            any future awards for a new 20-year lease the
Assistance. ETA and OIG staff met with these                Institute entered into for the National Office space.
new officials. In addition, in early October 1991,          The lease provides several incentives for the Insti-
ETA and the OIG staff met with OIC/A Board                  tute which are not being treated as rental expense
members and the OIC/A Oversight Management                  reductions in accordance with the pronounce-
Committee on the problems and needed improve-               ments of the Financial Accounting Standards Board.
ments.                                                      The incentives include the eventual acquisition of
                                                            a 23 percent partnership interest in the building
                                                            the Institute now partially occupies.
70001 Training     and Employment       [nstitute

(Report No. 18-91-021-03-340;issued Sept. 30, 1991)         As a result of this audit and the audit report on the
The 70001 Training and Employment Institute's               National Council on Aging (NCOA), where the
(Institute) -- now WAVE, Inc. -- develops pro-              audit disclosed a $1 million cash rebate under
grams related to high school dropout prevention,            NCOA's new lease, the Assistant Secretary for
dropout recovery, andthereorientationofdiscon-              Employment and Training agreed that under
nected youth,                                               present market conditions other grantees are likely
                                                            to obtain space under lease agreements that in-
TheOIG'sauditofthe$5.4millionincostsclaimed                 cludes lease-up incentives. Because of this, ETA
by the Institute under its DOL grants and contract          developed a new grant stipulation which, begin-
during the 3 years July 1, 1986 through June 30,            ningwith the next grant cycle, will be incorporated
                                                            in ETA's grants. A clause will require the grantees
1989, resulted in questioned costs of $779,739.
The Institute used predetermined percentages and            to appropriately share with ETA the "prorated"
amounts based on budgets to allocate these costs,           reductions in rental expense. AS an interim meas-
rather than allocating such costs, as required, on          ure, ETA will issue an Information Bulletin to its
an actual cost basis. The Institute also improperly         grantees. Also, through modification of current
included unallowable costs in the general and               grants, ETAhastakenstepstoensurethespecific-
administrative cost pool. In addition, the Institute        ity of Statements of Work for its Partnership
failed to reduce the overall rental expense for             Program grants.
rental income received for sublet space. Because
of the significance of the questioned costs in rela-        Philadelphia    Private Industry Council, Inc.
tion to claimed costs (14 percent), the auditors            (Report No. 18-91-045-03-340;issued Sept. 27, 1991)
issued an adverse opinion on the costs claimed.
The Institute disagreed with the audit findings.            The OIG performed certain special audit proce-
                                                            dures in a review of the Hospitality Demonstra-
The OIG also raised the following issues with               tion Apprentice Program conducted by the Phila-
ETA as a result of the audit:                               delphia Council AFL-CIO         (Council) under a
                                                            subgrant from the Philadelphia Private Industry
     (1) ETAneededtoprovidemorespecificityin                Council, Inc. (PPIC). This audit work was per-
the scope of work, objectives, and budget of the            formed at ETA's request after an ETA monitor-
Partnership Program grants to ensure that DOL               ing review identified indications of serious prob-
does not provide duplicate Federal funding of the           lems in both grantee performance and charges to
Institute's JTPA activities -- once by the Partner-         the grant. The $500,000 grant was for the purpose


                                                       34
of training and placement of 75 disadvantaged             $72,720 because the costs were either unallow-
youth and "AFDC" mothers in unsubsidized jobs             able under OMB Circular A-122 or not supported
in the hospitality industry,                              by adequate documentation.   In addition to these
                                                          questioned costs, the OIG recommended to ETA
The OIG found that all three tracks of the pro-           that excess cash drawdowns by the PPIC be re-
gram were either substantially behind schedule or         turned to DOL.
had fallen far short of producing the anticipated
numbers of enrollees and placements in on-the-            The OIG briefed the ETA Deputy Assistant Sec-
job training (OJT) positions. Although an esti-           retary on this special review, suggesting that, given
mated $252,500 of costs had been incurred by the          the poor performance and the inability of the
Council, only three trainees had been placed in           Philadelphia AFL-CIO to obtain OJT and em-
grant-related OJT positions,                              ployment commitments from prospective employ-
                                                          ers, as well as trainees for the program, it may be
The PPIC had drawn down excess Federal funds              prudent for ETA to terminate the grant.
($375,000) and maintained them in a non-interest
bearing account. The Council has claimed grant            ETAhassinceinformedtheOIGthatitconcurred
costs of $129,904 and incurred an additional esti-        with the OIG findings regarding poor program
mated $87,000 in costs but has not been reim-             performance and financial accounting. ETA staff
bursed by PPIC.                                           plan to meet with the PPIC to initiate action to
                                                          resolve this problem. In the interim, the PPIC has
The OIG reviewed all grant costs claimed by the           returned    to ETA over $300,000 in excess
Philadelphia Council AFL-CIO and questioned               drawdowns.




Employment       Standards      Administration

The Employment Standards Administration (ESA) administers and enforces a variety
of statutes prescribing certain standards of employment which must be met by covered
employers. These standards are primarily concerned with wages and working condi-
tions, workers' compensation benefits for certain workers, and compliance by Federal
contractors with the conditions of nondiscrimination and affirmative action programs
for employees of Government contractors.

To carry out these tasks, ESA has established the Wage and Hour Division, the Office
of Workers' Compensation Programs, and the Office of Federal Contract Compliance
Programs. The Office of Management, Administration and Planning handles internal
administrative needs.

During this period, the OIG issued reports on the Wage and Hour Division enforce-
ment program, financial statements for Fiscal Year 1990, the Department's workers'
compensation program (administered     by ESA), and ESA's procurement of Total
Quality Management training.




                                                     35
Wage and      Hour                                           In the period during and subsequent to the audit
                                                             fieldwork, WHD addressed and resolved a large
The Wage and Hour Division (WHD) of ESA ad-                  number of the audit's recommendations.       The
ministers a variety of laws to protect American              Assistant Secretary for Employment Standards
workers,includingyoungworkers,migrants,     work-            has generally concurred with all audit recommen-
ers on Government contracts and "whistleblow-                dations and has commenced corrective measures
ers." WHD annually recovers tens of millions of              for those recommendations    which remain unre-
dollars in back pay for workers who have been                solved.
illegally underpaid. During this period, the OIG
completed an assessment of WHD's enforcement
efforts.                                                     ESA Fiscal Year 1990 Financial        Statements
                                                             (Report No. 03-91-056-04-001;issued June 28, 1991)

Effectiveness   of the Wage and Hour                         The OIG audited the financial statements of the
Division's Enforcement     Program                           ESA for Fiscal Year 1990. The financial state-
(Report No. 17-91-001-04-420;issued Sept. 30, 1991)          ment opinion was qualified because the OIG noted
                                                             certain matters that are considered to be "report-
The major objectives of this audit were to deter-            able conditions," or deficiencies in the design or
mine whether WHD enforcement strategy sup-                   operation of the internal control structure that
ported agency goals and objectives and to assess             could materially affect the ability to record, proc-
the effectiveness of WHD's enforcement       pro-            ess, summarize, and report financial data. They
gram.                                                        were:

The OIG audit of WHD's Fiscal Year 1989 en-                       (1) The Department's and ESA's accounting
forcement program determined that the enforce-               practices and procedures were not adequate to
ment strategy showed weaknesses in several areas,            provide accurate and complete accounts payable
Agency goals and priorities were not clear. Per-             and undelivered orders information.         The total
formance standards for enforcement activities were           amount of ESA accounts payable and undelivered
not developed.   Additionally, internal processes            orders (together known as unliquidated obliga-
were not evaluated by WIlD to assess their effec-            tions) in question is over $27 million. The collec-
tiveness and develop better processes,                       tive effect of misclassification between accounts
                                                             payable and undelivered orders, erroneous dupli-
The OIG identified four primary ways for WIlD                cationofcertainundelivered      orders, and themain-
management to improve enforcement      program               tenance of certain entries that should be deobli-
performance. WIlD should:                                    gated is that the unexpended appropriations por-
                                                             tion of equity as of September 30, 1990, is mis-
    (1) integrate the Secretary's      goals for en-         stated.
forcement into WHD enforcement         activities;
                                                                  (2) The Department and ESA have not main-
     (2) change the methods used to screen corn-             tained adequate records of property and equip-
plaints and target employers in order to improve             ment costs and related accumulated depreciation.
the detection of violators;                                  Although the beginning balances for capitalized
                                                             property have been recorded in the DOLAR$
     (3) use the full range of remedies available to         general ledger, property weaknesses cited in prior
deter violators; and                                         year departmental audit reports have continued
                                                             into Fiscal Year 1990, primarily because the inef-
     (4) track and analyze the results of the techni-        fectual Departmental Property Management Sys-
cal assistanceefforts designed to educatethe regu-           tern will not be replaced until after the current
lated community,                                             fiscal year.



                                                        36
In their response, ESA provided us with the status         Lastly, the OIG concluded that MSHA, OSHA,
of their actions to correct the reportable condi-          and ETA were not performing adequate reviews
tions,                                                     of the FECA chargeback reports. As a result,
                                                           these agencies may have reimbursed the FECA
Review of DOL's     Workers'                               fund for inaccurate or erroneous charges. On the
Compensation     Program                                   other hand, ESA, OASAM/NCSC, and the OIG
                                                           were verifying that all individuals listed on the
(Report No. 02-91-233-01-001;issued August 23,1991)        quarterly chargeback reports were actually their
The OIG conducted an audit to determine the                employees.
efficiency and effectiveness of the Department's
internal workers' compensation program which               While the review was in progress, OASAM initi-
had total expenditures of $13.7 million in Fiscal          ated  significant
                                                           deficiencies       correctiveOASAM's
                                                                          disclosed.      actions toactions
                                                                                                     address have
                                                                                                              the
Year 1988. To determine this, the OIG measured
whether:                                                   included establishing a goal of reducing the De-
                                                           partment's loss time injury rate by 3 percent per
    (1)   FECA   claimants were returned    to the         year for the 5-year period beginning October 1,
                                                           1990, and providing guidance on responsibilities
work force when sufficiently recovered;                    for the workers' compensation and safety and
    (2) claims for workers' compensation      were         health programs to DOL executives, managers,
processed in a timely manner; and                          supervisors, and other designated agency officials.
                                                           In addition, OASAM has undertaken an intensive
    (3) the accuracy of FECA costs was verified            review of all DOL FECA claims, with the objec-
by DOL agencies,                                           tive of returning work-capable claimants to em-
                                                           ployment. As a result of the return to work initia-
When the reviewwas initiated, the Department of            tives, the Department has reported an estimated
Labor was not effectively administering its work-          cost reduction and life-time savings of $14.1 mil-
                                                           lion as of September 30, 1991. The Department
ers' compensation program to ensure that injured           has also instituted corrective actions, including
employees were returned to the workplace or
terminated from FECA when they were suffi-                 on-site OASAM evaluations, to improve the time-
ciently recovered. The OIG reviewed 62 DOL                 liness of claims processing and the verification of
employees selected at random from FECA's peri-             chargeback reports.
odic rolls and found medical information, dating
from 2 to 36 months prior to our review, indicating        Procurement     of TQM Training
that 11 employees (18 percent) were able to re-            and Related Services
turn to work with some limitations on their activi-        (Report No. 17-91-002-04-001;issued Sept. 25, 1991)
ties. In addition, 4 (11 percent) of 35 former Job
Corps participants whose cases we reviewed had             This special purpose review was conducted in
been working in the private sector for periods             response to a complaint to the OIG regarding
rangingfrom5to20monthswhilereceivingFECA                   possible abuses by a now former ESA official in
benefits. As a result, DOL expended a total of             obtaining Total Quality Management      (TQM)
$340,711 in questionable FECA benefits for peri-           training and related services during the period
ods when the claimants in our sample may have              April through September 1990.
been employable.
                                                           The OIG found that: (1) ESA did not comply with
The audit also found that DOL employing agen-              Federal procurement regulations requiring com-
cieswere notconsistentlyprocessing   FECAclaims            petition when it obtained TQM training services,
in a timely manner. The OIG's review of 36 cases           (2) the then Deputy Assistant Secretary did not
disclosed that processing delays resulted in inter-        disclose that his father was on the Board of Direc-
ruptions of income for periods ranging from 1 to           tors of the training institution initially selected to
18 weeks for 8 (22 percent) of the employees,              provide TQM training, (3) ESA incurred costs in

                                                      37
excess of allowable amounts under Federal travel            certain procurement policies and procedures, re-
regulations, and (4) ESA incurred and paid for              view the effectiveness of internal controls for
questionable refreshment costs at TQM training              procurement      actions, remind agency managers
conferences,                                                and procurement officials of their ethical respon-
                                                            sibility to disclose any potential conflicts of inter-
TheOIGconcludedthattheseviolationsoccurred                  est, and clarify its policy to clearly explain the
because agency and departmental controls either             restrictions on the procurement of refreshments
did not exist, did not function as intended, or were        at meetings and conferences.
circumvented by ESA officials. The report noted
that departmental policies and procedures, for              The report also contained recommendations        for
both obtaining training services and refreshments           the Assistant Secretary for Administration      and
at meetings and conferences, were vague and subject         Management and the Director of the Department
to misinterpretation    and/or abuse,                       of Labor Academy and was separately issued to
                                                            these officials. Both officials have concurred with
ESA has generally concurred with OIG's find-                OIG's recommendations.
ings and recommendations. ESA agreed to revise




Departmental        Management

Departmental management refers to those activities and functions of the Department
which implement and formalize policy, procedures, systems and standards to ensure
efficient and effective operations of administrative and managerial programs. Fre-
quently these activities and functions are applicable to and have an impact on all or
most of the agencies of the Department.   The Assistant Secretary for Administration
and Management has oversight responsibility for departmental management activities.


President's   Committee     on Employment         of        Specific OIG findings include: lack of controls
People with Disabilities                                    over the receipt, recording, disbursement and
(Report No. 18-91-030-01-001;issued Sept. 30, 1991)         reporting of funds for annual meetings, inade-
                                                            quate internal controls over contracting and per-
The President's Committee on Employment of                  sonnel functions, and inadequate     record keeping
People with Disabilities (Committee) provides               in support of travel.
advice and information on developing employ-
ment opportunities for the physically disabled and          The OIG made 26 specific recommendations         to
mentally retarded. The Committee promotes a                 the Committee. These recommendations included
variety of activities funded by congressional ap-           the development of effective internal controls
propriation which for Fiscal Year 1991 amounted             over financial resources, procurement, ethical con-
to $3.7 million. The Department of Labor pro-               duct, and administrative operations; and recovery
vides financial, procurement, and administrative            of $30,680 in Committee funds being held in ac-
services to the Committee.                                  counts of non-Federal organizations.

The Committee Chairman requested that the OIG               Based on the Committee's response to the draft
perform a review of the financial, management,              report, 23 of the 26 recommendations   for im-
and personnel practices of the Committee.                   proved operations are resolved. The OIG will



                                                       38
workwith the Committee to resolve the remaining            and other unallowable costs were charged directly
three recommendations,                                     to DOL grants. The auditors issued an adverse
                                                           opinion for the indirect costs claimed for the audit
Cost Allocation    Plans and Indirect   Cost Rates         period.

                                                           In addition to the questioned   costs, the OIG also
OMB Circular A-122, "Cost Principles for Non-
profit Organizations,"   provides principles for           found tothat NCOA   had not refunded
                                                           owed     DOL.  The monies owed  to DOL $364,672
                                                                                                   resulted
determining costs of work performed by nonprofit
organizations under grants, cooperative agree-             from subgrantee costsDOL's
                                                                                 disallowed   by NCOA'sof inter-
                                                           nal audit team and           establishment      final
ments, and contracts. Indirect costs are those that
have been incurred for common or joint objec-              indirect cost rates that were lower than the provi-
                                                           sional rates which NCOA used to obtain reim-
tives and cannot be readily identified with a par-         bursement from DOL. When the OIG informed
ticular final cost objective.                              NCOA management of these problems, they pre-
                                                           pared revised closeout documents and refunded
Because of numerous OIG audit findings related
to indirect costs being claimed by ETA grantees            $364,672 to ETA.
and contractors, at ETA's suggestion an Indirect
Cost Workgroup was convened to improve the                 According to the minutes of NCOA's Executive
Department's    procedures for establishing and            Committee, theterms of the current 15-year lease
applying indirect cost rates. The Workgroup is             includedapaymentofover$1milliontoNCOAby
comprised of staff from ETA, the OIG, and the              the lessor. The minutes stated that NCOA planned
Department's Division of Cost Determination.               to "permanently" invest the over $1 million in
                                                           cash it expected to receive in an "endowment
                                                           fund." Government policy reciuires that such a
Senior    Community      Service   Employment              lease incentive be considered a reduction of rental
Program     (SCSEP)                                        expense by the lessee over the term of the new
                                                           lease.
The SCSEP provides subsidized, part-time em-
ployment to low-income persons age 55 and older            ETA agreed to ensure that DOL grants reimburse
in a wide variety of community service activities          NCOA for only those rental costs appropriately
and facilities. Funding goes to 10 national organi-        reduced by lease incentives provided by the lessor.
zations, the U.S. Forest Service, and to units of
State and territorial governments.                         Res-Care Development       Company, Inc.
                                                           (Report No. 18-91-017-07-735;issued July 9, 1991,and
During the current reporting period, the OIG               Report No. 18-91-019-07-735;issued Sept. 23, 1991)
issued an audit report on the SCSEP grants to one
of the ten national sponsors -- National Council           Res-Care Development Company, Inc., through
on the Aging (NCOA).                                       one of its subsidiaries, operates several Job Corps
                                                           centers for DOL and provided vocational training
National Council on the Aging, Inc.                        at one Job Corps Civilian Conservation Center for
(Report No. 18-91-018-07-735;issued July 19, 1991)         the Department of Agriculture.

The OIG audited NCOA's grants for Calendar                 OIG audits of the indirect costs claimed for reim-
Years 1988 and 1989. The audit resulted in ques-           bursement by Res-Care for Calendar Years 1988
tioned indirect and direct costs of $901,119. Most         and 1989 resulted in questioned indirect costs
of the questioned indirect costs resulted from             totaling $614,290 and increases to the allocation
improper salaries and fringe benefits charged to           bases totaling $424,088. These findings resulted
the indirect cost pool and excessive allocation of         in an impact of $410,642 to the Job Corps con-
nonpersonnel costs. Similarly, excessive rental            tracts. Due to the reported findings, the auditors



                                                      39
issued adverse opinions for the indirect costs claimed        primary purpose is to provide union-related serv-
for the audit periods. Res-Care disagreed with                ices to dues-paying members. TCIU also has a
our questioned costs.                                         DOL contract to recruit, train, and place Job
                                                              Corps students in the Union's specialty areas.
The questioned costs resulted primarily from Res-
Care improperly including direct Job Corps' con-              Our audit of TCIU's Program Year 1989 indirect
tract costs, corporate capital and restructuring              costs resulted in questioned costs totaling $2.6
costs, severance pay, entertainment and alcoholic             million (46 percent of the proposed indirect cost
beverage costs, and unreimbursable legal fees which           pool). This resulted in an "audit determined"
included payments for "executive lobbying" in its             indirect cost rate of 5 percent compared to TCIU's
indirect costs,                                               proposed 10 percent. Moreover, the audit dis-
                                                              closed that TCIU did not have an accounting
The unallowable costs for "executive lobbying"                system that adequately identifies, accumulates,
consist of fees paid to a law firm of about $39,000,          and reports direct and indirect cost to support a
including fees paid to a consultant of the law firm,          negotiated indirect cost rate and has engaged in a
who is a former DOL Assistant Secretary, of about             pattern of abusive practices in allocating unallow-
$3,400. Res-Care engaged the law firm to assist in            able "union activity" costs to the DOL contract.
retaining itscontracts to administer two Job Corps            The auditors issued an adverse opinion on the
centers. The auditors also questioned payments                TCIU indirect cost rate proposal for Program
to another law firm for telephone conferences,                Year 1989.
correspondence,     and travel to Washington, D.C.,
for meetings with a Senator's staff also related to           As a result of the audit, ETA and TCIU delayed
Res-Care's loss of the two Job Corps centers                  exercising the option year of the contract until
contracts. Res-Care did not respond to the costs              they were able to reach agreement on the indirect
questioned as "executive lobbying."                           costs. The Department and TCIU subsequently
                                                              signed a final, fixed 5 percent indirect cost rate
While the activities in question are clearly unal-            under its DOL contract for the audit period of July
lowable costs, it appears that there was no viola-            1, 1989, to June 30, 1990, as well as for the follow-
tion of law. However, based on the OIG findings,              ing 2 years (through June 30, 1992). The net
ETA requested the Solicitor's Office to review the            impact to the DOL Job Corps program for Pro-
ethics issues related to the "executive lobbying"             gram Year 1989 and both 1-year option periods is
by the former Assistant Secretary of Labor. The               about $215,000. Potential savings for the third
Solicitor's Office determined that there was no               option year, not covered by the indirect cost agree-
violation of the law.                                         ment, is about $232,000.


Transportation     Communications                             In addition, the Department made it a part of its
International    Union                                        agreement that TCIU would not be able to re-
                                                              cover indirect costs from DOL after June 30,
(Report No. 18-91-005-07-735;issued July 1, 1991)             1992, unless TCIU would take the corrective ac-
                                                              tions the OIG recommended.
Transportation Communications     International
Union (TCIU) is a nonprofit corporation whose


Veterans'     Employment         and Training        Service (VETS)

The Assistant Secretary for VETS serves as the principal advisor to the Secretary on the
formulation and implementation of policies affecting veterans. VETS also exercises
functional supervision over the execution of veterans' programs administered by the
State Employment Security Agencies and other employment and training programs
and administers certain grant programs.

                                                         4O
Urban Revitalization-USA, Inc.                                  (1) Only 16 participants partially completed
(Report No.18-914141-02-201;
                          issued Sept. 30, 1991)           the 10-month training program; the minimum re-
                                                           quirement was for 72 participants to complete
At the request of VETS, the OIG audited the                training.
program accomplishments and costs claimed by
the Urban Revitalization-USA, Inc. (UR-USA)                    (2) Only 1 participant was placed in unsub-
under a 1-yeargrant to provide training and place-         sidized employment; yet the minimum program
ment services to veterans. The audit identified            requirement was for 65 participants.
questioned costs totaling $133,615 (or 69 percent)
of the $193,951 in costs claimed by UR-USA.                In the OIG's opinion, VETS contributed to the
                                                           failure of this grant by not requiring a plan from
VETS reimbursed UR-USA $153,620 and is cur-                UR-USA prior to award of the grant which estab-
rently withholding a $40,331 request for payment           lished how and by whom participants would be
based on our audit fieldwork. Since our audit              trained and paid. In addition to the specific rec-
disclosed that only $60,336 of the claimed costs           ommendations on UR-USA, we recommended
are allowable, the OIG recommended that VETS               further that VETS develop procedures which will
not pay the $40,331 requested by UR-USA. In                require future grants of this type to include assur-
addition, we recommended that VETS disallow                ances that participants' training wages will be
and recover the remaining $93,284 of questioned            provided by reliable sources and that grantees'
costs that have already been paid. UR-USA fell             costswillbepaidcontingentonsuccessfulcomple-
far short of meeting the grant program training re-        tion of specified stages of the program require-
quirements. For example:                                   ments.




Program      Fraud    Civil Remedies       Act

The Program Fraud Civil Remedies Act (PFCRA), Public Law 99-509, enacted effec-
tive October 21,1986, provided Federal agencies with administrative remedies for losses
resulting from false statements  and from false claims of not more than $150,000.

As the designated     investigating    official, the OIG took action             to investigate cases for
possible administrative     remedies shortly after the Department                 issued Final Rules and
Regulations  on December         22, 1987, implementing   PFCRA.

To date, investigations have been completed on 13 cases involving three major DOL
programs regarding the Davis-Bacon   and Related Acts, Federal Employees'  Compen-
sation Act (FECA), and JTPA.

Davis-Bacon and Related Acts                               civilpenalties represent the full amount sought by
                                                           the Department.
In the first PFCRA case within the Department to
be heard by an Administrative Law Judge (ALJ),             Under the Davis-Bacon and Related Acts, Aconi
the ALJ decided in the Department's favor and              was required to pay its employees at wage rates
assessed civil penalties of $105,000 against Aconi         that DOL had determined were prevailing in the
Constructors, Inc. (Aconi). Aconi had submitted            locality of the construction project and to submit
false payroll statements in connection with a fed-         certified payroll reports to the Government show-
erally-funded construction project in Florida. The         ing that it had paid its employees at least these

                                                      41
wages. In the ALJ's decision, he stated, "Aconi             Continuing Professional        Education
through its officers and employees engaged in a             June   10-21,   1991
pattern of deception to hide its illegal payments of
employee compemation." Aconi has filed an appeal            The OIG's Office of Audit held its second training
with the Secretary of Labor.                                program for auditors which was developed to ful-
                                                            fill GAO's Yellow Book requirement of 80 hours
The Department also settled a case in lieu of a             of continuing professional education every 2 years.
formal ALl hearing. The case involved false pay-            At the Inspector General's invitation, 19 staff
rolls submitted by a contractor on a federally-             from 15 other Federal audit organizations also
funded construction project. The contractor, which          participated in the program.
had previously made restitution of the employees'
back wages, agreed to pay a penalty of $40,000.             The course offerings included ADP, grant/con-
                                                            tract, fraud, Federal financial statement and per-
Office of Workers' Compensation:            Federal         formance auditing, as well as two writing courses
Employees' Compensation Act Program         (FECA)          and an oral communications class.

FECA is the sole form of workers' compensation              Employees also attended nine general sessions
available to Federal employees who suffer on-the-           designed to update their knowledge of profes-
job traumatic injuryor occupationaldisease.   The           sional standards, current audit initiatives and
DOL Office Workers' Compensation Programs                   departmental programs. In addition to presenta-
(OWCP) administers the Act and pays out over                tions by individuals prominent in the private sec-
$1.5 billion annually for injured Federal employ-           for accounting and auditing professions, Inspec-
ees. Due to the large number of FECA benefici-              tor General De La Rosa and Department of Labor
aries living in California, a one-time crossmatch           iMsistant Secretaries Thomas C. Komarek and
was conducted prior to this reporting period to             Roberts T. Jones discussed and answered ques-
verify continued FECA eligibility and to identify           tions on their respective missions and audit-re-
possible fraud,                                             lated activities.

The crossmatch disclosed 41 cases where FECA                Staff from other Federal audit organizations at-
claimants had not reported earnings to OWCP as              tended the course on Federal financial statement
required and 19 cases where the claimants had               auditing. This course will be offered by the U.S.
reported earnings, but OWCP had not taken for-              Department     of Agriculture Graduate School's
feiture action. OWCP has declared $390,032 in               Government Audit Training Institute later this
forfeiture and overpayments.     The OIG has pur-           year. The course covered the requirements of the
sued 9 cases for criminal action and investigated 4         Chief Financial Officers Act of 1990 and demon-
cases for prosecution under the PFCRA.                      strated the model developed by OIG's Office of
                                                            Audit based on its experience in compiling and
As a result of the crossmatch, during this reporting        auditing financial statements for the Department
period the Department of Justice approved the               of Labor.
prosecution under PFCRA of the first two cases
for double damages and penalties totaling about             Given the economies and tailoring of content that
$107,000.                                                   can be achieved through directly sponsoring train-
                                                            ing, the OIG believes that this is the most advan-
                                                            tageous method of delivering this required con-
                                                            tinuing professional education.




                                                       42
                                          Office of Audit

                                                  Section 4

                                           Audit Resolution



                                        Audit Resolution Activity
                                              ($ millions)

        Period           Audit Reports                      Amount                         Total
        Ending           Resolved                   Disallowed   Allowed                   Resolved

        3/31/90              350                       $15.4              $3.0               $18.4
        9/30/90              263                      $344.0              $3.6              $347.6
        3/31/91              244                       $21.8             $10.3               $32.1
        9/30/91              239                      $115.2              $2.2              $117.4

        Detailed information on audit resolution activity for the period may be found in Chapter 5. An
        audit recommendation is resolved when the OIG and the DOL program agency responsible for
        the audited activity agree on action(s) that will correct the problem or deficiency that produced
        the recommendation.




                                   Significant     Resolution      Actions

Certain resolution actions are reported in Sections 1 and 3. The following are other
significant resolution actions taken by DOL program officials:


Survey Report     on Foreign    Labor                       (OMB Circular A-25) and authorized by law (31
Certifications                                              U.S.C. 9701). Consequently, the Department had
(ReportNo.09-91-001-03-321;issuedJanuary16,1991)            not recovered an estimated $61 million in reve-
                                                            nues during Fiscal Years 1988 and 1989 and will
The Secretary of Labor is charged with certifying           lose an estimated    $40.5 million in Fiscal Year
alien workers for temporary and permanent em-               1990.
ployment.    Local State Employment Security
Agency (SESA) offices perform the actual certifi-           The OIG recommended that ETA immediately
cation process,                                             implement full cost recovery service fees for all
                                                            foreign labor certification programs. ETA is in
The OIG found that ETA had not pursued user                 the process of developing a fee structure for this
fees to the extent required by Presidential policy          function.




                                                       43
Big Five Community      Services, Inc.                     The OIG also identified $111,579 of program
(Report No. 06-90-001-03-340;issued Sept. 28, 1990)        income which had not been properly accounted
                                                           for (this figure subsequently rose to $134,763).
Of $137,514 costs questioned by the OIG, ETA               ETA also disallowed the entire $134,763 of pro-
allowed $44,337 based on documentation submit-             gram income which lacked documentation on the
ted by the grantee. Disallowed costs of $93,177            purpose to which these funds were put.
included instances of less-than-arms-length trans-
actions between related organizations, inappro-            Louisiana Department       of Labor (LDOL)
priate payments for legal and other fees, and              (Report No. 06-91-201-50-598;issued Dec. 11, 1990)
unallowable costs disguised as OJT payments.
                                                           ETA disallowed $1,812,364 of Federal funds the
North American     Indian Club (NAIC)                      LDOL Office of Employment Security paid to its
of Syracuse                                                private health insurance carrier.

(Report No. 02-91-225-03-355;Issued March 29,1991)         'The Louisiana Legislative Auditor's statewide single
                                                           audit report for the period July 1, 1988 through
The OIG questioned $115,878, and ETA disal-                June 30, 1989, questioned these costs because the
lowed
because$115,252,
         NAIC hadofaccumulated
                    JTPA expenditures   primarily
                               excess JTPA  cash           LDOL offered employees of its Office of Employ-
                                                           ment Security a group health insurance program
and used these funds to pay for non-DOL pro-               that had not been approved by the board of trus-
grams and activities. Also, all program costs re-          tees of the State Employees' Group Benefits
ported to ETA were not identified in NAIC's                Program. Participation of this insurance program
books,                                                     violated State laws and Federal regulations.

Cleveland Job Corps Center Special                         State of Iowa
Purpose Review                                             (Report No. 05-91-048-50-598;issued Feb. 20, 1991)
(Report No. 05-91-053-03-370;issued March 27, 1991)
                                                           During Fiscal Year 1989, the Iowa Job Services
The OIG found that the financial management                Division transferred $1,099,585 of expenditures
system at the Cleveland Job Corps center could             from the Employment Service program to the
not be relied upon to produce accurate and timely          Unemployment Insurance program.       No docu-
financial information, as well as documentation            mentation was available to support the transfer
for $147,518 in expenditures.   Also, $32,414 in           and the OIG questioned this amount.
expenses in violation of various contractual and
regulatory requirements had been incurred. ETA             The State subsequently documented that $705,571
disallowed these amounts,                                  of the total expenditures transferred were allow-
                                                           able under the terms of the pertinent Federal
                                                           grants. ETA allowed this amount and disallowed
                                                           the remaining $394,014 of grant costs.




                                                      44
                          Summary      of Final Action Activity
                                            and
                           Revised Management         Decisions


Final Action Activity

A "final action" occurs when the actions required by an agency management decision
have been completed (i.e., report is closed). Below is a summary of management's final
action activity for this and previous semiannual periods.


                          Management's Final Action Activity
                                     ($ millions)

      Period        Audit Reports                  Amount                    Total
      Ending        Closed                 Written-off  Recovered            Closed

      3/31/90           291                    $0.0           $2.4             $2.4
      9/30/90           282                    $6.6          $44.1            $50.7
      3/31/91           230                    $4.0          $51.6            $55.6
      9/30/91           299                   $35.3         $114.3           $149.6

      Detailedinformationonfinalactionactivityfortheperiodmaybe foundin Chapter5.


                              Revised Management Decisions

The term "management decision" means the e_;aluation by DOL program agency man-
agement of the findings and recommendations         included in an audit report and the
issuance of a final decision concerning its response to such findings and recommenda-
tions, including actions determined to be necessary.

OIG is required by the Inspector General Act Amendments of 1988 to provide a
description and explanation of the reasons for any significant revised management
decisions made by departmental agencies during the reporting period. The OIG is also
required to report on any significant management decision with which it disagrees.

During this reporting period, revised management decisions were issued for eight audit
reports, all by ETA. A synopsis of the more significant revised management decisions
follows.


                                             45
Teledyne Economic Development           Company              Based primarily on these facts, the Department
(Report No. 18-89-003-03-370;issued Mar. 31, 1989,           and the contractor agreed as follows:
and Report No. 18-89-025-03-370;issued Sept. 29,1989)
                                                                 The Department, having reviewed these
ETA disallowed $43,358 of contract costs associ-                 cases, hereby determines that, consistent
ated with the operation of 2 Job Corps centers,                  with law and policy, it is in the best interest
The contractor appealed this decision to the                     of the Department to accept the Grantee's
Department's Office of Administrative Law Judges.                offer to reduce program funding by $14,919.
The Department accepted the contractor's offer                   This will leave a balance owed the Grantee
of $16,200 in satisfaction of the amount disal-                  under the grant of $67,951 which will be
lowed,                                                           paid by the Department to the Grantee.
                                                                 The reduction in funding represents full
ITT Job Training Services, Inc.                                  satisfaction of the amounts which were
                                                                 disallowed and are now on appeal.
(Report No. 18-89-015-03-370;issued Sept. 29, 1989)

                                                             The Grantee agrees to forego the opportunity to
ETA disallowed $41,479 of contract costs associ-
ated with the operation of a Job Corps Center.               pursue collection of account receivables gener-
The Contractor appealed this decision to the                 ated by the sale of Workforce 2000 books and
Department's Office of Administrative Law Judges.            executive summaries before October 31, 1989.
The Department accepted the Contractor's offer
of $9,856 in satisfaction of the amount disallowed.          Montgomery Preble Employment              and
                                                             Training Consortium
Hudson Institute, Inc.                                       (Report No. 11-4-129-03-350;issued Februaryl4,1984)
(Report No. 18-88-001-03-380;issued Sept. 14, 1988,
and Report No. 18-90-012-03-380;issued Feb. 2, 1990)         ETA disallowed $158,391 of grant costs associ-
                                                             ated with the operation of Montgomery County
ETA disallowed $506,221 of costs associated with             (Ohio) employment and training programs. Of
gran_-ee research and identification of policy is-           this amount, the grantee paid $1,471 to the De-
sues for employment and training matters through             partment and appealed the remaining $156,920 to
the year 2000. ETA also determined that, of this             the Department's     Office of Administrative Law
amount, $492,637 was subject to debt collection.             Judges. The Department accepted the contrac-
The grantee appealed this decision to the Depart-            tor's offer of $75,000in satisfaction of this amount.
ment's Office of Administrative Law Judges.
                                                             State of Hawaii
Of total disallowed costs, $327,166 was disallowed           (Report No. 09-89-546-03-340;issued March 13, 1989)
because the grantee had failed to obtain an indi-
rect cost rate for Fiscal Years 1986 and 1987 from           ETA disallowed $2,903,493 in costs associated
its cognizant agency (Defense Contract Audit                 with the Hawaii Department of Labor and Indus-
Agency). The grantee subsequently did so, and                trialRelations (DLIR) JTPAprogramoperations.
the Department accepted the final indirect cost              In a post-management decision review of docu-
rates for these years. ETA also determined that,             mentation submitted by DLIR, ETA determined
based on invoices submitted by the grantee, the              that $2,727,934 of these costs were allowable with
Department owed the grantee $82,870.                         $175,559 disallowed and subject to debt collec-
                                                             tion.




                                                        46
                                             Chapter 2


                                Office of Investigations


During this reporting period, the OIG's Office of Investigations has focused its
investigative priorities on the Job Training Partnership Act (JTPA) and Federal
Employees' Compensation Act (FECA) programs, contract and procurement fraud,
and employee misconduct, and has persisted in aggressively attacking programmatic
criminal activity which surfaces as a result of its investigations. Continued attention has
been given to the unemployment insurance program, particularly interstate activity
involving fictitious employer/employee schemes and third-party false claims.

Additionally, the OIG continues to assist and train Special Agents and others in the
detection and investigation of FECA related fraud. In April, as part of a nationwide
project, the OIG and the Naval Investigative Service (NIS) jointly provided a 3-day
FECA training session for NIS Special Agents, which included Navy Shipyard person-
nel. Although investigations resulting from these recent endeavors are still in the
developmental stage, it is anticipated that significant criminal, prosecutive, and admin-
istrative actions, enhancing the program's deterrents and the Government's investiga-
tive effectiveness and efficiency, will be accomplished.

The following cases are prominent examples of the areas in which the OIG has been
concentrating its programmatic investigative resources.


Waterbury,  Connecticut       Mayor     Indicted          City of Waterbury had used their political party's
in JTPA Fraud Charges                                     control of the City Government to obtain favor-
                                                          able action on projects proposed by their support-
The Mayor of Waterbury, Connecticut, Joseph J.            ers. This was a joint investigation by the OIG and
Santopietro, was indicted on nine counts of fraud         the Federal Bureau of Investigation. U.S.v. San-
relating to the embezzlement of JTPA funds,               topietro et al. (D. Connecticut)
Santopietro is accused of having used Federal
funds, including JTPA funds, which were man-              Former    Georgia Representative Indicted
aged by one of the city agencies, to pay for per-
sonal expenses when he traveled.                          Bobby Lee Hill, a former State of Georgia Repre-
                                                          sentative and candidate for both Lt. Governor of
In one instance, he is alleged to have been reim-         Georgia and Mayor of Savannah, and his em-
bursed for the same expenses by both the city gov-        ployee Charles M. Key, were indicted by a Federal
ernment and the Employment and Training Ad-               grand jury on September 10, 1991. They were
ministration. The September 24, 1991,indictment           charged with theft of $10,000 in JTPA training
principally charged that elected officials of the         funds, conspiracy, aiding and abetting, false state-




                                                     47
ments, and tampering with a witness. Hill was                 Former     Labor   Secretary Aide Indicted
doing business as Vision Equity Financial Group,
also known as Vision Equity Financial Services                Michael Patrick Kaiser, the director of advance
and Vision Equity Financial Group, Inc., which                and a special assistant to former Secretary of La-
contracted with the City of Savannah's Chatham                bor Elizabeth H. Dole, was indicted on May 16,
Employment and Training Program to enroll JTPA                1991, by a Federal grand jury in the District of
participants.                                                 Columbia. The indictment charged Kaiser with
                                                              three counts of making false and fraudulent state-
The indictment charged that from July 1989 until              ments, five counts of credit card fraud, and three
July 1991, defendants Hill and Key carried out a              counts of wire fraud. More specifically, it charged
scheme which included submitting to the City of               Kaiser with making false and fraudulent material
Savannah false reimbursement vouchers for ineli-              statements and representations     on his applica-
gible participants and false monthly progress re-             tions for Federal employment with DOL by stat-
ports about wages allegedly paid to participants. It          ing a false name and Social Security Administra-
further alleged that the defendants intimidated               tion number and falsely certifying that he had
and attempted to corruptly persuade a potential               never been convicted of any felony or been on
Federal grand jury witness to give the Govern-                probation during the last 10years. The indictment
ment false testimony. If convicted, Hill and Key              also charged that, from approximately March 1988
face a maximum of 174 years' imprisonment and                 through August 1990, Kaiser intended to defraud
$9 million each in fines. U.S.v.Hilland Key (S.D.             credit card companies and obtain and use un-
Georgia)                                                      authorized credit cards from which he obtained in
                                                              excess of $74,000. The wire fraud counts stemmed
                                                              :from Kaiser's interstate commerce use of wire
Sentencing     in Nationwide      Unemployment                communications in the furtherance of his scheme.
Insurance     Fraud Scheme
                                                              Upon the return of the indictment, Kaiser was
In a case highlighted in the last report, Daniel              arrested by OIG and Federal Bureau of Investiga-
Ibarra, a notary public, and his employees/family             tion Special Agents in Sacramento, California,
members were sentenced on June 10, 1991, for                  where he had relocated after his DOL employ-
their roles in an illicit Unemployment Insurance              ment had been terminated. If convicted, Kaiser
(UI) third-party claimant scheme. Daniel Ibarra               faces a maximum sentence of 10 years' imprison-
was sentenced to 15 months' imprisonment; Abra-               ment and a $250,000 fine for each credit card
ham Ibarra was sentenced to 1 year's imprison-                count and five years and $250,000 for each wire
ment; and Grace, Carlos, and Jaime Ibarra were                fraud and false statement count. The indictment
each sentenced to 3 years' supervised probation,              was the result of a lengthy joint investigation by
Patricia Ibarra, who pled guilty to a misdemeanor             the OIG and the Federal Bureau of Investigation.
charge of theft of Government property, was                   [Note: shortly after the close of this reporting
sentenced to 3 years' probation. The defendants               period, Kaiser entered a guilty plea and is pres-
were ordered to pay in excess of$13,000 in restitu-           ently awaiting sentencing.]    U.S.v. Kaiser (D.
tion.                                                         District of Columbia)


The
merousgroup
          falsewas
                andaccused of having
                    fraudulent        submitted
                                UI claims          nu-
                                           to at least        Former Bureau of Alcohol_ Tobacco, and
22 States, on behalf of registered aliens residing in         Firearms    Agent Indicted
Mexico, some of whom had previously worked and
lived in the United States. The defendants admit-             A former Bureau of Alcohol, Tobacco, and Fire-
ted to operating the scheme for over 20 years,                arms Special Agent, Linda K. Richardson, was
While it was impossible to determine the exact UI             indicted by a Federal grand jury in Los Angeles, on
program loss, it is estimated to be millions of               August 27, 1991. She was charged with three
dollars. U.S.v. Ibarra et al. (E.D. Texas)                    counts of making false statements to obtain FECA


                                                         48
benefits. While working for a family business,               contributed by the G. Heileman Brewing Com-
Richardson Enterprise, which later became Ex-                pany to sponsor sporting activities were actually
ecutive Safeguard Corporation, Richardson col-               used by the defendants for personal and political
lected approximately $58,000 in FECA benefits                purposes. U.S.v. Quintanilla et al. (N.D. Illinois)
from 1985 through 1988, during which she failed
to report her income to OWCP. If convicted,                                            .--
Richardson faces a maximum sentence of 5 years'
imprisonment and a $250,000 fine on each count.              Charles E. Koen, the former executive director of
U.S.v. Richardson (C.D. California)                          the United Front, Inc. (UFI) in Cairo, Illinois, was
                                                             sentenced on May 21, 1991, to 12years' imprison-
                                                             ment, ordered to pay over $636,000 in restitution,
Other Investigations                                         and $5,000 in penalties. His sentence stems from
                                                             a conviction on charges of embezzlement       and
The following case updates and other investiga-              misapplication of Federal program funds, theft of
tions, listed by major program area, are illustrative        public
                                                             fraud. money, false statements, arson, and mail
of OIG programmatic investigations during the
period.                                                      He was also ordered to make restitution       of over
                                                             $51,000 to the City of Cairo for the disability
Job Training     Partnership      Act (JTPA)                 payments the city had to make to a fireman who
                                                             was injured while extinguishing the fire for which
In a case previously reported, Joseph Monreal,               Koen was convicted. The 1985 arson destroyed
former director of G. Heileman Brewing Corn-                 the building which housed UFI, a social service
pany's Hispanic Market Development, was sen-                 agency founded by Koen in the late 1960s. The
tenced on April 25, 1991, to 5 years' incarceration          defense contended that the blaze could have been
and ordered to pay over $295,000 in restitution,             ignited by a firebomb thrown by the Ku Klux Klan.
The sentence stems from his January 30, 1991,                However, during the trial, the Government proved
guilty plea to one count of using a racketeering             that the fire was really an act in a scheme to collect
enterprise and one count of conspiracy to defraud            $550,000 f_om an insurance policy and a means by
the Internal Revenue Service (IRS).                          which Koen attempted to conceal his theft of
                                                             Government grant funds. U.S.v. Koen (S.D. Illi-
Carlos Quintanilla, the former director of "Op-              nois)
eration SEARCH" (Securing Employment Ad-
vancement Resulting in Change), and Leticia                                            ""
Gutierrez, a community activist, were sentenced
on May 16, 1991, for their roles in the conspiracy.          Rosa F. Galloway, president and co-owner of STEM
Quintanilla received 6 months' incarceration, a              Corporation, was indicted on June 18, 1991, by a
$10,000 fine, was ordered to perform 500 hours of            Federal grand jury in Richmond, Virginia, on 21
community service, and was placed on probation               felony counts including conspiracy, false claims,
for 5 years. Gutierrez was sentenced to 6 months             mail fraud, and making false statements to ob-
imprisonment, was ordered to pay $25,000 restitu-            struct an investigation. On September 18, 1991,
tion, and placed on 5 years' probation on the                Galloway pied guilty to two of the counts. Her
condition that she perform 200 hours of commu-               guilty plea came pursuant to an agreement in
nity service,                                                which she admitted guilt to embezzlement of JTPA
                                                             funds and mail fraud.
"Operation SEARCH" was a non-profit agency,
whose purpose was to promote employment serv-                STEM, a JTPA sub-contractor, received a $148,874
ices for low and moderate income persons in Chi-             contract from the Private Industry Council to
cago's Hispanic community. Evidence presented                conduct job training and placements. The indict-
at the trial revealed that JTPA funds and money              ment charged that Galloway instructed employees


                                                        49
of STEM to falsify employment placement forms             invoices approved by Wiegand. It also revealed
and other documentation to conceal the fact that          that between 1986 and 1987, Jones received ap-
many participants did not receive the training and        proximately $70,000 in JTPA funds for training
job placements which STEM certified and re-               that he did not provide. Jones, who pled guilty in
ceived JTPA reimbursement.       The approximate          October 1990 to State charges of theft and for-
loss to the Government was nearly $80,000. Gal-           gery, was sentenced in February 1991, to 1year im-
loway faces a maximum sentence of 7 years' im-            prisonment, 5 years' probation, and ordered to
prisonment and $500,000 in fines,                         pay $96,000 restitution.

The JTPA project director for STEM, Gertrude              On July 22, 1991, Wiegand was sentenced to 7
Taylor, was previously sentenced in this case to 8        years' probation and ordered to make full restitu-
months' imprisonment and fined $2,000 after plead-        tion. This was a joint investigation by OIG and the
ing guilty to one count of mail fraud. This was a         Arizona Attorney General's Office. State of
joint investigation by the OIG and the U.S. Postal        Arizona v. Jones and Wiegand (Arizona)
Inspection Service. U.S.v. Stem Corporation et aL
(E.D. Virginia)                                                                    ...

                        •..                               On September 6, 1991, Stephen Nathaniel Jackson
                                                          was indicted by a Federal grand jury in Florida for
Welborn Preston, a W & W Enterprises, Inc.                allegedly falsifying JTPA related documents in a
partner who had pied guilty to theft of JTPA              fraud scheme. The 14-count indictment charged
funds, was sentenced on September 4, 1991, to 2           that Jackson, a former job specialist supervisor for
years' imprisonment.     An OIG investigation dis-        the Lutheran Ministries, Inc., of Florida (The
closed that Preston and his partner, George Wash-         Ministries), made false statements on JTPA place-
ington, conspired to defraud the JTPA program of          ment certifications.
just over $250,000 by over billing the Motivation
Education and Training, Inc., a JTPA grantee, for         ']'he investigation revealed that from September
training 121 participants. All of the alleged 121          1990 through December 1990, Jackson forged the
JTPA participants were actually employed by Day           :names of JTPA participants on certifications. The
and Zimmerman, Inc., a Lone Star U.S. Army                Ministries had engaged in a JTPA contract with
Ammunition Depot subcontractor. Preston formed            the State of Florida to help difficult-to-employ
W & W Enterprises, Inc. and, with the assistance          individuals locate jobs. The investigation limited
of Washington, claimed all JTPA participants were         the Government's loss to less than $10,000, of the
employed and trained by W & W. U.S.v. Preston             approximate $500,000 contract.        If convicted,
(E.D. Texas)                                              Jackson faces a maximum sentence of 70 years'
                                                          imprisonment and $140,000 in fines. US. v. Jackson
                        •.-                               (M.D. Florida)

The former Executive    Director   of the Cochise
Private Industry Council (CPIC), Jane M. Wie-             Job Corps    (,]C)
gand, was found guilty, on May 15, 1991, by the
Superior Court of Cochise County in Bisbee,               The former Director of the Cleveland Job Corps
Arizona, of defrauding and misusing public funds.         Center, Mark S. Watson, was sentenced on April
CPIC was the recipient of JTPA funds to train             10, 1991, to serve 10 months' incarceration on
certain targeted disadvantaged community groups,          charges that he accepted $20,000 in kickbacks
CPIC in turn contracted       Diversified Money           from a contract pertaining to the installation of a
Management, Inc., a business owned by Dennis              heating apparatus at the Job Corps facility. The
Allen Jones, to train youth and adults to become          sentence stems from Watson's guilty plea, as part
certified welders. Trial evidence revealed that           of a December 19, 1990, negotiated agreement, to
Jones did not provide the contracted training and         one count of using false documents.         U.S. v.
that he submitted and received payment on false           Watson (N.D. Ohio)
                                                     50
Federal Employees'        Compensation        Act          claimedbenefits after allegedly being injured by a
(FECA)                                                     falling box of potatoes in 1986. Dapuzzo, how-
                                                           ever, failed to notify OWCP that he wasoperating
Ajoint investigation by the OIG and the Defense            a number of businesses in the Hoboken, New
Logistics Agency (DLA) disclosed that Vasilios             Jersey area. Acivilcomplaintinexcessof$110,000
                                                           has also been filed against Dapuzzo under the
Dizes, a former DLA Defense Personnel Support              False Claims Act. U.S.v. Dapuzzo (D. New Jet-
tailor in Philadelphia who claimed to be totally           sey)
disabled, failed to report significant income that
exceeded his former Federal salary. On June 27,                                    ...
1991, Dizes was sentenced in Philadelphia to 1
year's imprisonment, 2 years' probation, and or-
dered to paya $5,000 fine. He had been convicted           Jeremiah Ranieri, a former U. S. Postal Service
                                                           letter carrier, was sentenced on April 12, 1991, to
on four counts of providing false statements to the        3 years' probation, 1500hours of communityserv-
Government to conceal his employment and in-
                                                           ice, fined $1,000, and ordered to pay$25,000 res-
come while receiving FECA benefits,                        titution as a result of his March 15, I991, guilty
                                                           plea to mail fraud charges. Ranieri has been
The OIG also pursued a civil false claims case             receiving FECA benefits since symptoms from a
against Dizes, which resulted in a May 29, 1991,           1971 injury had allegedly recurred. Ranieri is
settlement. In the settlement agreement, Dizes             alleged to have held manyjobs since then, most
agreed to pay $110,000 in restitution and penal-
ties, almost double the actual overpayment of              recentlyas a substitute teacherwith the NewYork
                                                           City Board of Education. In addition, the OWCP
approximately $57,000. U.S.v. Dizes (E.D. Penn-            hasdeclaredan overpaymentof more than $185,000
sylvania)                                                  againstRanieri. This was ajoint investigation with
                                                           the U.S. Postal Inspection Service. U.S.v. Ranieri
                                                           (E.D. New York)
Thomas Lydon, a former employee development                                        ...
specialist with the Federal Aviation Administra-
tion, was sentenced on August 9, 1991, to 10               Albert S. Holstius, a former U.S. Postal Service
months' incarceration, 2 years' supervised proba-          letter carrier, was indicted on August 21, 1991, on
tion,
excessand fined $6,000.
       of $150,000       Lydon
                   in FECA       had collected
                             benefits           in
                                      since alleg-         10 counts of mail fraud and making false state-
edlysustaining an on-the-job injuryin 1984. Since          ments. Holstius is charged with having failed to
then, however, he founded andoperated an indus-            notify OWCP that he was operating his own auto-
                                                           mobile repair business. Since he allegedly injured
trial cleaning business, whose water treatment             himself when he fell off a curb in 1984, Holstius
division became the largest in Rhode Island. On            had received almost $120,000 in FECA benefits. If
May 24, 1991, Lydon entered a guilty plea to two           convicted, Holstius faces a maximum sentence of
counts of an indictment which charged him with
mail fraud and making false statements to OWCP             50 years' imprisonment and fines totalling $2.5
                                                           million. This was a joint investigation by OIG and
to receive FECA benefits.      U.S.v. Lydon (D.            the U.S. Postal Inspection Service. U.S.v.Holstius
Rhode Island)                                              (D. Rhode Island)

                                                           Unemployment        Insurance     (UI)
Michael Dapuzzo, a former warehouseman at the
U.S. Navy's Marine Ocean Terminal in New Jet-              In the March 1991 SemiannualReport, we noted
sey, was sentenced on June 18, 1991, to 3 years'           that 79employeesof the Elegante Sleepwear factory
probation, including 3 months' house detention,            had been indicted for fraud involving over $95,000
after pleading guilty to making false statements to        in UI benefits. In May 1991, sentences were
OWCP to ensure continued FECA benefits. He                 handed out to the defendants resulting in orders

                                                      51
for total restitution of $95,000, periods of proba-         Sentencing has been scheduled for November 14,
tion, and fines totalling $8,200. Puerto Rico v.            1991. He faces a maximum penalty of 15 years'
Gonzalez et al. (Puerto Rico- Mayaguez)                     imprisonment and a $250,000 fine. Massey re-
                                                            signed from his position in September 1990. U.S.
                          •..                               v. Massey (S.D. West Virginia).

For his part in an UI fictitious employer scheme                                     ---
perpetrated   for 5 years in Seattle, Washington,
Richard Logsdon, a former junior high school                In a previously reported investigation, John T.
teacher in Texas, pled guilty to two counts of mail         Hinchman, an MSHA coal mine inspector and
fraud. Logsdon's plea agreement included his                ventilation specialist, was sentenced to 3 years'
taking primary responsibility for the Washington            supervised probation, 4 months' confinement to
scheme and prior fictitious employer schemes that           his residence, and a $4,000 fine. Hinchman was
he and three co-conspirators conducted in Texas             convicted on April 22, 1991, of 1 count of accept-
and Louisiana. The schemes netted approximately             ing illegal gratuities and accepting cash totalling
$40,000. On July 19, 1991, Logsdon was sen-                 $1,200 from coal mine operators with whom he
tenced to 18 months' imprisonment, 3 years' pro-            had official dealings.
bation, and ordered to make approximately $16,000
restitution. U.S.v. Logsdon (W.D. Washington)               A Federal employee for over 16 years, Hinchman
                                                            was assigned at Logan, West Virginia. He was
                         •"-                                immediately suspended by MSHA at the time he
                                                            was charged and subsequently terminated from
As part of the continuation of "Project SESA                Federal service. U.S.v. Hinchman (S.D. West
(State Employment        Security Agency) Assist"           Virginia)
mentioned in our Fiscal Year 1990 semiannual
reports, the OIG provided prosecutive support to                                     "-
the U.S. Attorney for the District of Columbia in
the resolution of several UI cases. Additionally, as        Administrative action to remove Joseph W. Rufolo,
a result of OIG efforts during this reporting pe-           the former deputy regional administrator of the
riod, five individuals were charged with theft of UI        Occupational Safety and Health Administration
funds. To date, three have been sentenced and               (OSHA) in New York City, was resolved. Accord-
ordered to pay in excess of $16,000 in fines and            ing to OSHA, in order to resolve Rufolo's appeal
restitution,                                                of his May 1991 removal, as well as complaints he
                                                            had filed alleging discrimination, Mr. Rufolo was
                                                            allowed to resign in lieu of removal, effective July
Employee Integrity                                          1991. The agency agreed to pay $35,000 of the
                                                            claimed attorney fees as well as back pay. As a
Former Mine Safety and Health Administration                result of OIG's investigation, Rufolo had been
(MSHA i coal mine inspector, James B. "Jack"                found guilty by a jury on April 16, 1990, and
Massey, pied guilty on September 3, 1991, to one            sentenced for making false statements in connec-
count of bribery. Massey admitted to accepting              tion with his travel vouchers. U.S.v. Rufolo (S.D.
$1,000 in cash from a coal mine operator in Rita,           New York)
West Virginia, in return for favorable findings
during his official inspections. The OIG investiga ....
tion also disclosed that Massey attempted to ar-
range an ongoing bribery relationship with the              Two employees of the Office of Assistant Secre-
operator, in which Massey would continue to re-             tary for Administration and Management in Dal-
ceive either monthly or quarterly bribes to insure          las, Texas, Gregory Davis and Aubrey Lindsey,
favorable inspection findings,                              were arrested on May 9, 1991, by Federal Protec-



                                                       52
tive Service criminal investigators accompanied              Enforcement Training Center; or they have previ-
by OIG agents. They were charged, under the                  ously received criminal investigator training with
State of Texas Health and Safety Code, with con-             other Federal law enforcement agencies such as
spiracy and multiple counts of selling crack co-             the FBI or PIS. The extensive training they re-
caine and marijuana. The defendants are awaiting             ceive includes the full range of law enforcement
trial. State of Texas v. Davis and Lindsey (Texas)           subjects: firearms training, searches and seizures,
                                                             a review of the Federal Rules of Criminal Proce-
                                                             dure, and instructions in investigative and arrest
Law Enforcement    Authority          Needed     for         techniques.   Additional modules of specialized
OIG_s Special Agents                                         law enforcement training are also provided to OI
                                                             special agents on an agent-by-agent basis.
In prior Semiannual Reports and in testimony
before the Congress, the OIG has expressed its               The locations where OI investigations take place
concern about the need for full law enforcement              are no different than those where other Federal
authority for the OIG's investigators,                       law enforcement agencies must visit and conduct
                                                             their work. These locations are frequently dan-
The OIG's Office of Investigations (OI) employs              gerous urban, high-crime areas, known for activi-
approximately 70 special agents who are assigned             ties such as illicit drug trafficking and related kill-
to 7 regional offices and 11 smaller field offices,          ings, assaults with dangerous weapons, prostitu-
These agents conduct a full range of felony inves-           tion, and fencing of ill-gotten property. OI inves-
tigations, including investigations of alleged con-          tigations also take place in the sparsely-populated
spiracy, fraud, embezzlement, bribery, extortion,            rural areas of the nation where an agent may find
and corruption. Some witnesses and subjects of               himself or herself not only alone and unarmed, but
these investigations are individuals who have been           potentially confi'onted by hostile subjects and their
convicted or are suspected of committing violent             associates and unable to rely upon the immediate
crimes such as murder, armed robbery, assault                response by a local law enforcement            agency.
with a dangerous weapon, and drug-related of-                Furthermore, while it is legal for residents to carry
fenses; while others have been subjects of out-              handguns in some States, the OI agents are pro-
standing arrest warrants,                                    hibited from doing so.

The OI's special agents are classified as criminal           Like other law enforcement agencies, OI special
investigators under Occupational Series 1811, the            agents utilize the full range of investigative tech-
same OPM position classification that designates             niques, such as undercover operations; approved
all statutory law enforcement positions, including           electronic recording and monitoring; surveillances;
agents of the Federal Bureau of Investigation                records analyses; and interviews which are some-
(FBI), the DrugEnforcementAdministration,        the         times confrontational,     hostile, and dangerous.
U.S. Secret Service, and the Postal Inspection               Frequently, these investigations result in special
Service (PIS). Unlike the agents of these agen-              agents requesting search warrants and serving OIG
cies, however, the OI's special agents lack full law         or grand jury subpoenas in the same dangerous
enforcement authority. Specifically, the OI's special        environments.
agents are not authorized to carry weapons, exe-
cute search warrants, or make arrests. This not              Currently, the OI has two ways to minimize the
only adversely affects the efficiencyofthe OI's op-          risks to its agents and cooperating witnesses;
erations, but it subjects these agents to unreason-          however, neither method is satisfactory. The OI
able personal risks,                                         can apply to the Department of Justice (DO J) for
                                                             deputation of agents as special deputy U.S. Mar-
Notwithstanding the differences in authority, the            shals on a case-by-case basis when certain ever-
OI's special agents either receive the same law              changingguidelines set by the DOJ are met, or the
enforcement training as that given to other Fed-             OI can request the assistance of an agency with
eral law enforcement agencies at the Federal Law             full law enforcement authority (the authority to


                                                        53
carry firearms, make arrests, and execute search              There are two alternatives to the inefficiencies
warrants),                                                    that surround the case-by-case deputation proc-
                                                              ess. Clearly, the most efficient and effective solu-
When the OI develops specific facts to justify the            tion is for the Congress to grant full law enforce-
need for firearms and arrest and/orsearch warrant             ment authority to OIG criminal investigators.
authority, an application for case specific deputa-           Another solution is for the DOJ to issue blanket
tions may be made to the DOJ. In conducting the               deputation for all agents assigned to a particular
initial investigation to develop the data necessary           Inspector General's office. These deputations are
to meet the DOJ guidelines, unarmed agents of                 renewable annually, but they cover agents for all
the OI and others may be placed at risk. For                  oftheirinvestigations.    TheOIG'sOfficeofLabor
approval of deputations, the DOJ guidelines re-               Racketeering      is covered by an annual blanket
quire that the anticipated investigative procedures           DOJ deputation which is reviewed and renewed
for which deputation is requested are (1) hazard-             yearly. While this process is certainly more effi-
ous to the life or physical safety of a criminal              cient than the case-by-case deputation process,
investigator or a cooperating witness; (2) neces-             inefficiencies in this renewal process result in a
sary for the successful completion of the Federal             less than ideal solution.
investigation; and (3) not capable of performance
by another law enforcement agency with firearms               Although experts may not agree on the causes of
and arrest powers. Further, the request must                  crime, the statistics clearly indicate that the crime
contain a letter of endorsement from the appro-               problem is growing and that the growing incidence
priate prosecutor that responds to several areas of           of violent crime is especially troubling. According
the DOJ's concerns,                                           to the 1990 edition of Crime in the United States,
                                                              published by the FBI on August 11, 1991, "From
Although the DOJ has promised to streamline the               1989 to 1990, overall violent crime showed an 11
deputation request/approval       process, we have            percent    increase."       Further,   another    FBI
recently seen an increase in the bureaucratic hurdles         publication, Law Enforcement Officers Killed and
each request must clear prior to approval. We                 Assaulted, indicates that assaults of Federal offi-
have been informally advised that requests must               cers were 50 percent higher in 1990 compared to
contain an affirmative statement that we have                 1989. Given these facts, it is difficult to under-
coordinated our request with any other agency                 stand why anyone, especially someone with law
that has concurrent jurisdiction,                             enforcement responsibilities, would object to giv-
                                                              ing an additional class of trained, Federal law en-
Reliance on other agencies with full law enforce-             forcement officers the tools they need to perform
ment authority to assist in OI cases is not a suitable        their duties safely and efficiently.
alternative for reasons which vary from case to
case. For example, these situations require an                Until a solution to this problem is reached, each
additional agent who may be doing little more                 day unarmed OI agents will identify themselves as
than protecting an unarmed OI agent during an                 law enforcement officers and expose themselves
arrest, search, or confrontational interview. Such            and cooperating witnesses to risks in areas where
a use of law enforcement resources is inefficient,            traditional law enforcement    agencies would be
Of greater concern, however, is the fact that the             unwilling to conduct even routine interviews
armed agents face additional risks during these               unarmed. The OIG is hopeful that it will not take
occasions because they are accompanied by agents              the death or serious injury of an OI agent or
whose response is limited in a life-threatening               witness to convince the Department,      the Con-
situation. Further, the schedules of agents from              gress, and the DOJ of the need to empower OI
two or more agencies must be coordinated. This                agents to protect themselves and witnesses.
can cause delays in executing arrest and search
warrants which can result in the fleeing of subjects          Legislation addressing some of these concerns is
and/or the hiding/destruction    of evidence,                 discussed in Chapter 4, page 68.



                                                         54
                            Complaint Analysis Office Activities
                               April 1 - September 30, 1991


Breakdown of Allegation Reports by Source:

            Walk-in ...................................................................................... 3
            IG Hotline .............................................................................. 16
            Letters from the Congress .................................................. 12
            Letters from individuals or organizations ........................ 85
            Letters from DOL agencies .................................................. 5
            Letters from Non-DOL agencies .......................................... 5
            Incident Reports from DOL agencies .............................. 12

            Total ......................................................................................   138



Breakdown of Allegation Reports by Referral:

            Referred to Office of Audit .................................................. 2
            Referred to Office of Labor Racketeering ........................ 1
            Referred to Office of Investigations Regional Offices .. 46
            Referred to DOL program management .......................... 52
            Referred to other agencies .................................................... 6
            Pending action at end of period ......................................... 31

            Total ......................................................................................   138




                                                             55
                                               Office of Investigations

                                                                   Appendix

                          Office of Investigations'                      Financial           Accomplishments



Category           Definition                                                                                                      Amount

Recoveries: Expenditures to be recovered an/or re-programmed.
This includes the dollar amount of management's commitment to
seek recoveries and adjustments. This is a quantification of an
agency's action in response to the Inspector General's recommen-
dation to recover funds and/or make adjustments ........................................ $1,768,798

Cost Efficiencies: The one-time and/or per annum dollar amount/
value or management's commitment to more efficiently utilize the
Government's resources. This category is a quantification of man-
agement's action in response to the Inspector General's recom-
mendation to prevent improper obligations or expenditures of
agency funds or to improve agency systems and operations, thereby
avoiding further unnecessary expenditures ........................................................ $498,319

Restitutions:  The dollar amount/value of restitution ordered.
This category reflects restitutions ordered as a result of Inspector
General investigative activities ..............................................................................                   $807,434

Fines/Penalties:  The dollar amount/value of fines and penalties
assessed. This category reflects fines and penalties assessed as a
result of criminal and civil action instituted as a result of the
Inspector General's investigation ........................................................................... $121,760

Settlements: The dollar amount/value of settlements and judge-
ments rendered as a result of criminal and civil actions .................................... $120,620

Total ........................................................................................................................   $3,316,931




These definitions are taken from Investigative Case Tracking Systems, Agents'
Instruction Manual (October 1985).

                                                                          56
                                        Chapter 3


                        Office of Labor Racketeering

Working with the United States Attorney for the District of New Jersey and the Federal
Bureau of Investigation, the OIG's Office of Labor Racketeering has made significant
progress in returning control of a racketeer-dominated   local to its members. Utilizing
civil provisions of the Racketeer Influenced and Corrupt Organizations statute, the
Federal Government has removed associates of La Cosa Nostra from positions of
power in Local 54 of the Hotel Employees and Restaurant Employees International
Union, a 17,000 member Atlantic City, New Jersey local.

A court-appointed monitor has been overseeing the day-to-day operations of the local
since April 1991. Details of the case are discussed in the case summary which follows.

The results attained in this case show clearly that civil RICO can be an effective adjunct
to criminal prosecution. By treating a corrupt union as a racketeering enterprise rather
than simply bringing a series of individual criminal prosecutions, the grip of racketeers
can be broken and democratic control reestablished.

Through this reporting period, the OIG has also continued to pursue cases involving
fraudulent Multiple Employer Welfare Arrangements          (MEWAs).      One long-term
investigation came to fruition during this reporting period with a guilty plea from one
of the principals in the notorious Rubell-Helm Inst_rance Services Inc. operation,
detailed below.

These vicious fraud schemes, discussed in previous semiannual reports, have been the
subject of considerable attention during the past 6 months. The OIG has played a key
role in focusing needed attention on this under-regulated segment of the benefit plan/
insurance industry. As resources permit, the OIG will continue to conduct criminal
investigations of MEWAs and related entities in those instances where fraud is
egregious.

Also during this reporting period the OIG moved to establish a new Labor Racketeer-
ing Field Office in Houston, Texas. This office, which will cover the Gulf Coast area as
well as New Mexico and Oklahoma, will provide an OLR presence in one of the nation's
most rapidly growing areas. Staffing of the new office is underway and it will be fully
operational by November 1, 1991.

During Fiscal Year 1991, this office had 141 convictions as a result of its investigative
efforts. This is more than in any other year of its 13-year history. Examples of significant
cases for this reporting period follow.
                                             57
Employee       Benefit Plans                                 States Attorneys' Offices, the OIG, the U.S. Postal
                                                             Inspection Service, the Criminal Investigation
                                                             Division of the Internal Revenue Service and the
Former California Health        Insurance                    California Department of Insurance.       The De-
Executive Pleads  Guilty        in $10.4    Million          partment of Labor's Pension Welfare Benefits
Insurance Fraud Seam                                         Administration also assisted in this investigation.
                                                             U.S. v. Michael A. Rubell (C.D. California).
Michael A. Rubell, former chairman of Rubell-
Helm Insurance Services (RHIS), Irvine, Califor-
nia, pled guilty in August 1991 to a criminal
information charging mail fraud, embezzlement                Roofing Company     Owners and Associates
from employee benefit plans, and income tax                  Plead Guilty in 18-year, Multi-Million
evasion.    The OIG investigation centered on                Dollar Fraud
Rubell's extensive scheme to defraud employers
in California and Florida out of millions of dollars         Melvin Seligsohn, also known as "Mickey De-
in insurance premiums.      RHIS, now insolvent,             marco," his wife, Marlene Seligsohn, their two
failed to pay approximately $10.4 million in medi-           sons Mark and Gary Seligsohn, Donald Doyle, a
cal and life insurance claims for employee benefit           shop steward for the Roofers Union in Philadel-
plan participants in California and Florida.                 phia, and nine other defendants who worked for
                                                             the Seligsohns pled guilty in September 1991 to a
RHIS was hired by numerous employers in Cali-                variety of Federal charges, including employee
fornia, Florida, Texas, and Louisiana to purchase            benefit plans fraud. The charges include racket-
insurance coverage and process and pay claims,               eering, payments to influence the operation of an
Rubell induced employers in California and Flor-             employee benefit plan, falsifying records required
ida to enroll in health and life insurance benefit           under the Employee Retirement Income Security
plans through fraudulent assurances that RHIS                Act, Federal tax violations, obstruction of justice,
had secured insurance coverage with specified                and conspiracy. Twelve defendants are still await-
companies and that these plans were fully insured,           ing trial.
RHIS, however, did not secure insurance cover-
age for the various plans, leaving the plan partici-         The indictments charged the defendants with
pants liable for their own medical claims,                   various Federal crimes which occurred between
                                                              1972 arid 1990 related to the operation of the
In his guilty plea, Rubell admitted that from March          Mickey Demarco Family Roofing Company and
through July 1988 he embezzled more than $500,000            four associated roofing repair companies in Phila-
in insurance premiums.        He used part of the            delphia. The defendants were involved in a multi-
embezzled money to support a lavish lifestyle in-            million dollar conspiracy scheme which was used
cluding the purchase of a condominium at a ski               to defraud the Roofers Union employee benefit
resort, Caribbean cruises, diamonds, custom tai-             plans and the Internal Revenue Service. The
lored clothing, and the services of a maid and               defendants were also involved in fraudulent sales
personal physical fitness coach. Rubell also ad-             practices in which representatives     of Mickey
mitted that he and others made secret payments of            Demarco Family Roofing Company and other
$50,000 to an insurance company executive and                roofing companies owned by the Seligsohns cheated
$27,000 to a trust fund chairman as part of the              customers, especially elderly customers, out of
scheme. To avoid paying income taxes, the em-                millions of dollars.
bezzled premiums were laundered through RHIS
and shell companies. Rubell faces a maximum 30               Melvin and Marlene Seligsohn and several other
years' imprisonment and a fine of $1,500,000.                defendants also pled guilty to obstructing justice
                                                             by directing witnesses and other defendants to lie
This ongoing investigation is being conducted jointly        to Federal investigators and to destroy and alter
by the Los Angeles and Orlando, Florida United               :records subpoenaed by a Federal grand jury.


                                                        58
Donald Doyle, the shop steward for the Roofers              tee of the retirement plans of Distribution Ship-
Union in Philadelphia, pled guilty to receiving             ping Company, Kearny, New Jersey; Arrow Car-
$20,000 in pay-offs from the Seligsohns and some            rier Corporation,    North Bergen, New Jersey;
of the other defendants, in return for Doyle not            Holmes Transportation, Inc., Framington, Massa-
informing the union and benefit plans that the              chusetts, and its subsidiary Blue Line Express.
roofing companies were under-reporting and under-           During the period from December 1987 to Janu-
paying contributions to the union's benefit plans,          ary 1990, Matarazzo made disbursements to stock
Underpayment to the union funds was in excess of            brokerages or personal accounts he owned. These
$400,000.                                                   accounts were then liquidated and the proceeds
                                                            used to purchase a residence, fund business ven-
Melvin and Marlene Selig;sohn also agreed to forfeit        tures, and for personal expenses. These plans
assets seized by the government pursuant to a civil         provided benefits to more than 450 active and
complaint previously filed. The assets were valued          retired employees and had approximately $8 rail-
 at approximately $1,040,000 and included three             lion in assets over the period covered by the
real estate properties, two automobiles, and sev-           embezzlement. The trucking companies are now
eral bank accounts,                                         in bankruptcy. U.S.v. Anthony F. Matarazzo (D.
                                                            New Jersey).
Melvin Seligsohn faces a maximum sentence of
165 years' imprisonment and $7,750,000 in fines,
and his wife faces a maximum sentence of 105                Pleas From Three CAP Staffing,      Inc. Officers
years in prison and $4,750,000 in fines. The other
defendants face sentences ranging from 11 to 71             Robert W. Long, president and Victor Blackwell,
years and $750,000 to $4,000,000 in fines,                  vice-president of CAP Programs, Inc., a Char-
                                                            lotte, North Carolina automobile leasing com-
The investigation was conducted jointly by the              pany and D. Ron Harris, secretary of CAP Staff-
OIG, the Internal Revenue Service, and the U.S.             ing, Inc., a related Charlotte based employee leas-
Postal Inspection Service. U.S.v. Mickey De-                ingcompany, pled guilty in May to various charges
ma_coFamUyRoofingCompanyetal.      (E.D.Penn-               including mail fraud, interstate transportation of
sylvania),                                                  money obtained by fraud, embezzlement from an
                                                            employee benefit plan, money laundering, and
                                                            conspiracy. In the scheme, approximately $500,1300
New Jersey Trucking Company Owner                           in plan contributions was expended for purposes
Sentenced   for $7.5 Million Embezzlement                   other than the payment of medical claims and
from Pension Plans                                          defraying reasonable       administrative  expenses.
                                                            Blackwell also pled guilty to an information charg-
In June 1991, Anthony F. Matarazzo was sen-                 ing him with failing to report on his income tax
tenced in Newark to 37 months' incarceration,               return $69,000 he had diverted from CAP Pro-
threeyears'probation, andordered to paya $3,600             grams, Inc. for his own use.
fine. Matarazzo pled guilty in November 1990 to
embezzling approximately $7.5 million from four             Long, Blackwell, and Harris, along with defendant
employee pension and profit sharing plans of truck-         Jerry M. Wolicki, vice-president of CAP Programs,
ing companies for which he was chief operating              Inc., operated alaborleasingcompany,   CAP Staff-
officer. The plea agreement also permanently                ing, Inc. in North Carolina. They and defendants
barred Matarazzo from serving as a fiduciary to             Michael Spieles, president of Universal Staffing
any employee benefit plan covered by the Em-                Associates, a related employee leasing company
ployee Retirement Income Security Act.                      in Palm City, Florida, and defendant Michael A.
                                                            Krebser, an officer of Universal Staffing Associ-
The joint OIG and Pension and Welfare Benefits              ates, were charged in a December 1990 indict-
Administration investigation disclosed that Mata-           ment with defrauding more than 120 business and
razzo controlled and appointed himself sole trus-           their employees by causing them to believe they


                                                       59
were covered by health insurance and other per-              bribe-receiving by a labor official. Capaldo is
sonal benefits when only minimal coverage was                additionally barred from holding office in unions
provided,                                                    or employee benefit plans for 13 years.

The defendants also defrauded over 200 individ-              Also sentenced was Paul Kamen, former secre-
ual investors in CAP Programs, Inc., through sev-            tary-treasurer of the International Brotherhood
eral related swindles that can be characterized as           of Painters and Allied Trades District Council 9 in
Ponzi schemes.     Investors were promised high              New York City, to a term of imprisonment of 2 to
rates of return on their investments, when in fact           6 years for enterprise corruption.
the only funds coming in consisted of new inves-
tors' money and not Cap Programs, Inc. profits.              These two sentencings culminate a lengthy inves-
                                                             tigation in which 11 of the 12 defendants pled
Investors' monies were to be used for the pur-               guilty and were sentenced.    The twelfth defen-
chase of vehicles and equipment for leasing,                 dant, Anthony "Gaspipe" Casso, reputed under-
However, the funds were used to pay ongoing                  boss of the Lucchese organized crime family, has
expenses, including interest owed to other inves-            remained a fugitive.
tors and a lavish lifestyle for the defendants. To
cover the monetary shortfall and give the appear-            The defendants in this case policed the "enter-
ance of a successful business, the defendants con-           prise", District Council 9, through violence and
cocted a variety of bogus schemes to increase                threats of violence by identifying it with the Luc-
income. These schemes included Individual Re-                chese organized crime family. As a result, the
tirement Account plans, tax exempt municipal                 corrupt union officials and the organized crime
leasing plans, and reinvestment of investors' monthly        members, who have been entrenched in the union
returns,                                                     for over a decade, were able to control elections,
                                                             assign favored shop stewards, and exact a "tax" on
Long, Harris, and Blackwell agreed to the forfei-            major painting projects in New York City.
ture of all the property seized by the Government
at the time of indictment. The remaining defen-              This case is the result of a joint investigation
dants are awaiting trial,                                    conducted by the OIG, District Attorney's Office
                                                             of New York County, and the Organized Crime
This investigation was conducted jointly by the              Investigation Division of the New York Police
OIG, the Postal Inspection Service, the Internal             Department.   State of New York v. Capaldo et al.
Revenue Service, and the Federal Bureau of In-               (SupremeCourtoftheStateofNewYork,         County
vestigation, with assistance from the North Caro-            of New York)
lina and Florida Insurance Departments.     U.S.v.
Long et al. (W.D. North Carolina).                           Three New Jersey Union Officials           are
                                                             Sentenced for Accepting Illegal            Payments
Labor-Management             Relations                       From Employer

Two Former Painters Officials Sentenced           in         Sol Solomon, business manager of Local 235, Inter-
New York State Supreme Court                                 national Brotherhood of Painters and Allied Trades,
                                                             Paterson, New Jersey, Frank X. Brescia, business
Edward Capaldo, former president and business                manager of Local 1095 of the Union in Bloom-
manager of the International      Brotherhood of             field, New Jersey, and John Ripoli, business repre-
Painters and Allied Trades Local 1486 in Long                sentative of Local 1095, were each sentenced to 3
Island, New Yorkwas sentenced under New York                 years' probation and fined $5,000 as a result of
State Law to a term of imprisonment of 2 1/4 to 6            their guilty pleas in Federal District Court in Newark.
3/4 years. The sentence stems from Capaldo's                 Each defendant was charged with accepting illegal
guilty pleatocharges of enterprisecorruption and             payments from an employer and failure to file


                                                        6O
reports required under the Labor-Management                Harvey also holds the positions of ILA interna-
Reporting and Disclosure Act. Solomon and Brescia          tional vice-president and assistant secretary-treas-
were charged with accepting cash gratuities of             urer of the ILA South Atlantic and Gulf Coast
more than $3,000 each, and with John Ripoli                District. He was a member of the Tampa City
accepting cash gratuities of at least $1,500 from          Council until being removed upon his indictment
their employer, Regional Glass Company. U.S.v.             by the Governor of Florida.
Sol Solomon and U.S.v. Frank Brescia et al. (Dis-
trict of New Jersey).                                      This ongoing investigation is being conducted jointly
                                                           by the OIG and the Florida Department of Law
Internal    Union Affairs                                  Enforcement.    U.S. v. Perry C. Harvey, Jr. et aL
                                                           (M.D. Florida).

International    Longshoremen's    Association
Local 1402 President and Two Trustees                      Atlantic City Case Brings     Removal    of Casino
Indicted    for Embezzling  $225,000 of Local              Union Leaders
Union Assets
                                                           Edward T. Hanley, president of the Hotel Em-
Perry C. Harvey, Jr., president, and trustees Alex-        ployees and Restaurant Employees International
ander Cottman and Lee S. Jefferson were indicted           Union (HEREIU), and 15 other persons includ-
by a Federal grand jury in Tampa, Florida for              ing alleged associates of the Bruno/Scarfo Family
conspiracy and embezzlement of funds totaling              of La Cosa Nostra have filed consent decrees or
approximately $225,000 from the International              had default judgments entered against them in a
Longshoremen's Association (ILA)Local 1402in               case involving HEREIU's       Local 54 in Atlantic
Tampa.                                                     City, New Jersey. Involved with Hanley are eight
                                                           current and former officers of Local 54, and seven
The indictment alleged that Harvey, Cottman,               persons alleged to be associated with the Bruno-
and Jefferson conspired to embezzle and embezzled          Scarfo Family. The settlement results from a civil
$224,594.98 of local union assets by disbursing            racketeering suit filed last December by the United
holiday and vacation pay to Cottman and Jeffer-            States Attorney for the District of New Jersey in
son. Both Cottman and Jefferson are full-time              Newark.
salaried employees of the South Atlantic and Gulf
Coast Guaranteed Annual Income Fund, a Local               The suit alleged that for more than 20 years, in
1402-related entity that provides benefits to out-         Local 54 and its predecessors, union officers and
of-work longshoremen. The defendants were not              employees have been chosen subject to the ap-
entitled to the payments they received because             pro_,al of and have been controlled by the "boss"
they were not employees of Local 1402.                     of the Bruno/Scarfo Family of La Cosa Nostra,
                                                           and that Local 54 has been run at the direction of
The indictment further charged Harvey with                 and for the benefit of the Bruno/Scarfo Family,
embezzling funds in the form of holiday and vaca-          rather than for the local's rank and file member-
tion pay for Harold Watson, a full-time salaried           ship.
administrator of the Tampa Maritime Association
- International Longshoremen's Association Health;         The settlement agreement     includes the following:
Welfare and Vacation Fund. Watson is a member
of Local 1402 but is not an officer or employee of              (1) Court appointment of a monitor to pro-
the union. Additionally, Harvey was charged with           tect the rights of Local 54 members and the assets
embezzling local union funds for his own use in the        of the Local and its benefit plans. The monitor will
form of unauthorized salary and insurance premi-           have the power to investigate, audit, and review all
ums.                                                       aspects of Local 54 and its affiliate benefit plans.




                                                      61
     (2) The monitor or a designee will sit on the             A total of 11 other individuals signed consent
Board of Trustees of the HEREIU International                  judgments or had default judgments filed against
Union Welfare and Pension Funds with full rights               them which permanently enjoined them from di-
of a trustee and specific rights to petition the court         rectly or indirectly participating in the affairs of
to protect rights of Local 54 members.                         Local 54 and its affiliated benefit plans.

     (3) Local 54 officer elections that were sched-           The civil RICO complaint resulted from a joint
uled for June 1991 have been postponed.          The           investigation by the OIG and the Federal Bureau
monitor, with approval of the court, will conduct              of Investigation.   U.S.v. Hanley et al. (D. New
secret ballot elections as soon as an open demo-               Jersey).
cratic climate is restored in Local 54.

                                                               Sentencing in Indiana      Steelworkers
    (4) Hanley will not directly or indirectly take            Local 1014 Case
any action involving Local 54 and/or its affiliated

welfare and pension plans (including severance                 Harry Piasecki, former president of United Steel-
fund) except with the knowledge and prior con-
sent of the monitor. Hanley agreed to affirma-                 workers of America (USWA) Local 1014 was
tively assist the monitor and said he will not im-             sentenced in Hammond, Indiana in July 1991 to
pede the work of the monitor,                                  serve 7 years in prison for violating the Racketeer
                                                               Influenced and Corrupt Organizations (RICO)
                                                               statute. Piasecki also received 5- and 1-year
Other former or current officers of Local 54 have
                                                               sentences, to run concurrently, for the embezzle-
been     permanently   enjoined,   or enjoined   for a         ment and false records convictions. Piasecki was
designated time period, from holding union office              given 4 years' probation to run consecutively with
or endeavoring to influence the affairs of Local               the 7 year prison term and ordered to make resti-
54:                                                            tution of approximately $10,500 to the local union
                                                               and District Council No. 31.
       (1) Francis Gerace, former president of Local
54 and an administrative aid to Edward Hanley is               Also sentenced was Phillip Cyprian, former presi-
permanently enjoined. However, the settlement                  dent of Local 1014, to 3 years' imprisonment on
agreement does not prevent Gerace from being                   charges of embezzlement of union funds, false
employed by HEREIU, upon condition of future                    union records, illegal gambling, conspiracy and
good behavior, until he becomes eligible to re-                filing false tax returns. Cyprian is scheduled for
ceive his pension or for a period of 3-1/2 years               trial in October 1991 on related RICO charges.
from May 1, 1991. However, Gerace cannot exer-                 Leroy Williams, a former Local 1014 officer, was
cise any fiduciary responsibility during this period,          sentenced on charges of conspiracy, illegal gam-
                                                               bling, and making false union records to 1 year's
     (2) Roy Silbert, current president of Local 54,           fmprisonment with 10 months' suspended. Louis
and Felix Bocchiccio, current vice-president, en-              Del Grosso, a Miami, Florida, amusement opera-
joined for 10 years each.                                      tor, was sentenced to 1 year's imprisonment, of
                                                               which 6 months were suspended, and placed on
    (3) Thelma Hilferty, current secretary-treas-              probation for 1year for illegal gambling and con-
urer of Local 54 and Daniel Daidone, member of                 spiracy. Monsignor John F. Morales, pastor of
the Executive Board of Local 54, enjoined for a                Nativity Parish, Portage, Indiana, was sentenced
period of 7 years,                                             to 10 months' imprisonment on charges of con-
                                                               spiracy, perjury, illegal gambling, and filing false
Restoration of rights for the individuals        listed        tax returns. Trial is also pending for Semyour
aboveissubjecttospecificprovisionsofthesettle-                 Klein, a partner of Del Grosso, on charges of
ment agreement,                                                illegal gambling activity.




                                                          62
Piasecki was convicted in May for the establish-           Cyprian, Williams, Del Grosso, and Morales were
ment and design of an embezzlement scheme in               convicted in February of operating in the Local
1970 when he was first elected Local 1014 presi-           1014 union hall an illegal gambling operation dis-
dent. Piasecki began a Local 1014 newspaper,               guised as a charitable, tax-exempt church fund
with all printing work steered to one contractor,          raiser. Cyprian also was convicted in an embezzle-
Delaney Printing Company.       The arrangement            ment scheme in which he demanded a 10 percent
required Delaney to inflate printing invoices to           kickback from vendors who did business with the
the union by 10 percent, which would then be               union. Cyprian and Williams were convicted of
kicked back to the defendant,                              creating false union records to conceal the kick-
                                                           backs and other embezzlements.
The scheme escalated to numerous other printing
jobs, all including the 10 percent kickback to Pi-         Piasecki was the eleventh defendant to be found
asecki. The kickbacks continued through 1985,              guilty as a result of the joint investigation by OIG
and included the terms of office of five successive        and the Internal Revenue Service. U.S.v. Philip
presidents of Local 1014. The kickback arrange-            Cyprian et al. (N.D. Indiana).
ment was later instituted by Piasecki at District
Council No. 31 when Piasecki became a district
official.




                                                      63
                                               Chapter        4


Office of Resource Management                                and Legislative Assessment

The Office of Resource Management and Legislative Assessment fulfills several re-
sponsibilities mandated by the Inspector General Act of 1978, including legislative and
regulatory review, reporting to the Congress, and performing general management and
support activities to achieve the mission of the OIG.

Section 4(a) of the Inspector General Act of 1978 requires the Inspector General to
review existing or proposed legislation and regulations and to make recommendations
in the Semiannual Report concerning the impact on the economy and efficiency of the
administration of the Department's programs and on the prevention of fraud and
abuse.

The following represent several of the most important legislative items of OIG concern.
We urge swift consideration of these items by the Department and the Congress.



Legislation Affecting the Operation                             (3) The bill requires that the Secretary pre-
                                                           scribe regulations establishing uniform cost prin-
of Department       Programs                               ciples for the JTPA system.


JTPA Amendments           and H.R.    3033                    (4) H.R. 3033 seeks to correct deficiencies in
                                                           SDA procurement practices by requiring that the
The OIG generally supports H.R. 3033, "Job                 Secretary prescribe regulations establishing uni-
Training Reform Amendments," which corrects                form procurement standards to ensure fiscal ac-
some of the deficiencies in the JTPAsystemwhich            countability and prevent fraud and abuse, includ-
the OIG has reported to the Congress over the              ing provisions to preclude excess profit and excess
past 4 years. Some of the provisions of H.R. 3033          program income.
which will alleviate longstanding problems are
listed below.                                              However, the OIG is concerned that, although the
                                                           bill require s quarterly financial reports, it does not
    (1) The bill targets services to the "hard-to-         require that these reports show all program costs
serve,"/.e., those who face barriers to employment         by cost category and by year of appropriation; nor
                                                           does it require that program income, profits eamed,
over and above poverty,                                    and costs otherwise allowable except for funding
    (2) H.R. 3033 would effectively eliminate the          limitations
                                                           The OIG isbealso
                                                                         separately identified
                                                                                        that thein bill
                                                                                                   the includes
                                                                                                        reports.
                                                                            Concerned
"single unit charge" to the training cost category
for all but very limited circumstances involving           assessment and counseling services in the "direct
                                                           training" cost category. These services are inher-
tuition charges and off-the-shelf    training pack-        ently supportive in nature and do not directly
ages.




                                                      65
result in the acquisition of skills and knowledge            weakness within the Department of Labor. The
leading to employment. Likewise, case manage-                Secretary's goal for reintroduction of legislative
ment services are not direct training.       If these        proposals to correct ERISA weaknesses was March
services are classified as direct training, the true         31, 1991.
investment in direct training will be substantially
less than the bill's minimum requirement of 50               Our deepening concern is based on our findings
percent of allocated funds,                                  detailed in a November 1989 report on our audit
                                                             of a statistically valid nation-wide sample of pen-
                                                             sion plan audits. We found that 46 percent of plan
ERISA Enforcement          Enhancement                       audits were performed using the "limited scope"
                                                             exemption. This exemption allows up to 43 per-
The OIG is concerned that while the Department               cent o1:approximately $774 billion in private pen-
is considering various initiatives in its efforts to         sion plan assets to avoid audit examination each
enhance ERISA enforcement, in accordance with                year. Moreover, when this exemption is used, the
the March 14, 1991, joint OIG-PWBA recom-                    auditor is generally unable to express any opinion
mendations memorandum to the Department's                    on the accuracy of the plan's financial statements.
Policy Review Board, no definitive action has                These "no opinion" audits are not worth the cost.
been taken.
                                                             Based on the same work we also found that 23
Irathat memorandum, the OIG agreed to support                percent did not meet one or more of the generally
legislative proposals that would require direct              accepted auditing standards and 65 percent did
reporting of certain criminal violations, identified         not meet ERISA or DOL reporting and disclo-
through plan audits, to the Department within 7              sure requirements.   The American Institute of
days of its discovery. In the meantime, the OIG              Certified Public Accountants (AICPA) Ethics
agreed to hold in abeyance its support for other             Division investigated a sample of these audits
legislative proposals which would mandate the use            referred by DOL. It also found a variety of prob-
of the industry audit guide for employee benefit             lems and took varying disciplinary actions against
plan audits and which would require the establish-           the auditors who conducted the problem audits.
ment of parties separate from plan management
to oversee plan audits on behalf of plan partici-            To remedy these conditions we called for the
pants. In essence, we agreed to temporarily hold             amendment of ERISA to eliminate the "limited
back some of our major recommendations if the                scope" exemption, require participation in "peer
Department showed a good-faith effort to actu-               reviews" every three years by independent public
ally improve ERISA enforcement,                              accountants engaged in pension plan audits, re-
                                                             quire direct reporting of significant illegal acts by
However, this effort has not been forthcoming,               plan auditors and direct reporting of the termina-
Not only did the Department and Administration               tion of a plan auditor to the Department, and
wait until the closing days of the 101st Congress to         require that parties separate from plan manage-
submit legislative proposals, which died with that           ment oversee plan audits. No legislative proposals
Congress, but they have not forwarded to the new             have been placed before the present Congress to
Congress any of the legislative proposals the OIG            address these critical needs.
conditionally agreed to support. It is now almost 2
years since we recommended significant changes               With reference to the reporting of significant ille-
to ERISAto improve the protection of American                gal acts directly to the department, we wish to
workers' pension assets,                                     point out that the accounting profession's own
                                                             standards as expressed in the A/CPA's Statements
Almost 1 year ago, in the Federal Managers' Fi-              on Auditing Standards (SASs) numbers 53 and 54
nancial Integrity Act (FMFIA) Report to the                  require that audit work be planned to include
President, the Secretary identified the ERISA                testing for errors, irregularities and illegal acts.
audit process as a major management control                  The AICPA does not distinguish criminal acts


                                                        66
from other illegal acts nor does it in any way limit          While we believe that Federal MEWA registra-
professional auditors from identifying and report-            tion is not a panacea, it may have some real value
ing any material errors, irregularities or illegal            in the overall effort to clarify the ERISA preemp-
acts.                                                         tion question.

At this point, we believe that Congress should be
guided by the profession's own published stan-                Support for the Department of Justice's
dards when amending ERISA to require direct                   Proposed "Labor-Management
reportingofmaterialillegal   acts. Byincorporating            Racketeering      Act of 1991"
the language in SAS numbers 53 and 54 into
ERISA amendments, the Congress would bring                    The OIGstronglysupports    such proposed legisla-
ERISA into conformance with current profes-                   tion as DOJ's"Labor-Management     Racketeering
sional practice and include criminal violations along         Act of 1991" which would amend the Hobbs Act
with other significant illegal acts. By incorporat-           and implement recommendations of the Presi-
ing current professional standards, we believe                dent's Commission on Organized Crime.
Congress could avoid potential objections from
the auditing community over divergent reporting               The proposed bill would nullify the effect of the
standards.                                                    Supreme Court's decision in U.S.v. Enmons by
                                                              making clear that the Hobbs Act can be used to
We urgently recommend that the Department                     punish the actual or threatened use of force or
forward to OMB, and that the Administration                   violence to obtain property as part of a labor-
forward to the 102nd Congress, the needed amend-              management dispute.
ments to ERISA as outlined above. We further
recommend prompt passageofthese         amendments            The proposed bill would also implement some
by the 102nd Congress.                                        important elements of the 1986 report of the
                                                              President's Commission on Organized Crime. In
Legislation    Needed to Address the                          order to deprive organized crime of its economic
Fra_udulent    MEWA       Problem                             resources, the bill would:

Based on its extensive investigative experience in                 (1) amend the Labor Management Relations
the MEWA area, the OIG continues to believe                   Act to prohibit the purchase of a union or a union
strongly that legislation is needed that would address        office or the sale of the right to obtain union work;
the problem of fraudulent MEW.As. At a mini-
mum, we recommend that legislation:                              (2) amend Section 501 of the Labor-Manage-
                                                              ment Reporting and Disclosure Act (LMRDA) to
     (1) Address the MEWA "ERISA Preemp-                      give the Secretary authority, on behalf of union
tion" Problem. The OIG believes that the key                  members, to enforce 29 U.S.C. 501(a) (prohibited
objective of any MEWA legislation should be to                union officer actions) without a specific complaint
clarify whether or not a MEWA is covered by                   and to be able, if needed, to remove fiduciaries
State law or could claim ERISA preemption. Since              who have breached their fiduciary responsibili-
fraudulent MEWA operators often use the "ERISA                ties;
preemption" tactic to delay effective enforcement
action by States, we believe that any MEWA bill                    (3) amend Section 209 of the LMRDA to
should address this problem directly,                         make delinquent and false reporting of union
                                                              activities a felony;
    (2) Insist on FederalRegistration. Aproposal
by the Department, which was approved by OMB                      (4) conform the lists in the LMRDA and the
and introduced at the very end of the last Con-               Employee    Retirement     Income Security Act
gress, would have mandated Federal registration.              (ERISA) which prohibit persons convicted of


                                                         67
specific crimes from acting in certain capacities            OLR conducts its undercover operations under
with a labor union or an employee benefit plan;              strict guidelines similar to those employed by the
and                                                          Federal Bureau of Investigation. The proposed
                                                             legislation would require the Inspector General to
    (5) unequivocally reassert that the foregoing            report the undercover activities of OLR annually
inability to serve in certain capacities with a labor        to the Congress.
union or employee benefit plan, as provided un-

der  LMRDA
pending   appeal and  ERISA,
                  of the        shall not
                         disqualifying    be stayed
                                       conviction or         President's      Council    on Integrity      and
otherwise set aside except as provided under these           Efficiency
two acts.
                                                             The President's Council on Integrity and Effi-
                                                             ciency (PCIE) was established in 1981 to coordi-
Legislation Affecting OIG Operations                         nate and implement Government-wide      activities
                                                             to fight fraud, waste, and mismanagement in Fed-
                                                             eral programs and operations.
Law Enforcement       Authority    and H.R. 1361
                                                             Within the PCIE, there are seven standing com-
The OIG supports legislation such as H.R. 1361,              mittees. IG Julian W. De La Rosa is a member of
"The Office of Inspector General Law Enforce-                five of the committees and chairs the Internal
ment Act of 1991," which would provide law en-               Operations Committee.     This committee is re-
forcement authority for special agents in its Office         sponsible for developing and maintaining a multi-
of Labor Racketeering (OLR) and Office of In-                media public information program for the PCIE
vestigations (OI). This authority would permit               and for promoting improved administrative prac-
special agents to perform all usual law enforce-             tices within the IG community through special
ment functions, including the ability to execute             projects.
search warrants, make arrests, and carry firearms.
                                                             The OIG continues to actively participate in the
Exemption      of Undercover      IG Operations              various activities and program of the PCIE. Sig-
from Certain Laws                                            nificant activities during this period included:

                                                                 (1) Federal Employee       Compensation     Act
The OIG strongly supports legislation to imple-              Audit Guide. The Department of Labor's Office
ment its proposal to exempt the Office of Labor              of Inspector General has developed and tested,
Racketeering (OLR) from general procurement                  within the Department, an audit program guide
and appropriations laws when it conducts special-            which examines how well a Federal agency man-
ized types of undercover operations. This legisla-           ages its Federal Employee Compensation Pro-
tion would grant to OLR exemptions similar to
                                                             gram, especially its efforts to bring employees
those received by the Federal Bureau of Investi-             back to work and its processing of claims. Through
gation and the Department of Treasury criminal               coordination with the PCIE, this audit guide will
investigators. The legislation does not expand the           be exported for use by all Government agencies in
existing investigative jurisdiction of OLR.                  the near future.

The exemption is needed because undercover                       (2) "The FutureFederal Workforce"Manage-
operations sometimes involve setting up a busi-              merit Forum. The OIG cohosted this manage-
ness, leasing office space, opening a checking               ment forum at which Representative    John Co-
account, etc., under a fictitious name. Such an              nyers, Jr., Chairman of the House Committee on
undercover operation must remain secret to en-               Government Operations, was the keynote speaker.
sure the success of the investigation and the safety         The forum examined the Chief Financial Officer
of the undercover OLR agent.                                 Act of 1990 (H.R. 5687).


                                                        68
          Chapter 5

Audit Schedules     and Tables




               69
'71
                       Summary of Audit Activity of DOL Programs
                              April 1 - September 30, 1991


                        Reports        Grant/Contract                         Questioned       Costs
Agency                   Issued       Amount Audited 1               Unsupported                       Other z

OSEC                             4     $        13,700,000             $      36,148             $ 8,254,398

VETS                             3               4,828,778                   340,251                           0

ETA                           206          64,330,178,736                  6,412,480               4,340,931

ESA                              5         12,644,362,808                              0                       0

MSHA                             2                   83,412                            0                       0

OASAM                          13          73,322,775,367                  4,831,155                    1,009

OIG                              5               2,008,100                    26,815                           0

OSHA                            4                1,884,422                             0                       0

BL$                             2                  172,436                             0                       0


Multi-Agency                   26           3,072,794,875                  2,668,418                           0

Other Agencies                  2                            0                         0                       0

Totals                        272     $153,392,788,934                $14,315,267               $12,596,338


_Grant/ContractAmount Audited are overstated because, in some cases, expenditures were audited at more than one
level as funds were passed down from Department to program agency to program office to grantee/contactor to
subrecipient.

2Other Questioned Costs include $8,254,398 in Funds Recommended for Better Use as reported in Audit Report
 02-91-233-01-001, "DOL's Workers' Compensation Program."




                                                      72
          Summary     of Audit Activity   of ETA Programs
                    April 1 - September    30, 1991


          Reports       Grant/Contract                 Questioned Costs
Program    Issued      Amount Audited         Unsupported               Other


ADMIN           1      $62,233,331,000           $           0     $            0

OFCMS           2            15,071,937              1,485,911                  0

OTAA            2             5,600,000                      0                  0

JTPA           23           164,199,617          2,856,779          4,012,601

CETA            3                25,401                 25,401                  0

DINAP          58            39,300,556               270,280                   0

DOWP            4            67,980,546                  2,898          34,019

DSFP           27            43,825,423               350,322               45

OJC            84         1,760,193,784              1,366,783         294,169

OSPPD           2               650,472                 54,106              97

Totals        206      $64,330,178,736          $6,412,480         $4,340,931




                                   73
               Summary          of Audits Performed Under the Single Audit Act
                                    April 1 - September 30_ 1991



                                                                  DOL
                 Entities          Reports         Grant/Contract                     Questioned        Costs
Agency           Audited            Issued        Amount Audited              Unsupported                    Other

VETS                        0                1      $          924,174          $             0            $            0

ETA                     50                96            275,897,010                 455,729                    34,064

MSHA                        0                1                  83,412                        0                         0

OSHA                        1              4                 1,884,422                        0                         0

BLS                         2              2                   172,436                        0                         0

Multi-Agency                6             26          3,072,794,875               2,668,418                          0

Other Agencies           2                 2                             0                    0                      0

Totals                  61              132         $3,351,756,329              $3,124,147                 $34,064




Note: DOL has cognizant responsibility for specific entities under the Single Audit Act. More than one audit report
may have been transmitted or issued for an entity during this time period. Reports are transmitted or issued based on
the type of funding and the agency/program responsible for resolution. During this period, DOL issued reports on
61 entities for which DOL was cognizant; in addition, DOL issued 71 reports which included direct DOL funds for
which DOL was not cognizant.




                                                        74
              Summary of Audits Performed Under the. Single Audit Act
                         Multi-Agency Program Reports
                          April 1 - September 30, 1991



                                Number of                          Questioned Costs
   Program                    Recommendations             Unsupported            Other

ETA:
 UIS                                        2             $     247,095                     $0
 USES                                       1                    22,680                      0
 SESA                                       5                   319,367                      0
 JTPA                                       8                 2,007,898                      0
 CETA                                       1                    22,187                      0
 DSFP                                       9                    39,562                      0

OSHA:
 OSHASG                                     3                     8,869                      0

BLS:
  BLSG                                     2                        760                      0

Totals                                    31              $2,668,418                        $0


Note: Multi-Agency Program Reports relate to Single Audit reports. The report may be on a statewide audit where
DOL has accepted "lead" cognizancy or it may be on a single entity under the direct responsibility of DOL. If multiple
DOL programs were audited, the multi-agency designation was used. Individual recommendations within the report
designate which agencyprogram is responsible for resolution. Thirty-one recommendations are contained within the
26 multi-agency reports issued this period.




                                                         75
76
77
78
79
                                 Unresolved       Audits Over 6 Months
                                      April 1 - September         30, 1991

                               Audit                                                  No of    Questioned
Agency       Program       Report Number         Name of Audit/Auditee                 Re(:          Costs

Under Litigation:

ETA          SESA          05-90-014-03-325      OHIO BUREAU OF EMPL SERVICES             7   $ 6,172,692
MULTI        ALLDOL        03-89-083-50-598      COMMONWEALTH OF PA                       1        78,270
MULTI        ALLDOL        03-91-012-50-598      COMMONWEALTH OF PA                      10         39,737

Awaiting Resolution:

VETS         VETSPM        09-91-503-02-210      SAN DIEGO R.E.T.C. l                     1         13,494
ETA          OTAA          05-91-054-03-330      SEL ELEM OF TAA ADMIN BY MESC 2 12               394,825
ETA          JTPA          02-90-229-03-340      PUERTO RICO II-A TRAINING 3              5    38,243,826
ETA          JTPA          06-91-011-03-340      LA RESEARCH & DEVELOPMENT 1    48                507,909
ETA          JTPA          06-91-013-03-340      NATIONAL ALLIANCE OF BUSINESS 4 7                       0
ETA          JTPA          18-91-009-03-340      OIC OF AMERICA s                         1         35,945
ETA          OJC           03-91-014-03-370      PITTSBURGH    JCC & RELATED 6            1         11,176
ESA          FECA          02-91-232-04-431"     FECA THIRD PARTY LIABILITY 7             7       955,797
OASAM        ADMIN         12-91-011-07-001      INTNL CNTRLS DO NOT REASNBLY 8           2                 0
OASAM        ADMIN         17-90-013-07-001      POSSIBLE VIOLATION      OF APPROPR 9     1                 0
OASAM        ADMIN         19-91-002-07-001      DOL MICROCOMPUTERS        l°             5                 0
OASAM        OPGM          18-91-020-07-735      JOHN GRAY INSTITUTE      - OSHA _l       9        74,370
OASAM        OPGM          18-91-022-07-735      JOHN GRAY INSTITUTE      - OSHA tl       2              0
MULTI        ALLDOL       05-91-060-50-598       MICHIGAN     EMPLOY SECURITY 12          1          2,004
OTHER        OTHER        03-91-011-98-599       COUNTY OF YORK, PA 1                     8                 0

Pending Indirect Cost Negotiations:

ETA          JTPA          12-88-038-03-370      VINNELL CORP 13                          1          2,358
OASAM        OPGM         05-90-049-07-735       ILLINOIS CMS, BCCS 13                    1     7,917,169
OASAM        OPGM          18-90-010-07-735      HOME BUILDERS INSTITUTE 13               8     1,747,000
OASAM        OPGM          18-90-022-07-735      TAG - INDIRECT    COSTS 86 & 8713        6       188,285
OASAM        OPGM          18-91-007-07-735      TAG - INDIRECT    COSTS 13               4        43,738
OASAM        OPGM          18-91-024-07-735      NATL GOVERNORS      ASSOCIATION _3       3       646,002

TOTAL    AUDIT EXCEPTIONS:                                                              151   $57,074,597

*Includes $955,797 of funds put to better use.

Notes are located on the following page.




                                                      80
Notes to "Unresolved Audits Over 6 Months Precluded From Resolution"


1The States have 180 days to issue a final management decision. Program Agencies and OIG have an additional
180 days to accept the State-level decision.

2ETA is using the TAA regulations at 20 CFR 617.52 (c) to resolve the issues raised in this audit report. Under
these regulations, the Secretary will decide whether the State will be required to restore funds to the Federal
government.

3An OIG/ETA joint review disclosed $13.1 million in misclassified non-training costs and an additional $10.1
million in unpaid vouchers. OIG concluded that a detailed analysis of program costs prepared by the Puerto Rico
Balance of State SDA (BOS) was reasonable and, accordingly, adjustments were adequate to reduce the
misclassified cost liability to zero. As part of the adjustments, BOS and the Puerto Rico Volunteer Youth Corps
(PRVYC) agreed that BOS will not reimburse the PRVYC the $10.1 in unpaid vouchers. To resolve our recom-
mendation on the reclassification of non-training costs, we require ETA's written concurrence with our conclu-
sions pertaining to the $13.1 million.

4In the response to the final report, ETA stated they would *explore the feasibility of developing more specific
directives on the matter of program income that would apply to all partnership grantees." This response is not
sufficient to resolve the report.

5The Office of Procurement Services in the National Capital Service Center is responsible for resolution of this
ETA contract. They expect to issue their management decision by November 15, 1991.

6per agreement with the OIG, all responses needed to resolve Job Corps regional reports will be provided by
November 30, 1991.

7ESA and OIG are currently working toward resolution of this report.


8The Department and OIG have resolved all but one recommendation in this report.      The Department and OIG are
working towards a solution on the recommendation.

9OASAM and OIG have jointly requested an opinion from GAO on the unresolved recommendation.


I°OASAM is currently coordinating resolution with the agencies involved to provide documentation.

11As of the September 30, 1991, this report was over 180 days; however, on October 17, 1991, OSHA issued a
management decision which resolved the report.


12The Office of Procurement Services in the National Capital Service Center is responsible for resolution of this
ETA contract. They. expect to issue their management decision by October 31, 1991.

13OMB Circular A-50 does not require resolution within 180 days.




                                                        81
82
                                Final Audit Reports Issued
                               April 1 - September 30, 1991
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


02-91-233-01-001    OSEC     ADMIN      23-AUG-91    DOL'S Workers' Compensation Program

02-91-248-03-310    ETA      OFCMS      30-SEP-91    The Virgin Islands JTPA and UI Programs

02-91-207-03-340"   ETA      .iTPA      19-AUG-91    OEO Puerto Rico - SA

02-91-231-03-345    ETA      CETA       17-MAY-91    Municipality of Mayaguez - SA
02-91-236-03-345    ETA      CETA       17-MAY-91    County of Ocean - SA
02-91-253-03-345    ETA      CETA       23-JUL-91    Town of Barnstable, MA - SA

02-91-215-03-355    ETA      DINAP      08-APR-91    The Seneca Nation of Indians - SA
02-91-235-03-355"   ETA      DINAP      13-MAY-91    American Indians for Development Inc. - SA
02-91-254-03-355"   ETA      DINAP      04-SEP-91    Abenaki Self-Help Association, Inc. - SA

02-91-230-03-365"   ETA      DSFP       17-MAY-91    Rural Opportunities,   Inc. - SA

02-91-234-03-370    ETA      OJC        13-AUG-91    Puerto Rico Volunteer Youth Corps
02-91-237-03-370    ETA      OJC        30-JUL-91    Graflon Job Corps Center
02-91-238-03-370    ETA      OJC        11-JUL-91    Glenmont Job Corps Center
02-91-255-03-370    ETA      OJC        30-JUL-91    Grafton Job Corps Center Cost Overrun


02-91-201-50-598    MULTI    AL/DOL     01-MAY-91    State of New Jersey - SA
02-91-202-50-598"   MULTI    AL/DOL     19-AUG-91    Department of Labor and Human Resources - SA
02-91-203-50-598    MULTI    AL/DOL     29-APR-91    State of New York - SA
02-91-213-50-598    MULTI    AL/DOL      29-APR-91    State of New Jersey - SA
02-91-218-50-598    MULTI    AL/DOL      29-APR-91    State of New Jersey - SA
02-91-220-50-598    MULTI    AL/DOL      08-APR-91    Suffolk County, NY - SA
02-91-228-50-598"   MULTI    AL/DOL    • 02-MAY-91   ,State of New Hampshire - SA
02-91-229-50-598    MULTI    AL/DOL      30-SEP-91    State of Massachusetts - SA

03-91-032-03-340    ETA      JTPA       04-APR-91    Cities in Schools, Inc. - SA
03-91-041-03-340    ETA      JTPA       03-MAY-91    JTPA Program Accomplishments
03-91-057-03-340"   ETA      JTPA       18-JUN-91    VA Governor's Employment & Training Dept - SA

03-91-033-03-360"   ETA      DOWP       08-APR-91    Natl Council of Senior Citizens - SA
03-91-058-03-360    ETA      DOWP       18-JUN-91    Dept for the Aging, VA - SA

03-91-006-03-370    ETA      OJC        09-JUL-91    Pittsburgh JCC PY 88 & 89 Financial Audit
03-91-025-03-370    ETA      OJC        12-APR-91    Potomac JCC Cost Overrun Review
03-91-031-03-370    ETA      OJC       27-AUG-91     San Diego JCC Program Results Statements
03-91-042-03-370    ETA      OJC       29-APR-91     Prospective Contractor - Adams & Associates
03-91-048-03-370    ETA      OJC       25-JUN-91     Clearfield JCC Program Results Statements
03-91-049-03-370    ETA      OJC       15-JUL-91     Clearfield JCC PY 88 AUP & Fin Info
03-91-051-03-370    ETA      OJC       15-JUL-91     Clearfield JCC PY 89 AUP & Fin Info
03-91-055-03-370    ETA      OJC        30-SEP-91    Prog Results Stmts & Auditor's Report PY 88 & 89
03-91-068-03-370    ETA      OJC        16-SEP-91    Bamberg JCC Program Results Statements PY 88


                                               83
                                 Final Audit Reports Issued
                                April 1 - September 30, 1991
                                        Date Sent
Audit                                   to Program
Report Number        Agency   Program   Agency       Name of Audit/Auditee


03-91-069-03-370     ETA      OJC       16-SEP-91    Bamberg JCC Program Results Statements PY 89
03-91-073-03-370     ETA      OJC       27-SEP-91    Results Allowance & GTR Testing, Supplement Info

03-91-056-03-370     ESA      ADMIN     28-JUN-.91   FY 90 Financial Struts and Independent Audit Rpt

03-91-053-04-433     ESA      CMWC      18-JUL-91    Black Lung Disability Trust Fund Disbursements

03-91-026-06-001     MSHA     ADMIN     27-SEP-91    Program Results Statements & Auditor's Rpt

04-91-068-02-210     VETS     VETSPM    14-AUG-91    City of Jacksonville - SA

04-91-033-03-330     ETA      OTAA      17-APR-91    TN Survey Rpt on Implementation   of OTC
04-91-034-03-330     ETA      OTAA      17-APR-91    KY Survey Rpt on Implementation   of OTC

04-91-017-03-340     ETA      JTPA      11-APR-91    N Central FL Regional Planning Cncl SDA #5
04-91-030-03-340     ETA      JTPA      19-SEP-91    JTPA Audit Mgmt and Resolution - FL
04-91-032-03-340     ETA      JTPA      26-JUL-91    Federal Cash Mgmt within FL JTPA Program
04-91-038-03-340     ETA      JTPA      18-SEP-91    FL JTPA Revenue Account
04-91-039-03-340"    ETA      JTPA      24-MAY-91    Catawba Indian Nation - SA

04-9.1--035-03-355   ETA      DINAP     05-APR-91    Miccosukee Corp - SA
04-91-059-03-355"    ETA      DINAP     16-AUG-.91   Metrolina Native American Association, Inc - SA
04-91-064-03-355"    ETA      DINAP     01-APR-91    FL Governor's Council on Indian Affairs, Inc - SA
04-91-065-03-355"    ETA      DINAP     08-AUG-91    Haliwa-Saponi Indian Tribe - SA

04-91-036-03-365"    ETA      DSFP      18-APR-91    Delta Housing Development Corp - SA
04-91-052-03-365"    ETA      DSFP      27-JUN-91    MS Delta Council for Farm Workers - SA
04-91-060-03-365"    ETA      DSFP      22-JUN-91    Homes in Partnership - SA
04-91-062-03-365"    ETA      DSFP      23-JUL-91    FL Non-Profit Housing, Inc - SA

04-91-040-03-370     ETA      OJC       07-AUG-91    Earle C. Clements JCC PY 88
04-91-042-03-370     ETA      OJC       07-AUG-91    Earle C. Clements JCC PY 89
04-91-043-03-370     ETA      OJC       07-AUG-91    Earle C. Clements JCC PY 90
04-91-044-03-370     ETA      OJC       07-AUG-91    Earle C. Clements JCC PY 90
04-91-045-03.-370    ETA      OJC       07-AUG-91    Brunswick JCC SP PY 88
04-91-046-03-370     ETA      OJC       07-AUG-91    Brunswick JCC PY 90
04-91-047-03-370     ETA      OJC       07-AUG-91    Brunswick JCC PR PY 88 & 89
04-91-048-03-370     ETA      O/C       30-SEP-91    Gulfport JCC SP AUP PY 89
04-91-049-03-370     ETA      OJC       30-SEP-91    Gulfport JCC SP AUP PY 90
04-91-050-03-370     ETA      OJC       30-SEP-9 l   Gulfport JCC PR PY 89 & 90
04-91-053-03-370     ETA      OJC       07-AUG-91    Earle C. Clements JCC PY 88
04-91-054-03-370     ETA      OJC       07-AUG-91    Earle C. Clements JCC PY 89
04-91-055-03-370     ETA      OJC       07-AUG-91    Brunswick JCC AUP PY 89
04-91-056-03-370     ETA      OJC       07-AUG-91    Brunswick JCC AUP PY 90
04-91-057-03-370     ETA      OJC       30-SEP-91    Gulfport JCC AUP PY 89
04-91-058-03-370     ETA      OJC       30-SEP-91    Gulfport JCC AUP PY 90

                                                84
                                Final Audit Reports Issued
                               April 1 - September 30, 1991
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


04-91-041-11-111"    BLS     BLSG      06-JUN-91    Alabama Department of Labor - SA

04-91-005-50-598     MULTI   AL/DOL    24-SEP-91    State of Kentucky - SA
04-91-067-50-598"    MULTI   AL/DOL    15-AUG-91    State of Tennessee - SA
04-91-069-50-598     MULTI   AL/DOL    30-AUG-91    State of Mississippi - SA

04-91-051-98-599"    OT AGY NO/DOL     25-JUN-91    Orange County, FL - SA
04-91-061-98-599"    OT AGY NO/DOL     30-SEP-91    Brevard County, FL - SA

05-91-012-03-340     ETA     JTPA      17-APR-91    Seattle/King County OJT Broker
05-91-040-03-340     ETA     JTPA      17-APR-91    Louisville/Jefferson County OJT Broker
05-91-041-03-340     ETA     JTPA      23-AUG-91    South Florida E&T Consortium OJT Broker
05-91-042-03-340     ETA     JTPA      17-APR-91    Alamo SDA OJT Broker
05-91-043-03-340     ETA     JTPA      17-APR-91    PIC of Dallas OJT Broker
05-91-044-03-340     ETA     JTPA      17-APR-91    Cook County, IL P.O.E.T. OJT Broker
05-91-046-03-340     ETA     JTPA      23-AUG-91    Los Angeles OJT Broker

05-91-066-03-355"    ETA     DINAP     15-APR-91    Milwaukee Area American Indian Council, Inc - SA
05-91-067-03-355"    ETA     DINAP     16-APR-91    Indian Center, Inc - SA
05-91-068-03-355"    ETA     DINAP     13-MAY-91    Wisconsin Indian Consortium- SA
05-91-072-03-355     ETA     DINAP     18-SEP-91    Lac Courte Oreilles Tribal Council - SA
05-91-074-03-355     ETA     DINAP     20-SEP-91    White Earth Reservation - SA
05-91-076-03-355"    ETA     DINAP     30-MAY-91    Minneapolis American Indian Center, Inc - SA
05-91-077-03-355"    ETA     DINAP     04-JUN-91    MIIndian Employment & Training Services, Inc. -SA
05-91-114-03-355"    ETA     DINAP     25-JUL-91    United Tribes Kansas & Southeast Nebraska, Inc - SA
05-91-116-03-355"    ETA     DINAP     01-AUG-91    Nebraska Indian Inter-Tribal Development Corp - SA
05-91-118-03-355"    ETA     DINAP     12-AUG-91    American Indian Business Association - SA

05-91-070-03-360     ETA     DOWP      24-SEP-91    Illinois Department on Aging - SA

05-91-069-03-365"    ETA     DSFP      17-MAY-91    Minnesota Migrant Council - SA
05-91-075-03-365"    ETA     DSFP      28-MAY-91    Rural Missouri, Inc- SA
05-91-117-03-365"    ETA     DSFP      07-AUG-91    Homes/Casas, Inc - SA
05-91-119-03-365"    ETA     DSFP      22-AUG-91    Nebraska Association of Farmworkers   - SA
05-91-120-03-365"    ETA     DSFP      13-SEP-91    SER Corportation - SA

05-91-078-03-370     ETA     OJC       30-SEP-91    Humphrey JCC PY 88 Financial External
05-91-079-03-370     ETA     OJC       30-SEP-91    Humphrey JCC PY 89 Financial External
05-91-080-03-370     ETA     OJC       30-SEP-91    Humphrey JCC Program External
05-91-084-03-370     ETA     OJC       30-SEP-91    Laredo JCC PY 88 Financial External
05-91-085-03-370     ETA     OJC       30-SEP-91    Laredo JCC PY 89 Financial External
05-91-086-03-370     ETA     OJC       30-SEP-91    Laredo JCC Program External
05-91-090-03-370     ETA     OJC       30-SEP-91    Blackwell JCC PY 88 Financial External
05-91-091-03-370     ETA     OJC       30-SEP-91    Blackwell JCC PY 89 Financial External
05-91-096-03-370     ETA     OJC       16-SEP-91    Cleveland JCC PY 88 Financial Information
05-91-097-03-370     ETA     OJC       16-SEP-91    Cleveland JCC PY 89 Financial Information


                                               85
                                Final Audit Reports Issued
                               April 1 - September 30, 1991
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


05-91-098-03-370     ETA     OJC       16-SEP-91    Cleveland   JCC   Program Results
05-91-104-03-370     ETA     OJC       16-SEP-91    Atterbury   JCC   PY 88 AUP Financial
05-91-105-03-370     ETA     OJC       16-SEP-91    Atterbury   JCC   7/1/89-1/31/90 AUP Financial
05-91-106-03-370     ETA     OJC       06-SEP-91    Atterbury   JCC   2/1/90-6/30/90 AUP Financial
05-91-107-03-370     ETA     OJC       06-SEP-91    Atterbury   JCC   AUP Program Results

05-91-059-50-598     MULTI   AL/DOL    08-APR-91    State of Wisconsin - SA
05-91-071-50-598     MULTI   AL/DOL    27-SEP-91    State of Missouri - SA
05-91-073-50-598     MULTI   AL/DOL    26-SEP-91    IL Dept of Commerce and Community Affairs - SA
05-91-113-50-598"    MULTI   AL/DOL    15-JUL-91    IN Dept of Labor- SA
05-91-115-50-598"    MULTI   AL/DOL    26-JUL-91    IN Dept of Employment & Trng Services - SA

06-91-003-03-340     ETA     JTPA      27-SEP-91    Adequacy ETA Fin Reporting & Acctng for JTPA
06-91-019-03-340     ETA     JTPA      27-SEP-91    Denver SDA - Comp Fed & State Req

06-91-220-03-355    ETA      DINAP     23-APR-91    Turtle Mountain Band of Chippewa Indians - SA
06-91-221-03-355    ETA      DINAP     25-APR-91    Sisseton-Wahpeton Sioux Tribe - SA
06-91-223-03-355    ETA      DINAP     13-MAY--91   Ute Indian Tribe - SA
06-91-224-03-355    ETA      DINAP     16-MAY--91   Comanche Indian Tribe - SA
06-91-225-03-355    ETA      DINAP     16-MAY-91    Inter-Tribal Council, Inc- SA
06-91-228-03-355    ETA      DINAP     05-JUN-91    Northern Cheyenne Tribe - SA
06-91-230-03-355    ETA      DINAP     26-JUL-91    Caddo Indian Tribe of Oklahoma - SA
06-91-232-03-355    ETA      DINAP     29-JUL-91    Confederated Salish & Kootenai Tribes - SA
06-91-235-03-355    ETA      DINAP     02-AUG-91    Tigua Indian Tribe - SA
06-91-236-03-355    ETA      DINAP     05-AUG-91    United Sioux Tribe Development Corp - SA
06-91-238-03-355    ETA      DINAP     02-AUG-91    Pawnee Tribe - SA
06-91-239-03-355    ETA      DINAP     06-AUG-91    Ute Indian Tribe - SA
06-91-242-03-355    ETA      DINAP     13-AUG-91    Osage Nation - SA
06-91-244-03-355    ETA      DINAP     10-SEP-91    Comanche Indian Tribe - SA
06-91-245-03-355    ETA      DINAP     12-SEP-91    United Tribes Technical College - SA
06-91-246-03-355    ETA      DINAP     12-SEP-91    Chippewa Cree Tribe - SA
06-91-247-03-355    ETA      DINAP     13-SEP-91    Chippewa Cree Tribe - SA
06-91-248-03-355    ETA      DINAP     19-SEP-91    Eight Northern Indian Pueblos Council - SA
06-91-249-03-355    ETA      DINAP     23-SEP-91    Pueblo of Zuni - SA
06-91-250-03-355    ETA      DINAP     24-SEP-91    Santo Domingo Tribe - SA
06-91-251-03-355    ETA      DINAP     25-SEP-91    Cherokee Nation of Oklahoma - SA
06-91-252-03-355    ETA      DINAP     30-SEP-91    Assinboine & Sioux Tribes - SA
06-91-253-03-355    ETA      DINAP     30-SEP-91    Rosebud Sioux Tribe - SA

06-91-112-03-365"    ETA     DSFP      16-APR-91    San Patricio County Comm on Youth Educ & Job - SA
06-91-113-03-365"    ETA     DSFP      19-ARP-91    San Patricio County Comm on Youth Educ & Job - SA
06-91-114-03-365"    ETA     DSFP      24-APR-91    Rocky Mountain SER/JOBS for Progress - SA
06-91-116-03-365"    ETA     DSFP      10-MAY-91    Tierra Del Sol Housing Corp - SA
06-91-118-03-365"    ETA     DSFP      14-MAY-91    Rural Employment Opportunities, Inc - SA
06-91-119-03-365"    ETA     DSFP      03-JUN-91    Oro Development Corp - SA
06-91-120-03-365"    ETA     DSFP      19-JUL-91    Arkansas Human Development Corp - SA


                                               86
                                Final Audit Reports Issued
                               April 1 - September 30, 1991
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


06-91-122-03-365.   ETA      DSFP      04-JUN-91    Motivation, Education & Training, Inc - SA



06-91-020-03-370    ETA      OJC       20-AUG-91    Gary JCC Special Purpose AUP PY 88
06-91-021-03-370    ETA      OJC       20-AUG-91    Gary JCC Special Purpose AUP PY 89
06-91-022-03-370    ETA      OJC       20-AUG-91    Gary/CC AUP PY 88
06-91-023-03-370    ETA      OJC       20-AUG-91    Gary JCC AUP PY 89
06-91-024-03-370    ETA      OJC       20-AUG-91    Gary JCC Program Results PYs 88 & 89
06-91-025-03-370    ETA      OJC       04-SEP-91    Shreveport JCC Special Purpose AUP PY 88
06-91-026-03-370    ETA      OJC       04-SEP-91    Shreveport JCC Special Purpose AUP PY 89
06-91-027-03-370    ETA      OJC       04-SEP-91    Shreveport JCC AUP PY 88
06-91-028-03-370    ETA      O.IC      04-SEP-91    Shreveport JCC AUP PY 89
06-91-029-03-370    ETA      OJC       04-SEP-91    Shreveport JCC Program Results PYs 88 & 89
06-91-030-03-370    ETA      OJC       04-SEP-91    Tulsa JCC Special Purpose AUP PY 88
06-91-031-03-370    ETA      OJC       04-SEP-91    Tulsa JCC Special Purpose AUP PY 89
06-91-032-03-370    ETA      OJC       04-SEP-91    Tulsa JCC AUP PY 88
06-91-033-03-370    ETA      OJC       04-SEP-91    Tulsa JCC AUP PY 89
06-91-034-03-370    ETA      OJC       04-SEP-91    Tulsa JCC Program Results PYs 88 & 89
06-91-035-03-370    ETA      OJC       03-SEP-91    McKirmey JCC SP AUP Rpts & Fin Stmt PY 88
06-91-036-03-370    ETA      OJC       03-SEP-91    McKinney JCC SP AUP Rpts & Fin Strut PY 89
06-91-037-03-370    ETA      OJC       03-SEP-91    McKinney JCC AUP Rpts & Related Fin Info PY 88
06-91-038-03-370    ETA      OJC       03-SEP-91    McKinn_ey JCC AUP Rpts & Related Fin Info PY 89
06-91-039-03-370    ETA      OJC       03-SEP-91    McKinney JCC Program Results PYs 88 & 89
06-91-040-03-370    ETA      OJC       05-SEP-91    Regional Job Corps Management Letter
06-91-041-03-370    ETA      OJC       19-JUL-91    McKirmey JCC Special Review of GED
06-91-042-03-370    ETA      OJC       21-AUG-91    McKirmey JCC Special Review - AWOL

06-91-017-04-431    ESA      FECA      01-AUG-91    .FECA FY 90 Compliance Review

06-91-241-06-601    MSHA     GRTEES    09-AUG-91    ND State Board for Vocational Education - SA

06-91-005-09-001    OIG      ADMIN     30-SEP-91    Leonard G. Birnbaum & Co
06-91-007-09-001    OIG      ADMIN     09-JUL-91    Sanson, Kline, JocomJno & Co
06-91-014-09-001    OIG      ADMIN     08-SEP-91    Hazlett, Lewis & Bieter
06-91-015-09-001    OIG      ADMIN     20-SEP-91    Broden, Johnson, Lee & Co
06-91-016-09-001    OIG      ADMIN     30-SEP-91    Williams, Young & Associates

06-91-121-10-101"   OSHA     OSHAG     19-JUL-91    Wyoming Dept of Labor & Statistics - SA
06-91-234-10-101    OSHA     OSHAG     01-AUG-91    New Mexico Health & Environment Dept - SA
06-91-240-10-101    OSHA     OSHAG     06-AUG-91    Dept of Health Consolidated Lab - SA
06-91-243-10-101    OSHA     OSHAG     29-AUG-91    New Mexico Health & Environment Dept - SA

06-91-126-11-111"   BLS      BLSG      23-SEP-91    Arkansas Workers'   Compensation Commission - SA

06-91-115-50-598"   MULTI    AL/DOL    25-APR-91    Arkansas Employment Security Division - SA
06-91-222-50-598    MULTI    AL/DOL    10-MAY-91    Cherokee Nation- SA


                                              87
                                 Final Audit Reports Issued
                                April 1 - September 30, 1991
                                        Date Sent
Audit                                   to Program
Report Number        Agency   Program   Agency       Name of Audit/Auditee


06-91-226-50-598     MULTI    AL/DOL    12-APR-91    State   of   Texas - SA
06-91-227-50-598     MULTI    AL/DOL    17-MAY-91    State   of   Utah - SA
06-91-229-50-598     MULTI    AL/DOL    06-JUN-91    State   of   Colorado - SA
06-91-231-50-598     MULTI    AL/DOL    17-JUL-91    State   of   Oklahoma - SA
06-91-237-50-598     MULTI    AL/DOL    08-AUG-91    State   of   Louisiana - SA

09-91-202-03-340     ETA      JTPA      26-SEP-91    Program Outcomes - Tacoma/Pierce   County PIC
09-91-558-03-340     ETA      JTPA      24-MAY-91    County of Kern - SA

09-91-530-03-355     ETA      DINAP     31-MAY-91    Cook Inlet Tribal Council - SA
09-91-541-03-355"    ETA      DINAP     12-APR-91    Indian Development District of AZ - SA
09-91-550-03-355"    ETA      DINAP     30-APR-91    Kawerak Inc - SA
09-91-551-03-355     ETA      DINAP     11-APR-91    Puyallup Tribe - SA
09-91-552-03-355     ETA      DINAP     09-MAY-91    The Navajo Nation - SA
09-91-553-03-355"    ETA      DINAP     22-APR-91    Confederated Tribes of Warm Springs - SA
09-91-555-03-355"    ETA      DINAP     22-APR-91    Gila River Indian Community - SA
09-91-564-03-355     ETA      DINAP     31-MAY-91    Shoshone-Bannock Tribes, Inc - SA
09-91-565-03-355"    ETA      DINAP     26-JUN-91    American Indian Association of Tucson - SA
09-91-566-03-355"    ETA      DINAP     26-JUN-91    American Indian Association of Tucson - SA
09-91-567-03-355     ETA      DINAP     17-JUL-91    Colorado River Indian Tribes - SA
09-91--569-03-355"   ETA      DINAP     17-JUL-91    California Indian Manpower Consortium - SA
09-91-572-03-355     ETA      DINAP     29-JUL-91    Pascua Yaqui Tribe - SA
09-91-573-03-355     ETA      DINAP     02-AUG-91    Shoshone-Paitue Tribes of the Duck Valley Res - SA
09-91-574-03-355"    ETA      DINAP     07-AUG-91    The North Pacific Rim - SA
09-91-575-03-355"    ETA      DINAP     24-SEP-91    Phoenix Indian Center - SA
09-91-576-03-355"    ETA      DINAP     12-AUG-91    Affiliation of Arizona Indian Center - SA

09-91-554-03-360"    ETA      DOWP      15-MAY-91    Assoc Nacional Pro Personas Mayores - SA

09-91-548-03-365     ETA      DSFP      09-APR-91    Self-Help Enterprises - SA
09-91-549-03-365     ETA      DSFP      23-APR-91    Portable Practical Education Prep - SA
09-91-557-03-365     ETA      DSFP      09-MAY-91    Rural Community Assistance Corp - SA
09-91-559-03-365     ETA      DSFP      29-MAY-91    Self-Help Enterprises - SA
09-91-560-03-365     ETA      DSFP      29-MAY-91    Self-Help Enterprises - SA
09-91-561-03-365"    ETA      DSFP      29-MAY-91    Central Valley Opportunity Center - SA
09-91-562-03-365"    ETA      DSFP      29-MAY-91    Idaho Migrant Council - SA
09-91-563-03-365"    ETA      DSFP      31-MAY-91    California Human Development Corp - SA
09-91-568-03-365"    ETA      DSFP      17-JUL-91    Center for Employment Training (CET) - SA

09-91-003-03-370     ETA      OJC       26-JUL-91    San Jose JCC & Regional Office Review
09-91-004-03-370     ETA      OJC       26-JUL-91    San Jose JCC Program Results
09-91-005-03-370     ETA      OJC       26-JUL-91    San Jose JCC AUP Rpt & Related Fin Info
09-91-006-03-370     ETA      OJC       26-JUL-91    San Jose JCC AUP Rpt & Related Fin Info
09-91-020-03-370     ETA      OJC       05-AUG-91    Columbia Basin Placement PYs 88, 89 & 90
09-91-021-03-370     ETA      OJC       26-JUL-91.   Columbia Basin Program Results Stmt 6/30/89
09-91-022-03-370     ETA      OJC       26oJUL-91    Columbia Basin Program Results Stmt 6/30/90

                                                88
                               Final Audit Reports Issued
                              April 1 - September 30, 1991
                                      Date Sent
Audit                                 to Program
Report Number      Agency   Program   Agency       Name of Audit/Auditee


09-91-025-03-370    ETA     OJC       26-JUL-91    Columbia Basin 6/30/89
09-91-026-03-370    ETA     OJC       26-JUL-91    Columbia Basin 6/30/90

09-91-009-07-751    OASAM   OFMS      25-SEP-91    OASAM Financial Managment and Internal Controls

09-91-546-50-598    MULTI   AL/DOL    08-APR-91    Government of Guam - SA
09-91-547-50-598    MULTI   AL/DOL    ll-APR-91    American Samoa Government - SA
09-91-556-50-598    MULTI   AL/DOL    15-MAY-91    Republic of the Marshall Islands - SA

12-90-014-02-210    VETS    VETSPM    23-JUL-91    University of Colorado at Denver

12-91-023-03-001    ETA     ADMIN     27-JUN-91    FY 90 ETA Financial Statements

12-91-002-03-370    ETA     OJC       25-APR-91    Joint Action in Community Service, Inc
12-91-006-03-370    ETA     OJC       16-MAY-91    North American Biologicals, Inc
12-91-032-03-370    ETA     OJC       30-SEP-91    Job Corps Financial Stmts and Auditor's Rpt
12-91-033-03-370    ETA     OJC       30=SEP-91    Analysis of Costs Invested in Human Capital
12-91-034-03-370    ETA     OJC       30-SEP-91    Analysis of Costs Invested in Human Capital-Region

12-91-003-03-380    ETA     SPPD      17-MAY-91    National Council of La Raza
12-91-005-03-380    ETA     SPPD      07-MAY-91    Lawrence Johnson Associates, Inc

12-91-009-07-001    OASAM   ADMIN     28-JUN-91    FY 90 Consolidated Financial Statements

12-91-025-07-735    OASAM   OPGM      03-MAY-91    ITT Federal Electric Corp 1985
12-91-026-07-735    OASAM   OPGM      03-MAY-91    ITr Federal Electric Corp 1986
12-91-027-07-735    OASAM   OPGM      03-MAY-91    ITT Federal Electric Corp 1987

17-91-004-01-001    OSEC    ADMIN     25-SEP-91    ESA Procurement of TQM Trng & Related Services
17-91-015-01-001    OSEC    ADMIN     30-SEP-91    Status Rpt on Efforts to Improve Dept Enforcement

17-91-002-04-001    ESA     ADMIN     25-SEP-91    ESA Procurement    of TQM Trng & Related Services

17-91-001-04-420    ESA     WHD       30-SEP-91    Effectiveness Of Wage and Hour Enforcement

17-91-003-07-001    OASAM   ADMIN     25-SEP-91    ESA Procurement    ofTQM Trng & Related Services

18-91-030-01-001   ' OSEC   ADMIN     30-SEP-91    Pres Comm on Employ of People with Disabilities

18-91-041-02-201    VETS    CONTR     30-SEP-91    Urban Revitalization   - USA 5/2/88-5/1/89

18-91-021-03-340    ETA     JTPA      30-SEP-91    70001 (WAVE, Inc)
18-91-034-03-340    ETA     JTPA      12-JUL-91    OIC of America, Inc
18-91-045-03-340    ETA     JTPA      27-SEP-91    Philadelphia Private Industry Council

18-91-028-03-355    ETA     DINAP     20-SEP-91    American Indian Fellowship Association

                                             89
                                      Final Audit Reports Issued
                                     April 1 - September 30, 1992
                                                Date Sent
Audit                                           to Program
Report Number         tAgency     Program       Agency          Name of Audit/Auditee



18-91-033-03-370        ETA        OJC           21-AUG-91       National Maritime Union of America
18-91-005-07-735        OASAM      OPGM          01-JUL-91       Transportation Communication International     Union
18-91-017-07-735        OASAM      OPGM          09-JUL-91       Res-Care Indirect Costs - CY 88
18-91-018-07-735        OASAM      OPGM          19-JUL-91       National Council on Aging, Inc
18-91-019-07-735        OASAM      OPGM          23-SEP-91       Res-Care Indirect Cost Rate CY 89
18-91-031-07-735        OASAM      OPGM          13-MAY-91       Johnson, Bassin & Shaw, Inc
18-91-035-07-735        OASAM      OPGM          30-SEP-91       OIC of America Direct & Indirect Costs 7/89-9/90
18-91-042-07-735        OASAM      OPGM          23-SEP-91       Home Builders Institute Indirect Cost FY 86

19-91-007-03-310        ETA        OFCMS         20-SEP-91       GCMIS: Strong Coordination & Careful Evaluation
                                                                  Needed to Reduce Risk



*DOL has cognizant responsibility for specific entities under the Single Audit Act. Reports listed and asterisked above
indicate those entities for which DOL has cognizance. More than one audit report may have been issued or transmitted
for an entity during this time period. Reports are issued or transmitted based on the type of funding and the agency/
program responsible for resolution.




                                                        90
                       Abbreations          Used in this Report

ADMIN    Agency Administration
AICPA    American Institute of Certified Public Accountants
AL/DOL   All DOL agencies involved in the audit
ASAM     Assistant Secretary for Administration and Management
BAT      Bureau of Apprenticeship Training (ETA)
BL       Black Lung Benefits Program (ESA)
BLDTF    Black Lung Disability Trust Fund (ESA)
BLS      Bureau of Labor Statistics
CETA     Comprehensive Employment and Training Act (ETA)
CMWC     Coal Mine Workers' Compensation (ESA)
COMP     Comptroller
DBRA     Davis Bacon and Related Acts
DFEC     Division of Federal Employees' Compensation (ESA)
DINAP    Division of Indian and Native American Programs (ETA)
DIRM     Directorate of Information Resources Management (OASAM)
DOJ      Department of Justice
DOL      Department of Labor
DOLAR$   Department of Labor Accounting Related Systems (OASAM)
DOWP     Division of Older Workers Program (ETA)
DSFP     Division of Seasonal Farmworker Programs (ETA)
DVOP     Disabled Veterans Outreach Program (VETS)
ECN      Executive Computer Network
ERISA    Employee Retirement Income Security Act
ESA      Employment Standards Administration
ETA      Employment and Training Administration
FECA     Federal Employees' Compensation Act
FMFIA    Federal Managers' Financial Integrity Act
FLC      Foreign Labor Certification
GAO      Government Accounting Office
GAAP     Generally Accepted Accounting Principles
GRTEES   Grantees
ILO      International Labor Organization
ILAB     Bureau of International Labor Affairs
ILGWU    International Ladies Garment Workers'    Union
JFMIP    Joint Financial Management Improvement     Program
JTPA     Job Training Partnership Act (ETA)
LAN      Local Area Network
LMRDA    Labor Management Reporting and Disclosure Act
MEWA     Multiple Employer Welfare Arrangement
MSHA     Mine Safety and Health Administration
MSHAG    Mine Safety and Health Administration Grantees
NCOA     National Council on the Aging                             _
NO/DOL   No DOL funds involved in the audit
OASAM    Office of Assistant Secretary for Administration and Management
OI       Office of Investigations (OIG)
OIC/A    Opportunities Industrial Centers of America, Inc.
OIG      Office of Inspector General
OJC      Office of Job Corps
OJT      On-the-Job Training
OLMS     Office of Labor-Management     Standards
OLR      Office of Labor Racketeering (OIG)

                                             91
OMB      Office of Management and Budget
OPGM     Office of Procurement and Grant Management (OASAM)
ORMLA    Office of Resource Management and Legislative Assessment   (OIG)
OSEC     Office of the Secretary
OSHA     Occupational Safety and Health Administration
OSHAG    Occupational Safety and Health Administration Grantees
OT AGY   Agency other than DOL
OWCP     Office of Workers' Compensation Programs (ESA)
PFCRA    Program Fraud Civil Remedies Act of 1986
PIC      Private Industry Council
PWBA     Pension and Welfare Benefits Administration
SESA     State Employment     Security Agency
SOL      Solicitor of Labor
SPPD     Stategic Planning and Policy Development Office (ETA)
TAA      Trade Adjustment Act
UIS      Unemployment Insurance Service (ESA)
VETS     Veterans' Employment and Training Services




                                                92
            Copies of this report may be obtained
            from the U.S. Department of Labor,
            Office of Inspector General,
            Room S-5508
            200 Constitution Ave., N.W.
            Washington, D.C. 20210




IIIIII




                   DEPARTMENT OF LABOR
                       OIG HOTLINE _

                 357-0227 (Washington Dialing Area L

      1-800-347-3756 (Toll Free--outside   Washington Area)

         The OIG Hotline is open 24 hoursla day, 7 days a
         week to receive allegations of fraud, waste, and
         abuse. An operator is normally on duty on work-
         days between 8:15 AM and 4:45 PM, Eastern Time.
         An answering machine handles calls at other times.
         Federal employees may reach the Hotline through
         FTS. The toll-free number is available for those _
         residing outside the Washington Dialing Area who
         wish to report these allegations. _Written com-
         plaints may be sent to:

                    OIG Hotline
                    U.S. Department of Labor
                    Room S-5512 FPB
                    200 Constitution Avenue, N.W.
                    Washington, D.C. 20210
  i
